<html>
<title> - NASA'S EARTH SCIENCE AND APPLICATIONS PROGRAMS: FISCAL YEAR 2008 BUDGET REQUEST AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        NASA'S EARTH SCIENCE AND
                   APPLICATIONS PROGRAMS: FISCAL YEAR
                     2008 BUDGET REQUEST AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2007

                               __________

                           Serial No. 110-44

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                                     
                    U.S. GOVERNMENT PRINTING OFFICE
36-145                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
MICHAEL M. HONDA, California         DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               VACANCY
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                             June 28, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    16
    Written Statement............................................    17

Statement by Representative Tom Feeney, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    18

                               Witnesses:

Dr. Michael H. Freilich, Director, Earth Science Division, 
  Science Mission Directorate, National Aeronautics and Space 
  Administration (NASA)
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    28

Dr. Richard A. Anthes, President, University Corporation for 
  Atmospheric Research; Co-Chair, Committee on Earth Science and 
  Applications from Space, National Research Council, The 
  National Academies
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    40

Dr. Eric J. Barron, Dean, Jackson School of Geosciences; Jackson 
  Chair in Earth System Science, University of Texas, Austin
    Oral Statement...............................................    41
    Written Statement............................................    42
    Biography....................................................    46

Dr. Timothy W. Foresman, President, International Center for 
  Remote Sensing Education
    Oral Statement...............................................    50
    Written Statement............................................    51
    Biography....................................................    60

Discussion
  Balance in the Earth Science and Applications Program..........    61
  Strategies to Mitigate the Impact of Climate Sensors Removed 
    From NPOESS..................................................    61
  Maintaining Climate Instrument Teams...........................    62
  NASA's Plans With Respect to Resources.........................    62
  Continuity of Climate Observations, Data Gaps, and Sensor 
    Calibration..................................................    63
  Transitioning Research Satellites and Measurements into 
    Operational Systems..........................................    65
  Follow-on to NASA's QuikSCAT Satellite.........................    66
  Total Solar Irradiance Sensor (TSIS)--Maintaining the Team and 
    Potential Inclusion on Landsat Data Continuity Mission.......    67
  Climate Measurements and `Decadal Survey' Missions.............    68
  International Cooperation, Including Challenges of ITAR........    69
  Plans for Future Observations Systems to Address Societal Needs    71
  NASA's Future Earth Observation Missions and Integrating 
    Decadal Survey Recommendations, NPOESS Changes, and 
    International Cooperation....................................    74

              Appendix: Answers to Post-Hearing Questions

Dr. Michael H. Freilich, Director, Earth Science Division, 
  Science Mission Directorate, National Aeronautics and Space 
  Administration (NASA)..........................................    78

Dr. Richard A. Anthes, President, University Corporation for 
  Atmospheric Research; Co-Chair, Committee on Earth Science and 
  Applications from Space, National Research Council, The 
  National Academies.............................................    94

Dr. Eric J. Barron, Dean, Jackson School of Geosciences; Jackson 
  Chair in Earth System Science, University of Texas, Austin.....    99

Dr. Timothy W. Foresman, President, International Center for 
  Remote Sensing Education.......................................   102


NASA'S EARTH SCIENCE AND APPLICATIONS PROGRAMS: FISCAL YEAR 2008 BUDGET 
                           REQUEST AND ISSUES

                              ----------                              


                        THURSDAY, JUNE 28, 2007

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Earth Science and

                   Applications Programs: Fiscal Year

                     2008 Budget Request and Issues

                        thursday, june 28, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, June 28, 2007 at 10:00 am, the House Committee on 
Science and Technology's Subcommittee on Space and Aeronautics will 
hold a hearing to examine the National Aeronautics and Space 
Administration's (NASA) Fiscal Year 2008 budget request and plans for 
the Earth science and applications programs, and issues related to the 
programs.

Witnesses:

    Witnesses scheduled to testify at the hearing include the 
following:

Dr. Michael H. Freilich, Director, Earth Science Division, Science 
Mission Directorate, NASA

Dr. Richard A. Anthes, President, Universities Corporation for 
Atmospheric Research

Dr. Eric J. Barron, Dean, Jackson School of Geosciences, University of 
Texas, Austin

Dr. Timothy W. Foresman, President, International Center for Remote 
Sensing Education

Potential Issues

    The following are some of the potential issues that might be raised 
at the hearing:

What is the future direction of NASA's Earth Science program?

        <bullet>  The authors of the recently released National 
        Academies' report, Earth Science and Applications from Space: 
        National Imperatives for the Next Decade and Beyond (the 
        ``decadal survey'') found that ``The NASA/NOAA Earth 
        Observation Satellite system, launched at the turn of the 
        millennium, is aging and the existing plan for the future is 
        entirely inadequate to meet the coming challenges.'' 
        (Attachment 1) Over the last two years, for example, several 
        missions or instruments that were planned to study the climate, 
        weather, precipitation, and land cover changes have been 
        descoped, delayed, on the brink of cancellation, or canceled. 
        Examples of these decisions are listed below and in Attachment 
        2.

                  Deep Space Climate Observatory (decision not to 
                launch)

                  Hydros mission to measure soil moisture (canceled)

                  Global Precipitation Mission (delayed)

                  National Polar-orbiting Operational Environmental 
                Satellite System (NPOESS) (descoped and delayed)

                  Glory (delayed)

                  Landsat Data Continuity Mission (changing 
                acquisition approaches, possible data gaps)

           The authoring committee recommended a set of observing 
        systems and supporting research and technology elements needed 
        to meet the high priority Earth science and socioeconomic 
        challenges that face our planet over the next decade. The 
        committee estimated that returning to the FY 2000 budget level 
        for NASA's Earth science and applications program--
        approximately $2 billion per year--would be sufficient for 
        building the recommended program. (Attachment 3) The 
        President's FY 2008 budget request for NASA's Earth science and 
        applications program and the projections through FY 2012, 
        however, do not include resources for initiating the future 
        missions or research activities recommended in the decadal 
        survey. What is NASA's plan for implementing the Earth sciences 
        decadal survey and what is the timeline? What future direction 
        will NASA's Earth science and applications program take given 
        the available resources? Which of the decadal survey priorities 
        will be addressed and what observations will be made?

How Important Are Observations from NASA's Earth Science Missions to 
the Nation's and the World's Overall Climate Research Efforts?

        <bullet>  The recent release of the Fourth Assessment Report of 
        the International Panel on Climate Change (IPCC) Working Group 
        I found that the climate is warming and the catalysts for that 
        warming are due, in part, to human contributions of greenhouse 
        gases to the Earth's atmosphere. To what extent did data from 
        NASA Earth observing satellites contribute to the IPCC 
        assessment and which missions recommended in the Earth science 
        decadal survey can help reduce uncertainties mentioned in the 
        report? At the national level, an ``Overview of U.S. Research 
        in Climate and Global Change,'' noted that ``The USGCRP [U.S. 
        Global Change Research Program] and Climate Change Research 
        Initiative (CCRI) will place major emphasis on requirements-
        driven specification of comprehensive observing systems. . ..'' 
        The attributes of those systems would include:

                  ``Development of new observing capabilities to 
                illuminate Earth system processes and increase spatial, 
                temporal, or spectral resolution where needed to reduce 
                key uncertainties in climate change and address 
                emerging Earth science questions. . ..

                  Special emphasis on the complex observations and 
                monitoring systems needed to analyze terrestrial and 
                aquatic ecosystem variability.''

           Are NASA's plans for Earth Science and Applications 
        consistent with the goals set out in the U.S. Global Change 
        Research Program and Climate Change Research Initiative? How 
        important are NASA's Earth observation satellites to the 
        Nation's and the world's climate research efforts? What 
        percentage of the world's space-based climate monitoring is 
        performed by NASA's Earth observing sensors? What percentage of 
        the Nation's and the world expenditures on climate research 
        does NASA's contribution represent? What is the potential 
        impact on plans and policies for adapting to climate change if 
        new observing systems are not developed?

        <bullet>  Leadership in Future Earth Sciences and Applications 
        Activities

           According to the decadal survey, ``Sustained multi-decadal, 
        global measurements and data management of quantities that are 
        key to understanding the state of the climate and the changes 
        taking place are crucial.'' Sustaining multi-decadal 
        measurements requires commitment and leadership, as noted by 
        the survey's call for the U.S. Government to restore leadership 
        in Earth sciences and applications. In a recent interview on 
        National Public Radio's (NPR) Morning Edition program, the NASA 
        Administrator said, ``I have no doubt that. . .a trend of 
        global warming exists. I am not sure that it is fair to say 
        that it is a problem we must wrestle with.'' NASA's own 
        scientists use NASA Earth observation data to research Earth's 
        climate. Dr. Griffin has since apologized for his remarks on 
        NPR to employees at the Jet Propulsion Laboratory, yet his 
        statements are leading some people to question NASA's 
        commitment to leadership in climate monitoring and Earth 
        science. How committed are the agency and the nation to 
        ensuring U.S. leadership in Earth sciences and applications? To 
        what degree will leaders commit to multi-decadal, global 
        measurements of the Earth system?

How Well Balanced is the NASA Earth Sciences Program?

        <bullet>  The National Academies' decadal survey emphasized 
        that NASA's Earth science and applications program must be 
        balanced across scientific disciplines within Earth system 
        science; across mission sizes (small, medium, and large); 
        technology maturity; and between observations and analysis, 
        modeling, and applications. Does NASA agree with this 
        definition of balance? How well is NASA's current Earth science 
        and applications program balanced according to these elements? 
        What performance measures might be used to assess balance 
        within and among NASA's Earth science program elements?

                  Importance of the Grants Program (Research and 
                Analysis) The decadal survey raises concern about 
                reductions in the research and analysis accounts 
                (grants for interpreting data, developing new concepts 
                for algorithms, models, technology, and missions, and 
                for training graduate students) and emphasizes the need 
                for a strong R&A program to support the ongoing and 
                planned missions. According to a 2006 National 
                Academies report, An Assessment of Balance in NASA's 
                Science Programs, ``The most serious impacts on the 
                long-term strategy and capacity-building efforts in 
                Earth science will result from the severe cuts in the 
                R&A program. Although the proposed R&A cuts across NASA 
                are approximately 15 percent, the cuts for FY 2007 
                appear to be closer to 20 percent in key elements of 
                the Earth sciences.'' In a constrained resource 
                environment, are there elements of a balanced program, 
                such as R&A, that should be protected beyond others? If 
                so, what are they? What is the appropriate mechanism 
                for assessing balance and making adjustments as needed? 
                What threshold of R&A resources is required to ensure a 
                healthy program? Are there measures to assess the 
                effectiveness of investments in R&A?

What is NASA Doing to Better Utilize Earth Science Research Data to 
Address Societal Needs?

        <bullet>  The National Academies Earth science decadal survey 
        stresses the importance of ``advances in fundamental 
        understanding of the Earth system and increased application of 
        this understanding to serve the nation and the people of the 
        world.'' NASA's Earth science applications program supports 
        competitively selected proposals to apply NASA Earth science 
        research results, technologies, and data to high priority 
        societal needs. Those priorities include agricultural 
        efficiency, coastal management, energy management, air quality, 
        and public health among other application areas. The 
        applications program focuses on developing federal decision 
        support tools. Is NASA's application program structured to 
        address the decadal survey's recommendations on applications 
        for societal benefit? What, if any, changes to NASA's 
        applications program are needed to make NASA's Earth science 
        information more responsive to societal needs?

                  NASA Authorization Act and Earth Science 
                Applications. Section 313 of the NASA Authorization Act 
                of 2005 directs NASA to ``establish a program of grants 
                for competitively awarded pilot projects to explore the 
                integrated use of sources of remote sensing and other 
                geospatial information to address State, local, 
                regional, and tribal agency needs.'' NASA's response to 
                Section 313, so far, has been to note in its grant 
                solicitations that the applications program supports 
                organizations with connections to State, local, 
                regional, and tribal constituencies. Does this step 
                represent any change to grant solicitations prior to 
                the Authorization Act? Is NASA's response sufficient to 
                address the Section 313 directive? How many grants does 
                NASA issue that directly address State, local, regional 
                and tribal needs? To what extent do national decision 
                support systems serve as pilot projects to address 
                State, local, regional, and tribal agency needs?''

                  Commercial Initiatives in Using Earth Observation 
                Data. Google Earth and Microsoft Virtual Earth are 
                making Earth observation data available over the 
                Internet at no cost to users. What impacts are these 
                initiatives having on the use of NASA--provided Earth 
                observations data for applications? What is NASA's 
                relationship to these commercial enterprises?

What is the Fate of the Climate Instruments That Were Removed From 
NPOESS?

        <bullet>  When the NPOESS program was certified under Nunn-
        McCurdy, a number of climate sensors were removed from the 
        system and the coverage and/or capability of some sensors was 
        reduced. Following the Nunn-McCurdy certification, OSTP 
        requested that NASA and NOAA assess the impacts of the 
        demanifested climate sensors on NASA's and NOAA's climate 
        objectives. OSTP also asked the agencies to propose options for 
        mitigating the impacts. At a recent meeting at the National 
        Academies Panel on Options to Ensure the Climate Record from 
        the NPOESS and GOES-R Spacecraft, NASA and NOAA described 
        several possible mitigation strategies including returning some 
        of the lost climate sensors to NPOESS satellites; placing 
        climate sensors on other (non-NPOESS) planned Earth science 
        platforms; developing free-flyer platforms to fly the sensors; 
        or partnering with other U.S. agencies to fly sensors or obtain 
        the data. NASA and NOAA have asked the National Academies to 
        provide further input on options to mitigate the impact of the 
        lost sensors. NASA and NOAA are developing a set of near-term 
        actions and cost estimates to inform OMB and OSTP for the FY 
        2009 budget process. What are the implications of potential 
        data gaps on U.S. climate research and monitoring? What 
        contribution can the missions recommended in the Earth science 
        decadal survey make to minimizing potential data gaps? To what 
        extent will the reduced capability/coverage of the sensors 
        being retained in the NPOESS program compromise the 
        measurements needed for climate research and monitoring? How 
        well do the possible mitigation strategies address the required 
        accuracy for climate research measurements? When will funding 
        decisions be needed to accommodate development of satellites 
        and sensors on a schedule that avoids potential data gaps?

What Is NASA's Plan for Transitioning Research Data and Instruments 
into Operational Services?

        <bullet>  NASA research satellites often provide vital data for 
        ongoing, operational services such as weather prediction and 
        disaster warnings. For example, data from the NASA QuikSCAT 
        satellite, which measures ocean wind speed and direction, is 
        being used at NOAA's National Hurricane Center to help 
        determine a hurricane's path. In a May 8, 2007 letter to NASA 
        Administrator Michael Griffin and NOAA Under Secretary Vice 
        Admiral Conrad Lautenbacher, Jr., Representative Nick Lampson 
        voiced concerns about the lack of planning for a successor to 
        QuikSCAT, which has started its ninth year of operation and is 
        six years beyond its designed lifetime. Without QuikSCAT data, 
        hurricane predictions and evacuation plans would be less 
        accurate. The QuikSCAT example points to the larger challenge, 
        as noted by Rep. Lampson, for NASA and NOAA to ``systematically 
        evaluate the technology and capabilities from NASA's Earth-
        observing missions for application to NOAA's operational 
        responsibilities.'' What are NASA's and NOAA's plans for a 
        follow-on to QuikSCAT and what is the status of those plans?

                  Congressional Legislation Section 306 of the NASA 
                Authorization Act of 2005 directed NASA and NOAA to 
                establish a joint working group and report on 
                coordination between the agencies on Earth science 
                missions and their potential for transition into 
                operational service. In addition, the Earth science 
                decadal survey states that ``The committee is 
                particularly concerned with the lack of clear agency 
                responsibility for sustained research programs and the 
                transitioning of proof-of-concept measurements into 
                sustained measurement systems.'' To date, NASA and NOAA 
                have not established a plan for transitioning research 
                into operations, and Congress continues to await NASA 
                and NOAA's response to the Authorization Act's 
                directive. What is NASA's and NOAA's plan for 
                transitioning from research to operations? As NASA 
                considers moving forward with missions recommended in 
                the decadal survey, how and when will decisions on 
                research to operations be made?

What role should international partners play in NASA's future Earth 
science system?

        <bullet>  NASA has a long history of using international and 
        bilateral cooperation on Earth science missions. NASA's Upper 
        Atmosphere Research Satellite launched in 1991 included 
        instruments from the United Kingdom and from a French-Canadian 
        team. U.S.-French collaboration on the Topex/Poseidon and 
        follow-on Jason satellites to measure sea surface height and 
        the U.S.-Japanese collaboration on the Tropical Rainfall 
        Measuring Mission (TRMM) and the Global Precipitation Mission 
        (GPM) that is currently in development are examples of 
        bilateral cooperation. The decadal survey discusses 
        international cooperation as a means for realizing the missions 
        recommended in the report. In a hearing of the House 
        Subcommittee on Space and Aeronautics held on May 2, Dr. Alan 
        Stern, Associate Administrator for NASA's Science Mission 
        Directorate, testified that he plans to ``make strong progress 
        advancing all four decadal surveys. . .by increasing our 
        international collaboration efforts.'' Dr. Stern also testified 
        that NASA is considering international arrangements in which 
        the agency ``would collaborate at higher, more strategic 
        level.'' What, in specific terms, do Dr. Stern's proposals mean 
        for future NASA Earth science missions? What steps has NASA 
        taken to explore potential international arrangements on future 
        Earth science missions? What are the opportunities and risks 
        for working with international partners to advance the missions 
        recommended in the decadal survey? Are there mission areas, 
        technology areas, or measurements and observations that the 
        U.S. should carry out on a unilateral basis to maintain 
        leadership?

What are NASA's Near and Long-term Plans for Sustaining Land Cover 
Observations?

        <bullet>  NASA's Landsat system has collected land cover data 
        for over thirty years. These data are used by U.S. Government, 
        scientific, State and local governments, non-profit 
        organizations, and international entities to study land use and 
        change. The currently operating Landsat 7 satellite has lost 25 
        percent of its imaging capability, according to NASA officials. 
        Landsat 7 is expected to cease useful operation by 2010 at 
        which point NASA anticipates a 6-12 month gap in the collection 
        of Landsat data until the follow-on satellite, the Landsat Data 
        Continuity Mission (LDCM), enters service in 2011. NASA is 
        involved in a Data Gap Study Team to assess ``alternatives to 
        at least partially offset the data gap.'' NASA is investigating 
        whether data from international satellites, including an Indian 
        satellite and a Chinese/Brazilian land observing system could 
        help address the data gap.

                  Instability in the Landsat Program Since 1999, NASA 
                has shifted its procurement approach for LCDM three 
                times. Approaches have included a public-private 
                partnership, placement on the NPOESS platform, and 
                finally the current plan for a free-flying mission to 
                be developed and launched by NASA and operated by USGS. 
                These procurement struggles echo a longer history of 
                difficulties in maintaining the program. What is the 
                current status of LDCM? Will LDCM provide data that is 
                comparable to or better than Landsat 7? How likely is a 
                data gap prior to the LDCM availability? What lessons 
                from the Landsat experience can be applied to plans for 
                future long-term observation systems, such as those 
                being considered for climate monitoring?

                  LDCM and Thermal Imaging Capability LDCM includes 
                one instrument, the Operational Land Imager (OLI). 
                According to NASA officials, this instrument will not 
                image in thermal bands, a capability that has been 
                provided on the last three Landsat spacecraft. The data 
                collected in the thermal bands provide information to 
                assist in the management of water resources, in 
                particular agricultural water uses. Adding thermal 
                imaging capability to LDCM will increase the mission 
                cost and delay the schedule. Is NASA considering 
                alternatives to LDCM for providing thermal image data?

                  LDCM as a Possible Platform for a Climate Sensor 
                NASA officials have also indicated that LDCM is being 
                considered as a potential platform on which to fly a 
                Total Solar Irradiance Sensor (TSIS)--one of the 
                climate sensors demanifested from the NPOESS system. 
                When will a decision on adding a sensor to LDCM be 
                made? How would adding the TSIS sensor affect the cost 
                and schedule of the LDCM mission, including the length 
                of the gap in land cover data?

                  Policy for Maintaining the Long-Term Land Cover 
                Record The Office of Science and Technology Policy 
                (OSTP) is preparing a long-term plan for acquiring 
                moderate resolution, space-based land observation data 
                following the launch of LDCM in 2011. The Landsat 
                Policy Act of 1992 seeks to ensure the continuity of 
                Landsat data. What is the status of OSTP's development 
                of a long-term plan for moderate resolution land 
                imagery? What would an operational program mean, in 
                specific terms, for the U.S.? What role would NASA have 
                in an operational land observing program? What 
                responses do the science and user communities have to 
                the goal of an operational Landsat system?

Is a National Strategy for Earth Monitoring Across Relevant Agencies 
Needed?

        <bullet>  NASA has the largest program in the U.S. Government 
        for observing the Earth and supporting research to understand 
        the Earth system. Other agencies such as NOAA and the 
        Department of the Interior's U.S. Geological Survey (USGS) also 
        monitor the Earth system and fund Earth science research. How 
        does NASA coordinate with NOAA, USGS, and other federal 
        agencies on Earth observations? Has coordination among NASA, 
        NOAA, and USGS been successful, and if not, why not? Should the 
        U.S. consider a ``National Earth-Information Initiative,'' as 
        proposed by former Presidential Science Advisor, Neal Lane, and 
        others ``to reevaluate the national process of collecting and 
        using civil Earth information, including the effectiveness of 
        governmental organizations, the relationship between government 
        functions and private sector activities, and the ability to 
        effectively connect scientific developments to societal uses''? 
        The authors recommend that a blue ribbon panel be created to 
        consider improvements to the Nation's process of collecting and 
        using Earth information. What are the pros and cons of such as 
        proposal? What approach have other nations and regions, such as 
        Europe, Japan, and China taken to exploit Earth information? 
        How important is a potential Earth information strategy to U.S. 
        national competitiveness?

BACKGROUND

Fiscal Year 2008 Budget Request
    The President's Fiscal Year 2008 budget request includes $1.497 
billion for NASA's Earth science and applications programs, an increase 
of two percent over the Fiscal Year 2007 budget request. In the FY 2008 
request, increases over the President's FY 2007 budget estimate for FY 
2008 were required on several missions as a result of schedule delays 
and cost overruns. Those missions include the Global Precipitation 
Measurement (GPM), Glory, Landsat Data Continuity Mission (LDCM), 
NPOESS Preparatory Mission (NPP), and Aquarius mission. In addition, 
NASA canceled the Hydros mission, which was designed to measure soil 
moisture, due to the agency's lack of funding to support it. Attachment 
4 provides details on the FY 2008 budget request for NASA's Earth 
sciences and applications programs.
NASA Earth Science Program Elements

        <bullet>  The Earth Science Research Program provides grant 
        support for research and analysis activities (e.g., basic 
        research, modeling, and technology development); research on 
        interdisciplinary science from the Earth observing system; 
        suborbital projects (aircraft and uncrewed aircraft); the use 
        of supercomputers for the development of Earth science models; 
        and access to supercomputers for users from other agencies.

        <bullet>  The Earth sciences applications program supports 
        competitively selected grants to apply results from NASA Earth 
        science research to societal benefit areas. Specific areas of 
        applications include agricultural efficiency, air quality, 
        aviation, carbon management, coastal management, disaster 
        management, ecological forecasting, energy management, homeland 
        security, invasive species, public health, and water 
        management. The applications program involves two components:

                  National Applications matches decision support 
                systems in Federal agencies with information from NASA 
                Earth science research that can benefit from the 
                additional NASA information.

                  Crosscutting Solutions supports the National 
                Applications decision support projects by providing 
                systems integration, engineering, and the development 
                of prototypes.

        <bullet>  Earth Science Multi-Mission Operations is dedicated 
        to archiving, preserving, and disseminating Earth science data. 
        The primary data management system for Earth science data is 
        the Earth Observing System Data and Information System 
        (EOSDIS). EOSDIS handles four terabytes of incoming data from 
        the Earth observing system (the Aqua, Terra, and Aura 
        satellites) per day and consists of eight Distributed Active 
        Archive Centers (DAACs). The DAACs are located at universities 
        and research facilities across the country and distribute the 
        data to users.

        <bullet>  Earth Systematic Missions include over a dozen Earth 
        science satellites that are collecting data about the Earth and 
        its atmosphere and other missions that are in development. Many 
        of the Earth Systematic Missions enable researchers to study 
        Earth's changes in and effort to improve predictions of 
        climate, weather, and natural hazards. Key missions include:

                  The Global Precipitation Measurement (GPM). GPM is a 
                joint U.S.-Japanese mission to measure precipitation at 
                a frequent rate across the globe and enable correlation 
                of precipitation measurements. GPM, which consists of 
                two spacecraft, is expected to help improve the 
                prediction of flood hazards and measurements of fresh 
                water resources. GPM spacecraft are planned for launch 
                in 2013 and 2014.

                  The Glory mission will study the properties and 
                chemical composition of aerosols and clouds. Data 
                collected from the Glory spacecraft will provide 
                insights into the natural and anthropogenic 
                contributions to climate change. Glory is planned for 
                launch in 2008.

                  The Landsat Data Continuity Mission (LDCM) is the 
                follow-on mission to the Landsat 7 satellite. The 
                objective of LDCM is to continue the thirty-year data 
                record of moderate resolution, multi-spectral land 
                observations, which are used by U.S. Government, 
                scientific, State and local governments, and other 
                communities to study land use and change. LDCM is 
                slated for launch in 2011.

                  The NPOESS Preparatory Project (NPP) will continue 
                measurements of atmospheric and sea surface 
                temperatures; humidity sounding; land and ocean 
                biological productivity; cloud and aerosol properties 
                that are being collected on NASA Earth observing 
                missions (Terra, Aqua, Aura). NPP is also intended to 
                reduce the risk of sensors being planned for the 
                operational NPOESS system. NPP, which is a joint 
                program with NOAA and the DOD, is slated to launch in 
                2009. Technical issues related to NPP are:

                        <bullet>  The Visible/Infrared Radiometer Suite 
                        (VIIRS) instrument has encountered technical 
                        problems that will affect ocean color and 
                        aerosol studies. According to a recent Space 
                        News article on VIIRS, the contractor and 
                        NPOESS program officials are evaluating 
                        possible solutions to the problem. A science 
                        team is analyzing what level of capability is 
                        needed from VIIRs to obtain science-quality 
                        measurements and whether such a capability can 
                        be met.

                        <bullet>  A flight model of the Cross-track 
                        Infrared Sounder (CrIS) experienced a failure 
                        during a vibration test. The instrument will 
                        undergo additional tests.

                        <bullet>  The Ozone Mapping and Profiling Suite 
                        (OMPS) Limb sensor was removed from the NPOESS 
                        program during Nunn-McCurdy. NASA and NOAA have 
                        decided to add the OMPS Limb sensor to NPP and 
                        to split the costs.

                  The Quick Scatterometer (QuikSCAT) is a satellite 
                launched in 1999 to measure wind speed and direction, 
                factors that hurricane forecasters have come to rely on 
                to ``measure the size of a developing storm's wind 
                field, and in some cases to locate its center of 
                circulation,'' according to a Space News article on 
                ``Scientists Exploring Options for QuikScat 
                Successor.'' QuikSCAT measurements contribute to 
                climate change research, for instance, through the 
                study of the movements and changes of sea ice and 
                Arctic and Antarctic ice packs. The data are also used 
                to investigate changes in rain forest vegetation. 
                Issues with QuikSCAT are:

                        <bullet>  The lack of a back-up satellite or 
                        planned back-up, should QuikSCAT fail.

                        <bullet>  The implications of losing QuikSCAT 
                        on the accuracy of hurricane monitoring.

        <bullet>  The Earth System Science Pathfinder (ESSP) Program 
        solicits proposals for scientists to propose small to medium-
        sized missions that can involve studies of the atmosphere, 
        oceans, land surface, polar ice regions, and solid Earth. Upon 
        selection, scientists are granted the funds to serve as 
        principal investigator of the mission and are responsible for 
        the scientific and technical success of the mission. ESSP 
        missions complement larger missions, but are conducted on 
        shorter timescales.

                  The next solicitation for ESSP proposals is expected 
                in late FY 2008. This represents a gap of approximately 
                seven years since the last ESSP solicitation in 2001.

        <bullet>  The Education and Outreach program provides support 
        for fellowships and new investigators, as well as K-16 
        education. The FY 2008 program will focus on the activities of 
        the International Polar Year.

        <bullet>  The Earth Science Technology program includes 
        development of new instruments and measurement techniques, 
        information technologies, and technologies for the Earth 
        science program. NASA's Langley Research Center and Goddard 
        Space Flight Center are focusing on laser development 
        technologies that can be applied to future Earth science 
        missions.

Global Earth Observation System of Systems
    NASA is a member of the group overseeing the U.S. contribution to a 
Global Earth Observation System of Systems (GEOSS). GEOSS is an 
international effort to share the Earth observation data collected from 
space, ground, and air observatories by individual nations. By creating 
a common format for the data and providing a means for integrating and 
sharing the data, GEOSS will allow for a richer set of data by which to 
address national and international societal needs and to support 
scientific research of the Earth system. The U.S. and international 
members that are working toward GEOSS are focusing on key societal 
issues that can benefit from the shared and integrated data enabled by 
GEOSS. Focus areas include improved observations for disaster 
reduction, a National Integrated Drought Information System; and Air 
Quality Assessment and Forecast. NASA's Earth science applications 
program is involved in providing the U.S. contribution to the GEOSS 
societal benefit areas.

Summary of February 13, 2007 Hearing of the Committee on Science and 
                    Technology on National Imperatives for Earth and 
                    Climate Science Research and Applications 
                    Investments Over the Next Decade

    The Committee on Science and Technology of the House of 
Representatives held a hearing on February 13, 2007 to review the 
results of the National Academies report, Earth Science and 
Applications from Space: National Imperatives for the Next Decade and 
Beyond.

        <bullet>  Dr. Richard Anthes, President, University Corporation 
        for Atmospheric Research and Co-Chair, Committee on Earth 
        Science and Applications From Space, National Research Council, 
        National Academies testified that ``at a time when the need has 
        never been greater, we are faced with an Earth observation 
        program that will dramatically diminish in capability over the 
        next five to ten years.'' The resulting impacts are likely to 
        include less accurate weather forecasts, uncertainty about the 
        rate of rising sea levels and uncertainty about the intensity 
        of hurricanes, for example. It is critical to measure the 
        imbalance between the radiation the Sun is putting out and what 
        is going out from the Earth and back into space, a factor that 
        is contributing to global warming. Dr. Anthes noted that 
        implementing the missions recommended in the Earth science 
        decadal survey is not just important for reducing the risks of 
        natural hazards, it is important for managing our natural 
        resources, including water, energy, fisheries, and ecosystems 
        more efficiently.

        <bullet>  Dr. Berrien Moore, III, University Distinguished 
        Professor, Director, Institute for the Study of Earth, Oceans, 
        and Space, University of New Hampshire; Co-Chair, Committee on 
        Earth Science and Applications from Space, National Research 
        Council, The National Academies testified that NASA's Earth 
        science budget has decreased by 33 percent in real terms since 
        2000. Any budget increases that NOAA enjoyed during the same 
        period were diverted to NPOESS, which suffered from technical 
        and managerial problems. The decadal survey ``set forth a 
        strategy for a strong, balanced national program in Earth 
        science to reverse this trend.'' He noted that by using small 
        missions rather than large missions with multiple instruments, 
        the decadal strategy could be implemented for a reasonable 
        investment, in particular, the budget levels provided for Earth 
        science in the year 2000. Dr. Moore testified that the Fiscal 
        Year 2008 budget is not sufficient to enable the implementation 
        of the decadal survey. While it does provide resources to move 
        forward with high priority missions already underway, the FY 
        2008 budget, ``will leave NASA's Earth science with nearly 50 
        percent less buying power in comparison to the year 2000 and. . 
        .by 2012 will put us at a 20-year low in real terms for Earth 
        science.''

        <bullet>  NOAA's budget is insufficient to address the growth 
        in cost of the NPOESS and GOES-R missions or to restore the 
        losses of climate measurements that were removed from the 
        NPOESS program. He noted that a small investment, $70M, in 
        early technology development for the recommended missions would 
        be a good first step in implementation. Dr. Moore testified 
        that finding the additional funds to move forward should focus 
        on the benefits of Earth observations including increased 
        reliability in infectious disease forecasts, monitoring of 
        crustal movements and identifying active faults, and improved 
        precipitation and drought forecasts, among other benefits.

        <bullet>  Honorable James Geringer, Director of Policy and 
        Public Sector Strategy, Environmental Systems Research 
        Institute (ESRI) testified that drought can be longer-term and 
        more widespread than tornadoes, floods, hurricanes, and 
        earthquakes. He noted that 19 western governors convened to 
        support the use of satellite data to reduce the impact of 
        droughts on the region, and requested funds for the National 
        Integrated Drought Information System. He noted that the 
        decadal survey explored issues including the benefits of Earth 
        science data. Mr. Geringer also discussed the frustration that 
        users experience by the lack of access to and the relevance of 
        remote sensing data to their needs. Mr. Geringer recommended, 
        based on the decadal survey, that the people should have the 
        best possible information to respond to their changing 
        environments, and to protect their lives, livelihood, and 
        property. He also recommended that an Integrated Earth 
        Observation System be provided to ensure U.S. competitiveness. 
        He referred to the activities of the private sector, including 
        Google Earth, Microsoft Virtual Earth, and other tools that use 
        remote sensing imagery and the data provided by commercial 
        space remote sensing companies. He noted that users ``want 
        objective, timely, and accurate information.'' He discussed the 
        need for a system that integrates space, ground, airborne, and 
        ocean-based sensors as well as a web-based network that 
        integrates the information.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Udall. To all who have joined us here for this 
very important hearing, I would like to make a short statement 
and I will turn to my good friend from Florida, Mr. Feeney, for 
his statement, and we will begin the hearing.
    Today's hearing builds on the Science and Technology 
Committee's February 13 hearing at which we examined the 
findings and recommendations of the National Academy's Earth 
Science and Applications ``Decadal Survey.''
    The Decadal Survey represented a consensus of the Earth 
sciences and applications community on what the Earth Science 
research priorities should be for the coming decade and 
identified a prioritized set of missions. It is an impressive 
report and it provides a very useful set of benchmarks for 
Congress as we attempt to evaluate NASA's current and planned 
activities in Earth science and applications.
    Today we want to examine how well NASA's plans and programs 
compare to the priorities of the Decadal Survey and the extent 
to which NASA intends to support those priorities in the fiscal 
year 2008 budget and beyond. As numerous witnesses before this 
Committee have testified, the situation facing NASA's Earth 
Science program is not good.
    To quote the Decadal Survey, it first noted that the 
Decadal Survey's interim report had cautioned that the Nation's 
system of environmental satellites was ``at risk of collapse.'' 
It then went on to state that: ``In the short period since the 
publication of the interim report, budgetary constraints and 
programmatic difficulties at NASA have greatly exacerbated this 
concern. At a time of unprecedented need, the Nation's Earth 
observation satellite programs, once the envy of the world, are 
in disarray.''
    Those are troubling words because NASA has a major role to 
play in the Nation's and indeed the world's climate research 
efforts. If NASA doesn't step up to that role, the negative 
consequences of that failure of leadership will be long-
lasting.
    I look forward to hearing from our NASA witness, Dr. 
Freilich, about what NASA is going to do to turn this worrisome 
situation around and I hope that he will be able to provide 
some specifics on how NASA intends to implement the Decadal 
Survey's recommendations.
    In that regard, I am also concerned about the fate of the 
climate instruments from NPOESS, and the need to ensure that we 
don't needlessly disrupt the instrument development activities 
while the Administration is determining what will be done about 
them.
    I hope that the good doctor will be able to shed some light 
today on what interim arrangements are being put in place to 
preserve those instrument teams and development efforts.
    Finally, I think many of us in Congress are interested in 
ensuring that the Earth observations data being collected by 
NASA is applied wherever appropriate to societal needs. That is 
why I introduced the Remote Sensing Applications Act, which 
became Sections 313 and 314 of the NASA Authorization Act of 
2005.
    It is not clear that NASA's efforts to date have been fully 
responsive to the intent of that legislation and I look forward 
to working with the agency to make sure that the goals of the 
provisions can be realized.
    Well, we have a lot of issues to address today, I again 
want to welcome our witnesses, and I look forward to your 
testimony.
    [The prepared statement of Chairman Udall follows:]

               Prepared Statement of Chairman Mark Udall

    Good morning. I'd like to welcome our witnesses to today's 
hearing--we appreciate your participation.
    Today's hearing builds on the Science and Technology Committee's 
February 13th hearing at which we examined the findings and 
recommendations of the National Academies' Earth Science and 
Applications ``Decadal Survey.''
    The Decadal Survey represented a consensus of the Earth sciences 
and applications community on what the Earth Science research 
priorities should be for the coming decade, and it identified a 
prioritized set of missions. It is an impressive report, and it 
provides a very useful set of benchmarks for Congress as we attempt to 
evaluate NASA's current and planned activities in Earth science and 
applications.
    Today, we want to examine how well NASA's plans and programs 
compare to the priorities of the Decadal Survey, and the extent to 
which NASA intends to support those priorities in the FY08 budget and 
beyond. As numerous witnesses before this committee have testified, the 
situation facing NASA's Earth Science program is not good.
    To quote the Decadal Survey, it first noted that the Decadal 
Survey's interim report had cautioned that the Nation's system of 
environmental satellites was ``at risk of collapse.'' It then went on 
to state that: ``In the short period since the publication of the 
interim report, budgetary constraints and programmatic difficulties at 
NASA have greatly exacerbated this concern. At a time of unprecedented 
need, the Nation's Earth observation satellite programs, once the envy 
of the world, are in disarray.''
    Those are troubling words, because NASA has a major role to play in 
the Nation's--and indeed the world's--climate research efforts. If NASA 
doesn't step up to that role, the negative consequences of that failure 
of leadership will be long-lasting.
    I look forward to hearing from our NASA witness, Dr. Freilich, 
about what NASA is going to do to turn this worrisome situation around. 
And I hope that he will be able to provide some specifics on how NASA 
intends to implement the Decadal Survey's recommendations.
    In that regard, I am also concerned about the fate of the climate 
instruments from NPOESS, and the need to ensure that we don't 
needlessly disrupt the instrument development activities while the 
Administration is determining what will be done about them.
    I hope that Dr. Freilich will be able to shed some light today on 
what interim arrangements are being put in place to preserve those 
instrument teams and development efforts.
    Finally, I think many of us in Congress are interested in ensuring 
that the Earth observations data being collected by NASA is applied, 
whenever appropriate, to address societal needs. That is why I 
introduced the Remote Sensing Applications Act, which became Sections 
313 and 314 of the NASA Authorization Act of 2005.
    It is not clear that NASA's efforts to date have been fully 
responsive to the intent of that legislation, and I look forward to 
working with the agency to make sure that the goals of the provisions 
can be realized.
    Well, we have a lot of issues to address today. I again want to 
welcome our witnesses, and I look forward to your testimony.

    Chairman Udall. At this time it is my privilege to 
recognize Mr. Feeney for whatever statement he may have.
    Mr. Feeney. Well, thank you, Chairman Udall.
    This morning's hearing on NASA's Earth Sciences and 
Applications programs is the first held by our subcommittee on 
this important topic, and I would like to begin by thanking our 
witnesses for taking time from their busy schedules to join us 
today. I realize a tremendous amount of time, effort and 
preparation goes into appearances before Congressional 
committees, and I want all of our witnesses to know that this 
Committee greatly appreciates your efforts and values your 
wisdom.
    Today's hearing on NASA's Earth Sciences and Applications 
programs and the fiscal year 2008 budget request gives our 
Committee an opportunity to review NASA's management of and 
rationale for its current array of Earth observing missions and 
an opportunity to understand how the agency will incorporate 
the recommendations of the Earth Sciences Decadal Survey in its 
future plans. NASA'S Earth Sciences program is one of that 
agency's unsung achievements. When discussing NASA, our 
nation's collective attention is often focused on human space 
flight or stunning images returned from distant planets and 
orbiting observatories. But rarely does the national press 
carry front-page stories or images from NASA's Earth-observing 
satellites except perhaps during hurricane season.
    Having said that, most of the weather and climate-
prediction tools used daily by forecasters is often a direct 
product of NASA-sponsored research. A good portion of climate 
change research is also made possible by data taken from NASA-
developed sensors, satellites and sophisticated research 
analysis products. Will this record of accomplishment in Earth 
science missions continue? Yes. Will it happen fast enough to 
satisfy many of us and the research community? Probably not. 
Are NASA's plans for future Earth science research missions any 
indication of the agency's reduced commitment towards a robust 
program? Emphatically, no.
    NASA's other science programs, astrophysics, planetary and 
heliophysics, share the same challenges as Earth science. The 
related Decadal Surveys prioritize researcher wishes and offer 
strategic guidance on the types and sequence of missions needed 
to answer leading questions. NASA has neither the resources nor 
oftentimes the necessary technologies to fill all of its 
desires but NASA does try to fulfill the highest priorities 
established by the research community. Requests for expanded 
efforts in all NASA's fields of endeavors simply confirm this 
agency's reputation as a place where the most challenging tasks 
get done.
    Having said that, I hope we don't drift into an earlier era 
where NASA was tasked with doing too much with too little in 
the way of resources. We know where that path led, so I hope 
all NASA supporters, myself included, temper our enthusiastic 
desires with a realistic assessment of what is possible. NASA's 
Earth Science program has produced stunning scientific results 
often demonstrating for the first time measurements and 
capabilities that have never before been accomplished. I want 
that record of achievement to continue. It is also my desire 
that we build upon this program's success to enable the goals 
established in the Decadal Survey.
    Again, thank you, Chairman Udall, and thanks again to the 
witnesses.
    [The prepared statement of Mr. Feeney follows:]

            Prepared Statement of Representative Tom Feeney

    Mr. Chairman, this morning's hearing on NASA's Earth Science and 
Applications Programs is the first held by our subcommittee on this 
important topic, and I'd like to begin by thanking our witnesses for 
taking time from their busy schedules to join us today. I realize a 
tremendous amount of time, effort and preparation goes into appearances 
before Congressional committees, and I want all of our witnesses to 
know that this committee greatly appreciates your efforts, and values 
your wisdom.
    Today's hearing on NASA's Earth Sciences and Applications programs, 
and the FY08 budget request, gives our committee an opportunity to 
review NASA's management of--and rationale for--its current array of 
Earth-observing missions, and an opportunity to understand how the 
agency will incorporate the recommendations of the Earth Sciences 
Decadal Survey into its future plans.
    NASA's Earth Sciences program is one of that agency's unsung 
achievements. When discussing NASA, our nation's collective attention 
is often focused on human space flight, or stunning images returned 
from distant planets and orbiting observatories. But rarely does the 
national press carry front-page stories or images taken from NASA's 
Earth-observing satellites, except perhaps, during hurricane season. 
Having said that, most of the weather and climate prediction tools used 
daily by forecasters is often a direct product of NASA-sponsored 
research. And a good portion of climate change research is also made 
possible by data taken from NASA-developed sensors, satellites, and 
sophisticated research and analysis products.
    Will this record of accomplishment in Earth Science missions 
continue? Yes. Will it happen fast enough to satisfy the research 
community? Probably not. Are NASA's plans for future Earth Science 
research missions any indication of the agency's reduced commitment 
toward a robust program? Emphatically no.
    NASA's other science programs--astrophysics, planetary, and 
heliophysics--share the same challenges as Earth Science. Their related 
decadal surveys prioritize researcher wishes and offer strategic 
guidance on the types and sequence of missions needed to answer leading 
questions. NASA has neither the resources nor, oftentimes, the 
necessary technologies to fulfill all desires. But NASA does strive to 
fulfill the highest priorities established by that research community.
    Requests for expanded efforts in all of NASA's fields of endeavor 
simply confirm this agency's reputation as a place where the most 
challenging of tasks get done. Having said that, I hope we don't drift 
into an earlier era where NASA was tasked with doing too much with too 
little. We know where that path led. So I hope all NASA supporters--
myself included--temper our enthusiastic desires with a realistic 
assessment of what is possible.
    NASA's Earth Sciences program has produced stunning scientific 
results, often demonstrating, for the first time, measurements and 
capabilities that have never before been accomplished. I want that 
record of achievement to continue, and it's also my desire that we 
build upon the program's success to enable the goals established in the 
Decadal Survey.
    Thank you, Mr. Chairman. And my thanks again to our witnesses.

    Chairman Udall. I thank the gentleman from Florida.
    At this point, if there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record. Without objection, so ordered.
    At this time I would like to recognize Ms. Hooley, who is 
going to introduce the first witness, Dr. Freilich. 
Congresswoman Hooley.
    Ms. Hooley. Thank you, Mr. Chair, and I would like to thank 
not only you but our Ranking Member Feeney for allowing me to 
participate today and the opportunity to introduce Dr. Michael 
Freilich. Dr. Freilich is the Director of the Earth Science 
Division in the Science Mission Directorate at NASA 
Headquarters. Prior to coming east to work for NASA, he was a 
Professor and Associate Dean in the College of Oceanic and 
Atmospheric Sciences at Oregon State University, which is in my 
district. I am sure that he is just as proud as I that the 
Oregon State University's baseball team just won its second 
national championship in as many years.
    Dr. Freilich's research focuses on the determination, 
validation and geophysical analysis of ocean surface wind 
velocity measured by satellite-borne microwave radar and 
radiometer instruments. He has developed scatterometer and 
altimeter wind model functions as well as innovated validation 
techniques for accurately quantifying the accuracy of space-
borne environmental measurements. Thank you, Dr. Freilich, for 
agreeing to testify before this committee. I am sure the 
Committee will benefit from your insights, and I would like to 
state that I have a markup in another committee going on at the 
same time so I will have to leave, but we are so glad you are 
here. Thank you for coming.
    Chairman Udall. I thank the gentlelady for that 
introduction and I would like to at this time introduce the 
rest of the panelists. I will start with Dr. Richard Anthes, 
who is appearing before this committee for the second time 
after testifying on the National Academy's Earth Science 
Decadal Survey back in February. We appreciate his willingness 
to participate in today's hearing. You all should know he is 
President of the University Corporation for Atmospheric 
Research, and I am biased. It is also great to have another 
Coloradoan here in the Nation's capital, so Doctor, thank you 
for making the trip here.
    Next to Dr. Anthes is Dr. Eric Barron, who is the Dean of 
the Jackson School of Geosciences at the University of Texas, 
Austin, and he was the Chair of Climate Variability and Change 
Panel of the Decadal Survey Committee, and this is not his 
first appearance before this committee. Dr. Barron, thank you 
for being here today.
    And finally, we have Dr. Timothy Foresman, who is the 
President for the International Center for Remote Sensing 
Education and has long been involved in activities related to 
promoting the application of Earth science data that meets 
societal needs. Again, welcome.
    I think all of you know, you are pros, you have been here 
before but we ask you to limit your spoken testimony to five 
minutes and then after which we will have a interchange in 
which Members of the Subcommittee will have five minutes each 
to ask questions.
    Dr. Freilich, we will start with you. The floor is yours.

 STATEMENT OF DR. MICHAEL H. FREILICH, DIRECTOR, EARTH SCIENCE 
DIVISION, SCIENCE MISSION DIRECTORATE, NATIONAL AERONAUTICS AND 
                  SPACE ADMINISTRATION (NASA)

    Dr. Freilich. Thank you very much. Mr. Chairman and 
Subcommittee Members, thank you for the opportunity to discuss 
the President's fiscal year 2008 budget request for NASA's 
Earth Science program. NASA is committed to Earth science, as 
am I. The budget request includes nearly $1.5 billion for Earth 
science, an increase of about $32 million over the fiscal year 
2007 request. Our balanced program includes flight missions, 
research investigations, applied science, technology investment 
and outreach programs. I will focus my remaining oral comments 
on your specific questions.
    First, our top Earth science objectives and plans. Our 
primary objective is to advance Earth systems science and to 
use this understanding sufficiently to address societal issues. 
To reach this goal, we will in priority order first 
reinvigorate the flight portfolio by building and launching 
seven missions now under development and initiating new 
missions as recommended by the Decadal Survey. Second, we are 
working with NOAA and other agencies to hasten transition 
processes so that measurements pioneered and proved by NASA 
will be acquired by operational satellite systems over multi-
decadal periods. And third, we will preserve and expand through 
competitive solicitations the preeminent research and analysis, 
applied sciences, technology development and educational 
programs that distinguish the NASA Earth science endeavor. The 
Decadal Survey provides specific guidance in these areas and 
the President's 2008 budget request advances us towards these 
objectives.
    You asked about balance in the Earth Sciences program. The 
program is nicely balanced between flight and research science 
activities with almost half the total allocated to our 14 
operating missions and the seven missions in development and 
the other half to research applied sciences, data systems, 
technology development and education program. The Earth Science 
Subcommittee of the NASA Advisory Council annually examines the 
split of activities and assesses our scientific performance. 
Regarding mission size, all of the missions now in development 
and those recommended by the Decadal Survey are focused 
missions. We are not planning large future observatories such 
as the presently orbiting Terra Aqua and Aura platforms.
    Our plan and timetable for implementing the Decadal Survey: 
our selection of Earth observing missions to be flown in the 
next 10 to 15 years is guided by the Decadal Survey's science 
priorities. We take the Decadal Survey's recommendations 
seriously. Indeed, the 2008 budget request addresses the flight 
recommendation of the NRC's 2005 interim report by including 
funding for the key precursor missions highlighted in that 
report. Now, the final Decadal Survey arrived too late to 
influence the fiscal year 2008 budget but its recommendations 
are being used in development of the fiscal year 2009 budget 
request.
    Since the survey came out in early 2007, we have been 
vigorously pursuing activities in four areas. First, we have 
undertaken studies of each of the recommended missions to 
understand in detail the technical challenges and full costs 
including the science so that we can assemble and implement a 
realistic program. We are conducting community workshops to 
understand the capabilities of the missions as recommended, to 
optimize the intended scientific return and to define the other 
measurements that must be acquired in order for the scientific 
goals to be achieved. The first of these workshops, which is 
focused on ICESat--II, is actually happening this week as we 
speak near BWI. We have engaged our international partners. In 
the past two months alone, I have had eight productive multi-
day discussions with partner space agencies in order to 
identify common interests and complementary expertise so that 
we can implement the Decadal Survey in a coordinated way. We 
are establishing joint working groups for future mission 
collaboration studies with the French, Japanese, German, 
Canadian and European space agencies, in all cases building on 
successful existing and past collaboration.
    NASA is also playing a leading role in supporting the 
international Committee on Earth Observing Satellites, CEOS, 
which coordinates satellite systems for the international Group 
on Earth Observations, GEO. Finally, as planned, we are 
revising the Earth Science Division chapter in the SMD Science 
Plan to reflect the missions and the scientific priorities 
identified in the Decadal Survey. This revision will be 
reviewed by the NRC and the Advisory Council in the early fall 
timeframe.
    Finally, research to operations transitions and 
applications. NASA is working closely with other federal 
agencies, in particular NOAA and USGS, to transition research 
capabilities to long-term operations as the technologies are 
demonstrated. We have prepared the first NASA-NOAA report 
highlighting our fiscal year 2008 joint activity plan as 
required by the 2005 NASA Authorization Act. NASA and NOAA 
working with OSTP are conducting joint studies of the impacts 
and mitigation strategy in response to the Nunn-McCurdy 
refocusing of the NPOESS program. The Applied Sciences program 
accelerates the broader use of NASA Earth science research 
results by partnering with other organizations in pilot 
projects to demonstrate how NASA results can improve decision-
making and resource management. In many cases, the demonstrated 
improvements continue to be used by our partners even after the 
NASA Applied Sciences project ends, and we can talk about 
specific examples of that. We have identified an Applied 
Sciences representative for each Earth Science mission in 
operation and in development in order to assure rapid and 
efficient identification of applications potential.
    So in summary, it will require several budget cycles to 
implement a program derived from the Decadal Survey's 
thoughtful and comprehensive recommendations. I would like to 
end by deeply thanking the Decadal Survey committee members. 
NASA's commitment to Earth science research is commensurate 
with theirs. Thank you.
    [The prepared statement of Dr. Freilich follows:]

               Prepared Statement of Michael H. Freilich

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the President's FY 2008 budget 
request for NASA's Earth Science program. You have previously heard 
from the new Associate Administrator for the Science Mission 
Directorate (SMD), Alan Stern, on his general plans for the entire 
Directorate, in particular in the area of Space Science, and I welcome 
this opportunity to discuss specifically the important area of Earth 
Science, especially in light of the recently released National Research 
Council's (NRC's) Earth Science Decadal Survey.
    In your letter of invitation, you asked that I address my 
priorities for the Earth science program in the coming years, as well 
as the plan for meeting these objectives. My primary objective for the 
Earth Science Division is to expand the leading role of NASA 
measurements and NASA-supported analyses in advancing Earth System 
science--improving our quantitative understanding of the Earth as an 
integrated system. To reach this goal, we will reinvigorate the flight 
portfolio by soliciting, implementing, launching, and operating new 
cutting-edge flight missions; we will work with the National Oceanic 
and Atmospheric Administration (NOAA) and other national and 
international operational agencies to hasten transition processes so 
that measurements pioneered and proved by NASA will be subsequently 
acquired by operational satellite systems over the multi-decadal 
periods required to detect climate signals; and we will preserve and 
expand the preeminent research and analysis, applied sciences, 
technology development, and educational programs that distinguish the 
NASA Earth Science endeavor. The recently released NRC's Earth Science 
Decadal Survey provides specific guidance in these areas, and the FY 
2008 budget request along with planned interagency and international 
working group activities will allow us to advance toward these 
objectives.
    NASA's FY 2008 budget request includes $1.5 billion for the study 
of planet Earth from space. This represents an increase of $32.8 
million over the FY 2007 budget request (adjusted for full-cost 
simplification and the new theme structure of the budget). The FY 2008 
request will fund a wide-ranging and balanced program of activities, 
including:

        <bullet>  Developing, launching, and operating Earth-observing 
        space missions;

        <bullet>  Competitively selecting and pursuing research and 
        analysis science investigations conducted by NASA and non-NASA 
        researchers;

        <bullet>  Conducting Applied Science projects that help other 
        federal and regional agencies and organizations to efficiently 
        use products from NASA Earth research to advance their 
        missions;

        <bullet>  Soliciting and advancing technology development 
        efforts to enable the missions of the future; and,

        <bullet>  Providing education and public outreach programs to 
        make our knowledge of the Earth accessible to the world.

    NASA's budget request supports a balanced program, allocating over 
30 percent of NASA's request for the Science Mission Directorate and, 
within the Science Mission Directorate, allocating 27 percent of 
funding for Earth Science.
    Much of the science community's present state of knowledge about 
global change--including many of the measurements and a significant 
fraction of the analyses which serve as the foundation for the recent 
report of the Intergovernmental Panel on Climate Change (IPCC)--is 
derived from NASA's Earth Science program. For example, using data from 
Earth observing satellites NASA-supported researchers are: monitoring 
ice cover and ice sheet motions in the Arctic and the Antarctic; 
quantifying the short-term and long-term changes to the Earth's 
protective shield of stratospheric ozone, including the positive 
impacts of the Montreal protocols; discovering robust relationships 
between increasing upper ocean temperature and decreasing primary 
production from the phytoplankton that form the base of the oceans' 
food chain; and, using a fleet of satellites flying in formation (the 
``A-Train''), making unique, global, near-simultaneous measurements of 
aerosols, clouds, temperature and relative humidity profiles, and 
radiative fluxes.
    Our improved understanding of Earth System processes leads to 
improvements in sophisticated weather and climate models, which, in 
turn--when initialized using the satellite data--can be used to predict 
natural and human-caused changes in the Earth's environment over time 
scales of hours to years.
    Importantly, near-real-time measurements from NASA research 
missions (including the Tropical Rainfall Mapping Mission (TRMM), the 
Quick Scatterometer (QuikSCAT), the Atmospheric Infrared Sounder 
instrument on the Aqua mission, and others) are used routinely by NOAA 
and other U.S. and international agencies to improve weather 
forecasting. Similarly, high quality measurements obtained by NOAA's 
operational weather satellites provide essential context for the 
scientific analyses of the NASA research mission data. There is thus a 
strong synergy between our nation's research satellites and our 
operational space-borne systems. NASA works closely with the other 
Federal agencies--specifically NOAA--responsible for forecasting to 
transition these research capabilities to long-term operations as the 
technologies are demonstrated and matured. As we speak, NASA is 
operating 14 Earth observing missions. Five more missions are quite far 
advanced in their development, and will be launched in 2008 and 2009. 
Of these, the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) Preparatory Project (NPP) and the Ocean 
Surface Topography Mission (OSTM) will continue critical Earth System 
and climate measurements that were initiated by the Earth Observing 
System (for NPP) and the TOPEX/Poseidon and JASON-1 missions (for 
OSTM). The Glory mission will fly an instrument to extend our 
measurements of total solar irradiance, as well as an instrument that 
will provide unique, first-ever measurements of properties of 
atmospheric aerosols. The Orbiting Carbon Observatory (OCO) and the 
Aquarius mission will make new, first-of-a-kind global measurements of 
atmospheric carbon dioxide concentrations and ocean surface salinity--
both parameters of known importance to the study of climate change.
    The FY 2008 budget request also funds the reconstituted Landsat 
Data Continuity Mission (LDCM) for launch in 2011. I am pleased to 
report that the procurement activities for the LDCM are on track. We 
recently announced the selection of four contractors to study how their 
spacecraft could accommodate the LDCM Operational Land Imager 
instrument. Final results are expected this fall. The FY 2008 budget 
funds the Global Precipitation Measurement Mission (GPM) for launch of 
its Core spacecraft not later than 2013, followed a year later by 
launch of the NASA GPM Constellation spacecraft. Extending the 
pioneering rain measurements initiated with the joint U.S./Japanese 
TRMM and providing a calibration standard for several other rain-
measuring instruments orbited by others, the GPM mission will provide 
us with accurate, global rain measurements every three hours--much more 
frequently than is currently possible. Knowledge of accurate rainfall 
rates and atmospheric water quantities is essential for the study of 
the Earth's hydrologic cycle and its sensitivity to climate change. In 
addition, the GPM measurements will be used by operational weather 
prediction agencies around the globe to improve weather forecasts and 
severe storm predictions.
    As a complement to the research and analysis activities which 
improve our understanding of the Earth system, the Applied Sciences 
Program evaluates NASA Earth science data, results, and technology for 
their potential to serve society beyond their original scientific 
purpose. Where appropriate, the program accelerates the broader use of 
these Earth science research results by partnering with federal 
agencies and other organizations to test whether NASA results can 
improve decision-making and resource management. In many cases, the 
demonstrated improvements continue to be used by our partners in their 
operational decision support systems, after the NASA Applied Sciences 
project ends.
    We have had many recent successes across a broad range of societal 
benefit areas. I will touch here on examples in the areas of air 
transportation, regional environmental management, and natural 
disasters. NASA is working in partnership with the Federal Aviation 
Administration, NOAA's National Weather Service, and the National 
Center for Atmospheric Research to ensure safe and efficient air travel 
for the American public through enhancements to aviation weather 
forecasting. Weather is a contributing factor in approximately 30 
percent of all aviation accidents and accounts for over 60 percent of 
all delays experienced in the air transportation system. Weather delays 
in air travel cost the American public over $4 billion per year. By 
incorporating new, NASA-developed algorithms, observations, and 
predictive capabilities into aviation weather forecasts, more accurate, 
dependable, and useful forecasts of threats to aviation including 
icing, turbulence, convection, and volcanic ash can be made. For 
example, NASA recently released results that suggest the incorporation 
of improved satellite observations and new algorithms into a decision 
support tool for thunderstorm initiation often enhance performance by 
providing a detailed analysis of the locations and early growth of non-
precipitating convective clouds. One newly developed parameter showed 
an 84 percent probability of detection of convective initiation over a 
thirty minute window.
    In terms of improving regional environmental management with 
techniques deployable both in the United States and abroad, NASA is 
partnering with U.S. Agency for International Development and other 
U.S. and Latin American government agencies and nongovernmental 
organizations to develop, operate, and refine an environmental 
monitoring and visualization system for the entire isthmus of Central 
America. Known as SERVIR, this system is web-based and provides 
satellite- and ground-based geospatial data for management and decision 
support. In addition to a data archive, Internet mapping tools, and 
visualization software, SERVIR offers a number of decision support 
products including those for fires, floods, harmful red tide events, 
developing climate scenarios, and weather forecasting. Examples of 
recent activities are the use of SERVIR imagery by fire fighters in 
northern Guatemala to battle fires and national park managers in Belize 
employing SERVIR fire alerts to detect unauthorized incursions and 
clearing of tropical forest within the Chiquibul National Park. The 
SERVIR web location is http://servir.net/.
    Another recent NASA Applied Science program contribution was our 
real-time support to state emergency responders in the Esperanza fires 
last October in California. A data integration tool developed under 
Applied Science's Wildfire Research and Applications Partnership or 
WRAP (NASA, USFS and the National Interagency Fire Center), together 
with a 16-hour emergency flight of a NASA Ames UAS (Unmanned Aerial 
System), provided invaluable real-time information about fire location, 
intensity, and extent that was used to guide the California Governor's 
Office of Emergency Services and the Esperanza Fire Incident Command 
Center as they battled the fire. The WRAP integration tool incorporates 
data and technology from an array of sources, both public and private, 
and displays the data on a Google Earth software base. In collaboration 
with the U.S. Forest Service, the WRAP project continues to be 
supported by the Earth Science Division's Research and Analysis and 
Technology Programs to further test the integrated UAS system during 
actual wildfire events this coming fire season in California.
    In March, 2007, the NASA Administrator submitted to Congress the 
report on the Applied Sciences Program's planning, selection, and 
review processes in Accordance with Section 307 of the National 
Aeronautics and Space Administration Authorization Act of 2005 (P.L. 
109-155) (``the Act''). In this year's Research Opportunities in Space 
and Earth Sciences (ROSES) research announcement, we explicitly 
incorporated the requirements of Section 313 of the Act, which 
identifies the need to address State, local, regional and tribal agency 
needs and to utilize both NASA and commercial sector capabilities. 
Specifically, the Applied Sciences Program requires grantees to utilize 
commercially available products whenever it is appropriate and 
available, consistent with NASA Earth science policy. The Applied 
Sciences Program, under new leadership, is planning a comprehensive 
review of the program to ensure that it is aligned with the NAS Decadal 
Survey recommendations and is working with NASA leadership to establish 
an appropriate advisory structure, in accordance with Section 314 of 
the Act.
    Even as we are acquiring and analyzing measurements today, we are 
planning the satellites, field experiments, scientific investigations, 
and Earth System models of the future. The recently released Earth 
Science Decadal Survey provides, for the first time, a scientifically 
based, community consensus statement of the top priority future Earth 
System Science problems to be addressed, and it suggests a sequence of 
notional missions whose measurements could contribute to advancing our 
understanding of the Earth and its environment.
    We welcome the Decadal Survey--indeed, we asked for it. NASA, along 
with NOAA and the U.S. Geological Survey (USGS), requested and funded 
the NRC to conduct this first Decadal Survey in Earth science. We 
formally made the request in the fall of 2003 and the study began in 
earnest in 2004. The massive undertaking was only completed this 
January. We are grateful for all of the efforts of the Co-Chairs and 
NRC staff, the members of the decadal survey Executive Committee, and 
the literally hundreds of Earth Science researchers who volunteered 
their time and their ideas. Their success in creating a broad consensus 
is a substantial achievement.
    The science priorities identified by the Decadal Survey will be our 
primary guide as we design and select Earth observing missions to be 
flown in the next 10-15 years. In the space sciences, NASA has a long 
history of guidance by NRC decadal surveys. Indeed, even in the Earth 
sciences, where this is the first Decadal Survey, the President's FY 
2008 budget request for NASA was guided by recommendations included in 
the interim report issued by the Decadal Survey committee in 2005. The 
FY 2008 budget request includes funding and predictable launch dates 
for the LDCM, the Glory aerosol and solar irradiance mission, NPP, and 
GPM, all of which figured strongly in the interim report.
    Unfortunately, the full Decadal Survey arrived too late for its 
specific recommendations to influence the FY 2008 budget process, but 
its scientific priorities will be used in development of the FY 2009 
and subsequent budget requests. NASA's FY 2008 budget request also 
includes funding for an additional, competed flight mission, which will 
launch sometime around 2014. We will be guided by the Decadal Survey as 
we choose the scientific focus and instrument complement for this 
mission, starting with a competitive solicitation in late 2008.
    In addition to its science priorities and the notional mission set, 
the Decadal Survey provides several recommendations relevant to the 
design and implementation of the Earth Science flight program. Survey 
recommendations in the areas of international collaboration and 
technology investment deserve particular consideration.
    We all recognize that a constellation of missions and many 
simultaneous measurements--such as those obtained by the A-train 
spacecraft described above--are needed to understand the interactions 
between Earth system processes. No agency or nation can afford to 
develop and fly all necessary missions single handedly.
    The Decadal Survey emphatically recommends international 
collaboration, to maximize humankind's benefits from our net investment 
in Earth science, and to avoid unnecessary duplication. To this end, we 
have already begun discussions with our closest international space 
agency partners: the Canadian, European, French, Japanese, and German 
space agencies. Throughout the spring and early summer, we held eight 
substantive bilateral meetings with international space agency partners 
to identify and refine areas of common interest and complementary 
expertise. We are also actively engaged--indeed NASA and the United 
States are leaders--in international coordination bodies such as the 
Committee on Earth Observation Satellites (CEOS) and the international 
Group on Earth Observations (GEO). As with our present OSTM, Aquarius, 
and GPM missions, we anticipate substantial joint projects with 
international partners as we construct missions to address the Decadal 
Survey's science questions. As a result of this Spring's activities, we 
are establishing several bilateral, focused, technical-level working 
groups to refine science investigations, measurement techniques, and 
programmatic collaboration approaches for some early- and mid-term 
Decadal Survey missions where clear partner interest and expertise 
exists.
    NASA works closely with other federal agencies to support an 
integrated federal program of climate research. As noted above, the 
Decadal Survey was jointly requested by NASA, NOAA and the USGS and 
assigns some priority missions to NASA, and some to NOAA for execution. 
NASA's contribution to the U.S. Climate Change Science Program (CCSP) 
is unchanged from the FY 2007 to FY 2008 budget request, and remains 
the largest single contribution to the Program. Consistent with the 
Space Act and the 2005 NASA Authorization Act, NASA's role within the 
broader federal program is guided by the U.S. National Space Policy, 
authorized by the President in August, 2006. In particular, NASA works 
closely with NOAA to transition mature and proven measurement 
capabilities to long-term operations.
    Science-driven technology investment is one of the keys to the 
design and implementation of any future mission set. It is essential to 
have the technology developed and tested in a relevant environment 
prior to the approval of any mission. This helps to avoid cost overruns 
that occur when problems arise with a new technology late in the 
mission development cycle. To foster advanced technologies for Earth 
science, NASA's strategy is two pronged, as recommended by the Decadal 
Survey, with both focused technology and core technology elements.
    Where we know the missions we want to implement and what new 
technologies are required on a certain schedule, we make focused 
investments to assure technologies are available when we issue 
competitive solicitations for mission formulation and development. This 
is done through the highly successful Instrument Incubator Program, 
funded under the Earth Science Technology Office, which matures 
instrument technologies for future measurements.
    The second prong addresses the seed corn or ``core technologies,'' 
for advanced Earth observing missions of the future. Where we know that 
certain classes of technologies are needed for the types of 
measurements we would like to make in the future, or are simply 
convinced that investment in certain sensor or detector technology 
areas will yield fruit, we will issue open, competitive solicitations 
for the best ideas. Examples include advanced component development 
(which allows scientists and technologists to take an idea from the 
concept to the bench top demonstration stage), laser risk reduction 
(which has developed fundamental lidar technologies applicable to 
multiple NASA missions), and advanced information systems technology 
development (which provides advanced operations technologies which aid 
in reducing future mission costs).
    The Decadal Survey, the U.S. Climate Change Science Program, and 
NASA's own planning in Earth science all assume the presence of an 
operational system of environmental monitoring satellites that can make 
climate-quality measurements. The Nation needs such a system. That is 
why NASA, along with NOAA and the Air Force, is a member of the NPOESS 
governing body, and why NASA entered into a partnership with the NPOESS 
Integrated Program Office to develop NPP. NPP is designed both to 
continue essential measurements from NASA's Earth Observing System 
satellites as well as provide a demonstration of instruments to be 
flown on NPOESS.
    The Nunn-McCurdy certified NPOESS program, as you are aware, 
focuses NPOESS on its weather mission and deletes many of the 
capabilities previously planned for climate science. As the Decadal 
Survey committee was finalizing its notional mission set and sequence, 
the full impact of the removal of the climate sensors from the NPOESS 
program was just coming to light. Since last summer, we in NASA have 
been working closely with NOAA, OSTP, and the scientific research 
community to understand and rank the impacts of these programmatic 
perturbations, and to develop realistic mitigation scenarios for the 
most important measurements. This is being done on an accelerated 
schedule to inform the development of the FY 2009 budget request. In 
addition to our agency-based technical evaluations and preliminary 
mitigation strategy designs, NASA and NOAA commissioned, supported, and 
participated in an NRC workshop which was held last week after several 
weeks of community planning (including members of the original Decadal 
Survey committee). The workshop was chartered to examine the scientific 
and research-focused impacts of the programmatic changes to NPOESS and 
to consider various recovery scenarios. We are eagerly awaiting the 
workshop report, expected later in the summer, again in time to provide 
recommendations useful for helping to determine the FY 2009 budget.
    I am pleased to report that, in an initial step, NASA and NOAA have 
agreed to share equally the cost to restore the Ozone Mapping and 
Profiler Suite (OMPS)-Limb to the NPP satellite set to launch in 2009. 
The OMPS Limb will measure the vertical distribution of ozone and 
complements existing NPOESS systems, in particular the OMPS-Nadir 
instrument, which continues the long global time series of total column 
ozone. The first-ever combination of total and vertically resolved 
ozone measurements will provide scientists unique insight into the 
dynamical and chemical processes which regulate atmospheric 
composition.
    Considering both the guidance from the Decadal Survey and the 
realities of the recent programmatic changes to NPOESS, NASA is 
proceeding with a mission planning activity to determine the focus and 
content of our specific future Earth observing missions. The plan will 
integrate the scientific recommendations and priority/sequence of the 
Decadal Survey, the joint and ongoing NASA-NOAA and community 
examinations of the NPOESS Nunn-McCurdy changes, and the contributions 
of our international partners. Through a series of concept studies 
conducted at NASA Centers, we are carefully examining the Decadal 
Survey's notional missions. The studies are assessing the technological 
readiness, system engineering challenges, and expected costs (including 
support for scientific validation and analysis of the mission data) of 
each notional mission. These concept studies are accessing the full 
capability of the NASA mission design and costing apparatus, to 
complement the estimates assigned by the NRC. We have organized and 
broadly announced four community workshops, one for each of the four 
early-term missions assigned to NASA in the NRC's Decadal Survey. The 
two aims of each workshop are to define the full range of scientific 
capabilities of each of the synthesized missions recommended by the 
Decadal Survey, and to identify essential contextual measurements that 
must also be present in order to advance the science priorities 
identified in the Decadal Survey. The workshops should provide great 
community insight into, and recommendations for, these early missions 
and will aid the subsequent detailed mission design work. These first 
four workshops will be held during late June and through July--indeed, 
the workshop focused on the notional ``IceSat-II'' mission is being 
held near Baltimore yesterday, today, and tomorrow. As our NASA 
planning evolves, community involvement will be assured through many 
more workshops, regular interactions with the Earth Science 
Subcommittee of the NASA Advisory Council, as well as discipline- and 
science-focus theme working groups which regularly inform our plans and 
examine our progress within the NASA Earth Science Division.
    The planning process also includes an update later this year to the 
NASA Earth Science Plan. Indeed, when the Congress asked the Agency for 
a Science Plan in the NASA Authorization Act of 2005 (P.L. 109-155), 
you recognized that the Decadal Survey would not be available in time 
to influence the Earth Science portion of that Plan. Therefore, NASA 
was asked to describe how it might revise that Plan based on the Earth 
Science Decadal Survey. Our planning activity and the Science Plan will 
address that question. We have developed and are presently examining a 
draft of the Science Plan changes, and expect to begin vetting a 
refined version through the NRC and NASA Advisory Council committees by 
the September time frame.
    While the scope and specificity of the planning activity clearly 
must exceed that of the Decadal Survey and must accommodate issues of 
programmatic balance and national needs, it is definitively not our 
intention to redo the Decadal Survey or to change the scientific 
priorities that it identified.
    As with decadal surveys in other parts of the Science Mission 
Directorate portfolio, this Decadal Survey is only the starting point. 
However, Earth Science planning is even more complex than in other 
divisions, given the web of partnerships, the many and diverse users of 
Earth science data, and its societal impact. Considering the long time 
horizon in the NRC's report, it will require several budget cycles to 
implement the program that we will derive from the Decadal Survey's 
near- and mid-term recommended mission sets. Nevertheless, our planning 
process starts with the consensus scientific priorities articulated for 
us by the NRC. So I will close by reiterating my gratitude to the 
Decadal Survey committee Co-Chairs and members for their excellent 
work. NASA's commitment to Earth Science research is commensurate with 
theirs.
    I welcome your questions on NASA's Earth science program.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                   Biography for Michael H. Freilich
    Michael H. Freilich is the Director of the Earth Science Division, 
in the Science Mission Directorate at NASA Headquarters. Prior to 
coming to NASA, he was a Professor and Associate Dean in the College of 
Oceanic and Atmospheric Sciences at Oregon State University. He 
received BS degrees in Physics (Honors) and Chemistry from Haverford 
College in 1975 and a Ph.D. in Oceanography from Scripps Institution of 
Oceanography (Univ. of California, San Diego) in 1982. From 1983-1991 
he was a Member of the Technical Staff at the Jet Propulsion 
Laboratory.
    Dr. Freilich's research focuses on the determination, validation, 
and geophysical analysis of ocean surface wind velocity measured by 
satellite-borne microwave radar and radiometer instruments. He has 
developed scatterometer and altimeter wind model functions, as well as 
innovative validation techniques for accurately quantifying the 
accuracy of space-borne environmental measurements.
    Dr. Freilich served as the NSCAT Project Scientist from 1983-1991 
and as the Mission Principal Investigator for NSCAT from 1992-1997. 
Until he relinquished his project posts to join NASA HQ, he was the 
Mission PI for QuikSCAT (launched in June, 1999) and SeaWinds/ADEOS-2 
(launched in December, 2002). He was the team leader of the NASA Ocean 
Vector Winds Science Team and is a member of the QuikSCAT, SeaWinds, 
and Terra/AMSR Validation Teams, as well as the NASDA (Japanese Space 
Agency) ADEOS-2 Science Team.
    Dr. Freilich has served on many NASA, National Research Council 
(NRC), and research community advisory and steering groups, including 
the WOCE Science Steering Committee, the NASA EOS Science Executive 
Committee, the NRC Ocean Studies Board, and several NASA data system 
review committees. He chaired the NRC Committee on Earth Studies, and 
served on the NRC Space Studies Board and the Committee on NASA/NOAA 
Transition from Research to Operations.
    His honors include the JPL Director's Research Achievement Award 
(1988), the NASA Public Service Medal (1999), and the American 
Meteorological Society's Verner E. Suomi Award (2004), as well as 
several NASA Group Achievement awards. Freilich was named a Fellow of 
the American Meteorological Society in 2004.
    Freilich's non-scientific passions include nature photography and 
soccer refereeing at the youth, high school, and adult levels.

    Chairman Udall. Thank you, Dr. Freilich.
    Dr. Anthes, the floor is yours.

   STATEMENT OF DR. RICHARD A. ANTHES, PRESIDENT, UNIVERSITY 
 CORPORATION FOR ATMOSPHERIC RESEARCH; CO-CHAIR, COMMITTEE ON 
 EARTH SCIENCE AND APPLICATIONS FROM SPACE, NATIONAL RESEARCH 
                COUNCIL, THE NATIONAL ACADEMIES

    Dr. Anthes. Mr. Chairman and Ranking Minority Member and 
Members of the Committee, thank you for inviting me to testify 
today. As Mr. Udall said, I am President of UCAR, the 
University Corporation for Atmospheric Research, and I have to 
be careful because the gentleman to my left is going to be 
probably the next Chairman of the UCAR board of trustees, so I 
have to be nice to him and to the State of Texas.
    Before I get into my prepared remarks, I would just like to 
remind us that the news of the last few days about the terrible 
fires in the Lake Tahoe area following the winter of only about 
30 percent normal snowfall there, the droughts in the West, the 
droughts in the Southeast where some places in Florida and 
Georgia are 12 feet below normal in rainfall, is all consistent 
with the kind of changes that we are worried about as the 
climate warms in the United States and the rest of the world. 
So the observations that we are talking about in the Decadal 
Survey as we said are more important than ever. This is not the 
time to be cutting back on observation of the Earth. It is time 
to be augmenting them.
    The NRC report recommends a path forward that establishes 
U.S. leadership in Earth science and applications to avert the 
potential collapse of the U.S. system of environmental 
satellites. This can be accomplished in a fiscally responsible 
manner. The cost is very small in comparison to the societal 
needs and benefits.
    Mr. Chairman, you asked me for my views on the top three 
priorities for NASA's Earth Science program during the next 
five years. The highest priority is that NASA commit to and 
begin to implement its recommended decadal missions. Starts on 
the initial seven missions should begin in 2008. The second 
priority is that NASA increase its suborbital capabilities. 
NASA'S airborne programs have suffered substantial diminution 
and should be restored. Both conventional and unmanned aircraft 
are needed for instrument development, technology advancement 
and for their direct contribution to Earth observations. The 
third priority is that NASA restore support of its research and 
analysis programs and efforts in Earth system modeling. 
Improved information about potential future changes in climate, 
weather and other environmental conditions will come from 
better observations but also more capable models of the Earth 
system and a vigorous research program to use the observations 
in models and interpret the results.
    This committee's leadership on Earth sciences and the 
recent actions in the House appropriations process with respect 
to the fiscal year 2008 budget are encouraging and greatly 
appreciated, but even with the increase in NASA's Earth Science 
request for 2008, funding falls short of what is needed to get 
a full start on the recommended program, as you can see by this 
visual which shows the actual NASA budget starting in 1996 
going through the actual budget in 2006 and 2007 and then 
projected budget or requested budget in 2008 and to run out 
beyond that. You can see that despite the encouraging upward 
turn for 2008, the gap between what is needed to complete and 
execute our Decadal Survey and what it is in the run-out from 
the 2008 request increases every year. The other point to make 
from this graph is that the funds to implement the Decadal 
Survey are only restoring the NASA Earth Science budget and 
real purchasing power to what it was in the last part of the 
previous century and the early part of this one. So we did a 
very strong prioritization to get a recommended set of missions 
that we considered minimal to meet the needs and not one that 
would bust the budget.
    You also asked about international partnerships, and Dr. 
Freilich made some very encouraging remarks in that direction a 
few minutes ago. I would like to mention the collaborations 
with other nations not only saves scarce resources for all 
partners but promote scientific collaboration and sharing of 
ideas among the many talented people of all nations. However, 
they can come at a cost. The success of a partnership depends 
on both partners meeting their commitments, and if one partner 
runs into funding problems or technological difficulties, it 
can threaten the whole mission.
    I would like to close my testimony with a quote from Vice 
Admiral Richard H. Truly, former NASA Administrator, Shuttle 
astronaut and the first commander of the Naval Space Command in 
a recent report, National Security and the Threat of Climate 
Change. Describing his experience in space 25 years ago, 
Admiral Truly said, ``I have imager burned in my mind that will 
never go away, images of the Earth and its fragility. I was a 
test pilot. I was an aviator. I was not an environmentalist. 
When you look at the Earth's horizon, you see an incredibly 
beautiful but very thin line. That thin line is our atmosphere, 
and the real fragility of our atmosphere is that there is so 
little of it. The stresses that climate change will put on our 
national security will be different from any we have ever dealt 
with in the past. For one thing, unlike the challenges we are 
used to dealing with, these will come upon us extremely slowly, 
but come they will and they will be grinding and inexorable.'' 
Admiral Truly said he was not convinced of the importance of 
climate change by any person or interest group; he was 
convinced by the data. We as a nation must continue to provide 
the data on Earth for only the data can reveal the truth that 
will affect us all.
    Thank you very much.
    [The prepared statement of Dr. Anthes follows:]

                Prepared Statement of Richard A. Anthes

    Mr. Chairman, Ranking Minority Member Calvert, and Members of the 
Subcommittee: thank you for inviting me to testify on this important 
subject. My name is Richard Anthes, and I am the President of the 
University Corporation for Atmospheric Research (UCAR), a consortium of 
70 research universities that manages the National Center for 
Atmospheric Research, on behalf of the National Science Foundation, and 
additional scientific education, training and support programs. I am 
also the current President of the American Meteorological Society. I 
appear today in my capacity as Co-Chair of the National Research 
Council (NRC)'s Committee on Earth Science and Applications from Space: 
A Community Assessment and Strategy for the Future.
    The National Research Council is the unit of the National Academies 
that is responsible for organizing independent advisory studies for the 
Federal Government on science and technology. In response to requests 
from NASA, NOAA, and the USGS, the NRC has recently completed a 
``decadal survey'' of Earth science and applications from space. 
(``Decadal surveys'' are the 10-year prioritized roadmaps that the NRC 
has done for 40 years for the astronomers; this is the first time it is 
being done for Earth science and applications from space.) Among the 
key tasks in the charge to the decadal survey committee were to:

        <bullet>  Develop a consensus of the top-level scientific 
        questions that should provide the focus for Earth and 
        environmental observations in the period 2005-2020; and

        <bullet>  Develop a prioritized list of recommended space 
        programs, missions, and supporting activities to address these 
        questions.

    The NRC survey committee has prepared an extensive report in 
response to this charge. Over 100 leaders in the Earth science 
community participated on the survey steering committee or its seven 
study panels. It is noteworthy that this was the first Earth science 
decadal survey, and the committee and panel members did an excellent 
job in fulfilling the charge and establishing a consensus--a task many 
previously considered impossible. A pre-publication version of the 
report was published in January 2007 and is available at www.nap.edu/
catalog/11820.html; the final version will be published later this 
year.
    The committee's vision is encapsulated in the following 
declaration, first stated in the committee's interim report, published 
in 2005:

         Understanding the complex, changing planet on which we live, 
        how it supports life, and how human activities affect its 
        ability to do so in the future is one of the greatest 
        intellectual challenges facing humanity. It is also one of the 
        most important challenges for society as it seeks to achieve 
        prosperity, health, and sustainability.

    As detailed in the committee's final report, and as we were 
forcefully reminded by the latest set of reports from the International 
Panel on Climate Change (IPCC), the world faces significant and 
profound environmental challenges: shortages of clean and accessible 
freshwater, degradation of terrestrial and aquatic ecosystems, 
increases in soil erosion, changes in the chemistry of the atmosphere, 
declines in fisheries, and above all the rapid pace of substantial 
changes in climate. These changes are not isolated; they interact with 
each other and with natural variability in complex ways that cascade 
through the environment across local, regional, and global scales. 
Addressing these societal challenges requires that we confront key 
scientific questions related to ice sheets and sea level change, large-
scale and persistent shifts in precipitation and water availability, 
transcontinental air pollution, shifts in ecosystem structure and 
function, impacts of climate change on human health, and occurrence of 
extreme events, such as hurricanes, floods and droughts, heat waves, 
earthquakes, and volcanic eruptions.
    As a result, one way or the other, our international neighbors and 
we will undoubtedly be taking steps in an effort to deal with the 
climate changes we will confront. And as we do so, policy-makers and 
others will want to know if such steps are actually making a difference 
in addressing climate change. Yet at a time when the need for that kind 
of information has never been greater, we are faced with an Earth 
observation program that will dramatically diminish in capability over 
the next 10-15 years.
    Between 2006 and the end of the decade, the number of operating 
missions will decrease dramatically and the number of operating sensors 
and instruments on NASA spacecraft, most of which are well past their 
nominal lifetimes, will decrease by some 35 percent, with a 50 percent 
reduction by 2015 (Fig. 1). Substantial loss of capability is likely 
over the next several years due to a combination of decreased budgets 
and aging satellites already well past their design lifetimes.
    In its report, the committee sets forth a series of near-term and 
longer-term recommendations in order to address these troubling trends. 
It is important to note that this report does not ``shoot for the 
Moon,'' and indeed the committee exercised considerable restraint in 
its recommendations, which were carefully considered within the context 
of challenging budget situations. Yet, while societal applications have 
grown ever-more dependent upon our Earth observing fleet, the NASA 
Earth science budget has declined some 30 percent in constant-year 
dollars since 2000 (Fig. 2). This disparity between growing societal 
needs and diminished resources must be corrected. This leads to the 
report's overarching recommendation:

         The U.S. Government, working in concert with the private 
        sector, academe, the public, and its international partners, 
        should renew its investment in Earth observing systems and 
        restore its leadership in Earth science and applications.

    The report outlines near-term actions meant to stem the tide of 
capability deterioration and continue critical data records, as well as 
forward-looking recommendations to establish a balanced Earth 
observation program designed to directly address the most urgent 
societal challenges facing our nation and the world (see Fig. 3 for an 
example of how nine of our recommended missions support in a 
synergistic way one of the societal benefit areas--extreme event 
warnings). It is important to recognize that these two sets of 
recommendations are not an ``either/or'' set of priorities. Both near-
term actions and longer-term commitments are required to stem the tide 
of capability deterioration, continue critical climate data records, 
and establish a balanced Earth observation program designed to directly 
address the most urgent societal challenges facing our nation and the 
world. It is important to ``right the ship'' for Earth science, and we 
simply cannot let the current challenges we face with NPOESS and other 
troubled programs stop progress on all other fronts. Implementation of 
the ``stop-gap'' recommendations concerning NPOESS, NPP, and GOES-R is 
important--and the recommendations for establishing a healthy program 
going forward are equally as important. Satisfying near-term 
recommendations without placing due emphasis on the forward-looking 
program is to ignore the largest fraction of work that has gone into 
this report. Moreover, such a strategy would result in a further loss 
of U.S. scientific and technical capacity, which could decrease the 
competitiveness of the United States internationally for years to come.
    Key elements of the recommended program include:

        1.  Restoration of certain measurement capabilities to the NPP, 
        NPOESS, and GOES-R spacecraft in order to ensure continuity of 
        critical data sets.

        2.  Completion of the existing planned program that was used as 
        a baseline assumption for this survey. This includes (but is 
        not limited to) launch of GPM in or before 2012, securing a 
        replacement to Landsat 7 data before 2012.

        3.  A prioritized set of 17 missions to be carried out by NOAA 
        and NASA over the next decade (see Tables 1 and 2 below). This 
        set of missions provides a sound foundation for Earth science 
        and its associated societal benefits well beyond 2020. The 
        committee believes strongly that these missions form a minimal, 
        yet robust, observational component of an Earth information 
        system that is capable of addressing a broad range of societal 
        needs.

        4.  A technology development program at NASA with funding 
        comparable to and in addition to its basic technology program 
        to make sure the necessary technologies are ready when needed 
        to support mission starts over the coming decade.

        5.  A new ``Venture'' class of low-cost research and 
        application missions that can establish entirely new research 
        avenues or demonstrate key application-oriented measurements, 
        helping with the development of innovative ideas and 
        technologies. Priority would be given to cost-effective, 
        innovative missions rather than ones with excessive scientific 
        and technological requirements.

        6.  A robust NASA Research and Analysis program, which is 
        necessary to maximize scientific return on NASA investments in 
        Earth science. Because the R&A programs are carried out largely 
        through the Nation's research universities, such programs are 
        also of great importance in supporting and training the next 
        generation of Earth science researchers.

        7.  Sub-orbital and land-based measurements and socio-
        demographic studies in order to supplement and complement 
        satellite data.

        8.  A comprehensive information system to meet the challenge of 
        production, distribution, and stewardship of observational data 
        and climate records. To ensure the recommended observations 
        will benefit society, the mission program must be accompanied 
        by efforts to translate raw observational data into useful 
        information through modeling, data assimilation, and research 
        and analysis.

    Further, the committee is particularly concerned with the lack of 
clear agency responsibility for sustained research programs and the 
transitioning of proof-of-concept measurements into sustained 
measurement systems. To address societal and research needs, both the 
quality and the continuity of the measurement record must be assured 
through the transition of short-term, exploratory capabilities, into 
sustained observing systems. The elimination of the requirements for 
climate research-related measurements on NPOESS is the most recent 
example of the failure to sustain critical measurements. Therefore, our 
committee recommends that the Office of Science and Technology Policy, 
in collaboration with the relevant agencies, and in consultation with 
the scientific community, should develop and implement a plan for 
achieving and sustaining global Earth observations. This plan should 
recognize the complexity of differing agency roles, responsibilities, 
and capabilities as well as the lessons from implementation of the 
Landsat, EOS, and NPOESS programs.
    In your invitation, Mr. Chairman, you asked me to explicitly 
address a number of issues and I am pleased to do so:

1.  What, in your perspective, should be the top three priorities for 
the NASA Earth sciences program over the next five years, and what, if 
any, are the most significant challenges in meeting those priorities?

    This is a somewhat difficult question to answer. Five years from 
now is well into the period covered by the Decadal Survey, and the 
Survey has recommended a balanced set of 15 high priority missions for 
NASA. This set of 15 missions was derived from over 100 proposed 
missions, so a great deal of priority setting has already taken place 
by the community. It is therefore important to make progress on all of 
these missions during the next five years, with greater attention paid 
to the recommended missions early in the queue (the 2010 to 2013 
timeframe as described in the report). Thus my answer to this question 
will focus on the highest priorities to begin in FY08 in order to lay 
the foundation for implementing the full set of recommendations during 
the next decade.

        <bullet>  First, NASA should commit to and begin to implement 
        its recommended Decadal Missions. Although, the NASA budget for 
        Earth Sciences is not now adequate to implement the survey 
        recommendations (see next question), a useful start can be made 
        with modest resources. The survey's initial seven missions 
        (2010-2013) should begin in 2008; the first four (CLARREO, 
        SMAP, ICESat-II, and DESDynI) should begin intensive Phase A 
        activities and the next three (for the time period 2013-2016--
        HyspIRI, ASCENDS, and SWOT) should begin pre-Phase A studies. 
        Increment needed beyond President's Request in FY08: $90 
        million.

        <bullet>  Second, NASA should increase its sub-orbital 
        capabilities. NASA's airborne programs have suffered 
        substantial diminution and should be restored. In addition, 
        NASA should lead in exploiting unmanned aerial vehicles (UAV/
        technology). Both conventional and UAV aircraft are needed for 
        instrument development, and hence risk reduction and technology 
        advancement, and for their direct contribution to Earth 
        observations. Increment needed beyond President's Request in 
        FY08: $10 million.

        <bullet>  And third, NASA should increase support of its 
        Research and Analysis (R&A) program and in Earth System 
        modeling. Improved information about potential future changes 
        in climate, weather, and other environmental conditions is 
        essential for the benefit and protection of society. This 
        improvement will come from: a) better observations (the 
        recommended missions and enhanced sub-orbital capabilities); b) 
        more capable models of the Earth System; and c) a vigorous 
        research program to use the observations in models and 
        interpret the results. The R&A program has suffered significant 
        cuts in recent years and these should be reversed. R&A 
        investments are among the most cost-effective as they directly 
        exploit on-going missions, advance knowledge to better define 
        what is needed in the future, and sustain and develop the 
        requisite scientific and engineering workforce. Increment 
        needed beyond President's Request in FY08: $20 million.

2.  What are your perspectives on how well the FY 2008 budget request 
and out year projections for NASA's Earth science program align with 
the recommendations of the Earth science decadal survey?

    The FY 2008 budget request for NASA's Earth science program is 
inadequate to meet the recommendations of the decadal survey. Figure 2 
compares the request and the requirements to carry out the 
recommendations. Even with an encouraging increase in the NASA Earth 
Science request for FY08, it still falls short of what is needed to get 
a full start on the recommended program. Moreover, the out year 
projections show a steady decrease when the requirements call for an 
increase to a level of about $2.1 billion by 2010 with a level budget 
(in real dollars) after that.
    This committee's leadership on Earth sciences and the recent 
actions in the House appropriations process with respect to FY08 are 
encouraging and greatly appreciated. I am hopeful that the Congress and 
the Administration will ultimately support the actions taken by this 
Committee and the appropriators in the FY08 appropriations process and 
continue to build on that momentum into the future.

3.  Could you please describe your views on how NASA might begin to 
implement the recommendations of the National Academies' Earth science 
decadal survey?

    It is a truism that to begin a long journey you have to take the 
first step. NASA should first commit to implementing the 
recommendations in a timely fashion, and then begin developing 
implementation plans and schedules for the recommended missions and 
supporting research and technology development. I am encouraged that 
NASA is planning workshops to further analyze the decadal survey 
recommended missions, but to develop the survey ideas further will 
require substantial investments.
    Implementing the survey results will require modest increments in 
the NASA Earth Science budget, restoring the budget back to where it 
was in real dollars in the early part of this decade. This will require 
NASA to request the necessary resources and for Congress to provide 
them. Alternatively, Congress could take the lead and require NASA to 
implement the survey while providing the resources.
    My recommended first specific steps for implementation are given in 
my answer to the first question.

4.  What are your perspectives, as an individual researcher, on 
international collaborations in the Earth sciences, and what value 
would international collaborations offer in advancing the recommended 
missions in the decadal survey?

    As the survey states, international partnerships can be very 
important in implementing complex expensive space missions such as 
recommended in the survey. Collaborations with other nations not only 
save scarce resources for all the partners, they promote scientific 
collaboration and sharing of ideas among talented people of all 
nations. Most of the smart people in the world do not live in the 
United States! International collaborations increase the brain pool to 
carry out the challenging proposed missions and use the observations in 
creative, innovative ways for the benefit of society.
    However, international collaborations come at a cost. Any time 
partners are involved, control must be shared and the success of the 
mission depends critically on the performance of all the partners. If 
one partner runs into difficulties (e.g., financial support is 
withdrawn), the entire mission can be threatened. A successful 
collaboration also requires assurance that data will be shared and that 
U.S. scientists are full partners on teams that ensure adequate pre-
launch instrument characterization and post-launch instrument 
calibration and validation. Other issues such as regulations governing 
the sharing of technologies (e.g., International Traffic in Arms 
Regulation--ITAR), governance and even language and cultural 
differences can make international partnerships more difficult and 
risky than ``going it alone.'' Nevertheless, the potential benefits 
outweigh the downsides and NASA, NOAA and their U.S. partners in 
academia and industry should seek opportunities for international 
partnerships at every turn.

    Mr. Chairman, the observing system we envision will help establish 
a firm and sustainable foundation for Earth science and associated 
societal benefits through the year 2020 and beyond. It can be achieved 
through effective management of technology advances and international 
partnerships, and broad use of satellite science data by the research 
and decision-making communities. Our report recommends a path forward 
that restores U.S. leadership in Earth science and applications and 
averts the potential collapse of the system of environmental 
satellites. As documented in our report, this can be accomplished in a 
fiscally responsible manner, and I urge the Committee to see that it is 
accomplished.
    I close my testimony with a quote from Vice Admiral Richard H. 
Truly, former NASA Administrator, Shuttle Astronaut and the first 
commander of the Naval Space Command in a recent report, National 
Security and the Threat of Climate Change. Admiral Truly speaks as one 
of 11 retired senior military officers who wrote this report that 
describes the serious threat of climate change to the Nation's 
security. Describing his experience in space 25 years ago, Admiral 
Truly said:

         I have images burned in my mind that will never go away--
        images of the Earth and its fragility. I was a test pilot. I 
        was an aviator. I was not an environmentalist. But I do love 
        the natural environment, and seeing the Earth from space was 
        the experience that I return to when I think about what we know 
        now about climate. . .

         When you look at the Earth's horizon, you see an incredibly 
        beautiful, but very thin line. That thin line is our 
        atmosphere. And the real fragility of our atmosphere is that 
        there's so little of it. . .

         The stresses that climate change will put on our national 
        security will be different than any we've dealt with in the 
        past. For one thing, unlike the challenges we are used to 
        dealing with, these will come upon us extremely slowly, but 
        come they will, and they will be grinding and inexorable. . .

    Admiral Truly said he was not convinced of the importance of 
climate change by any person or interest group--he was convinced by the 
data. We as a nation must continue to provide the data on the Earth, 
for only the data can reveal the truth that will affect us all.
    Thank you for the opportunity to appear before you today. I am 
prepared to answer any questions that you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Richard A. Anthes

    Richard Anthes is the President of the University Corporation for 
Atmospheric Research (UCAR). He is a highly regarded atmospheric 
scientist, author, educator and administrator who has contributed 
considerable research in the atmospheric sciences. Dr. Anthes has 
published over 100 peer-reviewed articles and books and participated on 
or chaired over 40 different U.S. national committees. He has also 
received numerous awards for his sustained contributions to the 
atmospheric sciences. In October 2003 he was awarded the Friendship 
Award by the Chinese government, the most prestigious award given to 
foreigners, for his contributions over the years to atmospheric science 
and weather forecasting in China. Most recently, Dr. Anthes was named 
the President of the American Meteorological Society for 2007.
    Dr. Anthes has made many research contributions in the areas of 
tropical cyclones and mesoscale meteorology. He developed the first 
successful three-dimensional model of the tropical cyclone and is the 
father of one of the world's most widely used mesoscale models, the 
Penn State-NCAR mesoscale model, now in its fifth generation (MM5). In 
recent years he has become interested in the radio occultation 
technique for sounding Earth's atmosphere and was a key player in the 
highly successful proof-of-concept GPS/MET satellite experiment and the 
present COSMIC (Constellation Observing System for Meteorology, 
Ionosphere and Climate satellite mission.
    He places a very high value on education at all levels. His 
philosophy is that any significant, long-term progress in solving the 
array of problems facing the world hinges on the education of young 
people in all countries. This philosophy is reflected in multiple 
education and outreach programs at UCAR. For example, in 1996 he 
initiated the highly successful SOARS (Significant Opportunities in 
Atmospheric Research and Science) program, which addresses the severe 
under-representation of minority professionals in the atmospheric 
sciences. This program received the Presidential Mentoring Award for 
Excellence in Science, Mathematics and Engineering in 2001.

    Chairman Udall. Thank you, Dr. Anthes.
    Dr. Barron.

   STATEMENT OF DR. ERIC J. BARRON, DEAN, JACKSON SCHOOL OF 
GEOSCIENCES; JACKSON CHAIR IN EARTH SYSTEM SCIENCE, UNIVERSITY 
                        OF TEXAS, AUSTIN

    Dr. Barron. Mr. Chairman, Members of the Subcommittee, 
thank you for allowing me to testify today.
    I believe we have one key goal and that is to 
simultaneously protect life and property, promote economic 
vitality and at the same time enable environmental stewardship. 
Achieving that balance is quite a challenge, and at a minimum, 
to be successful, we have to do two things. We have to know 
what components of the Earth system are changing and how they 
are changing and an ability to separate out the human activity 
from the natural forces, and we need to be able to do a better 
job of anticipating or predicting the future. It is our ability 
to anticipate the future that makes knowledge about the Earth 
so powerful.
    Our scientific community is very appreciative of the 
actions taken by Congress at the start of the fiscal year 2008 
appropriations process as you and your colleagues make real 
efforts to strengthen the NASA Earth Sciences program. 
Unfortunately, the 2008 budget request and its out-year 
projections are just not adequate. Under that current funding 
and projections, the United States will have significant gaps 
in long-term observations, making it much more difficult to 
separate out natural and human contributions to climate change 
and making it much more difficult to assess how the Earth is 
changing. It is equivalent to knowing that we are having an 
intense debate for policy-makers on the importance of solar 
versus greenhouse gases and so now let us break this record so 
that it becomes even more challenging, to answer that question. 
Under current funding and projections, the key areas of 
uncertainty in climate models, this ability to anticipate the 
future so we can put knowledge to good use will likely continue 
to languish.
    I would also like to stress the fact that the Decadal 
Survey seeks primarily to ensure a reasonable and robust set of 
observations within a tractable budget where tractable is 
defined as only restoring the budget to its 2001 level in terms 
of real dollars while ensuring that the most critical 
observations and certainly not all that are needed are 
addressed. For climate studies, the list provided in the 
Decadal Survey is truly a base set. Each element is critical 
and the list is not sufficient to address all the major 
uncertainties in forecasting the future. First, the Decadal 
Survey seeks to sustain the multi-decadal global measurements 
of key climate variabilities in order to understand how the 
Earth is changing, to understand the roles of natural versus 
human portion and to assess and improve climate models. The 
list is really a list of fundamentals. The input of energy from 
the sun, the Earth's energy budget, the atmosphere temperature 
and water vapor, sea surface temperatures, sea surface height, 
the distribution of snow and ice, ozone profiles, aerosols and 
surface winds is truly a basic set of variables to try to 
describe how our climate system is changing.
    Second, the Decadal Survey seeks to tackle a key issue, the 
mass balance and stability of the large icecaps. The Decadal 
Survey places a high priority on determining the ice sheet 
volume, sea ice thickness, ice sheet surface velocities and 
improved estimates of the sensitivity of ice sheets to change. 
This is an area of great sensitivity in the climate system and 
a huge question we have in front of us is how stable are those 
ice sheets.
    Third, the Decadal Survey calls for a focus on the two 
areas that are considered to be the most limiting in terms of 
our ability to improve climate model predictions. The first 
area is aerosol cloud forcing. It is one of the great remaining 
uncertainties in climate models. The second area addresses key 
uncertainties in the ocean circulation, ocean heat, storage and 
uptake and ocean climate forcing.
    If we fail to implement the Decadal Survey recommendations, 
we will have an observing system and a NASA research program 
that is much less capable than the one we had at the start of 
this century. The impact on our knowledge base could also be 
profound. It may be a much longer-term impact than we realize. 
It is interesting to note that these climate issues are 
becoming increasingly important to the public, and I believe 
that the demand for information from the public will begin to 
grow. This is occurring at a time where we have considerable 
weakness in the observation program and the research and 
analysis program and it is occurring at the same time in which 
much of the NASA workforce is eligible to retire, and if you 
don't have those opportunities, you are not going to entrain 
the next generation workforce and so have the potential to be 
doing very long-term damage to the Earth sciences by having 
this delay.
    Thank you for your time, and I welcome any questions.
    [The prepared statement of Dr. Barron follows:]

                  Prepared Statement of Eric J. Barron

    Mr. Chairman, Ranking Minority Member Calvert, and Members of the 
Subcommittee: I appreciate the opportunity to provide this testimony on 
NASA's Earth Science and Applications Programs: Fiscal Year 2008 Budget 
Request and Issues. My name is Eric Barron, and I am Dean of the 
Jackson School of Geosciences at the University of Texas at Austin. I 
was also the Chair of the Climate Variability and Change Panel, which 
was one of the key components of the National Research Council (NRC)'s 
Committee on Earth Science and Applications from Space: A Community 
Assessment and Strategy for the Future.
    Our most basic objective is to simultaneously protect life and 
property, promote economic vitality, and enable environmental 
stewardship. Regardless of our views on climate change, we all 
recognize that this objective is a balancing act. It is impossible to 
have billions of people on a planet and not have an environmental 
impact. Impact is also clearly associated with individual, regional and 
national levels of consumption. We also know that nations that have the 
strongest economies are the ones who are the most capable of adapting 
to change or mitigating its adverse consequences. Finding the optimum 
balance is enormously challenging and is in itself a subject of great 
debate. However, it becomes impossible if we lack sufficient knowledge 
of how the Earth operates. We need a commitment in two key areas if we 
are to achieve this most basic objective. First, we need to know how 
the components of the Earth are changing in response to human activity 
and natural forces. Second, we need to continue to improve our ability 
to ``anticipate'' or predict the future on a variety of time scales. If 
current climate projections are correct, climate change over the next 
ten to twenty years will have highly noticeable impacts on society and 
the demand on climate scientists will begin to broaden substantially. 
Impacts on agriculture, water resources, human health, and ecosystems 
are likely to drive a public demand for climate knowledge that is both 
sector (agriculture, health, water, etc.) and regionally dependent. It 
will be our ability to anticipate or forecast all of these elements in 
the future, and then to take appropriate action on these predictions 
with full understanding of their uncertainties, that can enable us to 
simultaneously protect life and property, promote economic vitality, 
enable environmental stewardship, and help assess a broad range of 
policy options for decision-makers.
    This view yields six key tenets that should define the observation 
systems of the future:

        (1)  Sustained multi-decadal, global measurements and data 
        management of quantities that are key to understanding the 
        state of the climate and the changes taking place are crucial.

        (2)  Climate change research, including the observational 
        system, will be increasingly tied directly toward understanding 
        the processes and interactions needed to improve our predictive 
        capabilities and resolve the probabilities associated with 
        different outcomes.

        (3)  Evaluation and assessment of model capability will 
        increasingly be the focus of future measurement activities. 
        Demonstrating model capability is likely to be a driver for 
        developing and evolving observation systems and field 
        campaigns.

        (4)  The link between climate research and societal benefit 
        will require a much greater emphasis on higher spatial 
        resolutions in climate predictions, observations, and 
        assessments.

        (5)  The ``family'' of climate observing and forecasting 
        products will continue to grow, involving innovative research 
        into societal connections with energy, agriculture, water, 
        human health, and a host of other areas, creating new public 
        and private partnerships.

        (6)  The demand to understand the connection between climate 
        and specific impacts on natural and human systems will require 
        a more comprehensive approach to environmental observation and 
        modeling in order to integrate the multiple stresses that 
        influence human and natural systems (i.e., climate, land use, 
        and other human stressors such as pollutants).

    The importance of climate information is clear. As economic impact 
from climate change grows there will likely be both a change in 
research emphasis and a demand for much greater investment in climate 
research. Yet, the NASA investment in climate research and observation 
is in serious decline. We will enter the next decade with an observing 
system that is substantially less capable than we had at the start of 
the 21st century.
    The specific questions provided by the Subcommittee help elucidate 
this issue and I am pleased to answer them to the best of my ability.

(1)  What is NASA's contribution to the U.S. Climate Science Research 
Program in terms of percentage of overall expenditures and percentage 
of sensors dedicated to studying Earth's Climate? What fraction of the 
world's effort on climate change research does NASA's contribution 
represent?

    At the start of the U.S. Global Change Research Program, 
considerable effort was invested in labeling the contributions of each 
federal agency to the components of global change research including 
climate. Further, this analysis identified contributions to the 
observing and modeling components of the investment in climate 
research. In 1992, NASA contributions were approximately 70 percent of 
the total USGCRP budget, with more than a third of the total USGCRP 
budget focused on climate and hydrology observations provided by NASA 
(about $400 million of a total budget of $1,185 million). A decade 
later, growth in NASA investments in USGCRP kept pace with the growth 
in the total budget, and also kept pace in terms of the investment in 
climate research. In the FY08 request, NASA's investment is about 60 
percent of the total Climate Change Science Program (CCSP) and the 
total CCSP budget request is about 6.5 percent above the 2002 USGCRP 
budget (figures not adjusted for inflation). The full set of segmented 
disciplinary topics within the USGCRP set of cross-cuts is combined 
into one CCSP budget. More telling is an analysis of the out-year 
budgets with their associated numbers of missions and instruments. Even 
with the extension of some current missions beyond their nominal life 
times, by 2010 the U.S. will have a 35 percent decrease in the number 
of operating sensors and instruments on NASA spacecraft. By 2015, the 
number will have decreased by more than 50 percent. In real dollars, 
NASA Earth Sciences has declined by more than a half a billion dollars 
since the 2002 USGCRP budget.
    The total international investment in climate science is difficult 
to confirm with certainty by the science community, but NASA has always 
been the international leader in Earth observations. The decrease in 
research, missions, and numbers of instruments is a real loss of 
capability. The baton is not being passed to international partners, it 
is simply being dropped.

(2)  What are your perspectives on the FY 2008 budget request for 
NASA's Earth Science Program and how well does it position NASA to 
contribute to the U.S. priorities and plans for climate and related 
research?

    The modest increase in the FY 2008 budget request for NASA's Earth 
Science Program is the first sign that the steady erosion of capability 
and the lack of a credible program of observations beyond the end of 
this decade is reversing. However, the FY 2008 budget and its out-year 
projections are simply inadequate. Under current funding and 
projections, the U.S. will have significant gaps in the long-term 
observation record, making it more difficult to separate natural and 
human contributions to climate change and making it more difficult to 
assess how the Earth is changing. Debates on issues such as the 
relative importance of solar versus greenhouse causes of warming will 
continue rather than be solved definitively. Under current funding and 
projections, the key areas of uncertainty in climate models will very 
likely continue to languish. Most certainly, the areas of investigation 
that couple climate change to societally-important areas such as water, 
health, and food security will be delayed. Stated frankly, our 
capabilities to address critical questions in climate change in service 
to society will experience a dramatic decline if the NASA out-year 
projections are realized.

(3)  Which missions and observations recommended in the National 
Academies Earth science decadal survey are most critical for advancing 
our understanding of climate change and any mitigation and adaptation 
strategies? What uncertainties in our understanding of change would the 
observations from those missions help reduce?

    In my opinion, a decadal survey in the Earth sciences produced a 
decade ago would have focused on innovation built upon a robust global 
observing system. Such a survey would likely have focused on new 
technologies and new capabilities that would have extended our 
abilities to address difficult variables, improve the quality of our 
observations, and demonstrate an increase in forecasting capability. 
Certainly, we would have debated how to balance the notion of 
entraining new technologies while still preserving continuity of the 
observations. Likely, we would have debated the best mechanisms to 
bring the same ``discipline of forecasting'' that has resulted in 
dramatic improvements in weather forecasting to a much broader family 
of variables of interest to our society. In contrast, the Decadal 
Survey rarely considered the frontiers that we know are in the realm of 
the possible. This is not a critique of the Decadal Survey. It is a 
fact that the NRC effort sought primarily to ensure a reasonable and 
robust set of observations within a tractable budget, where 
``tractable'' is defined as only restoring the budget to its level in 
2001 in terms of real dollars, while ensuring that the most critical 
needs were addressed.
    For climate studies, the list provided in the National Academies 
Earth Science Decadal Survey is a base set. It is prioritized in time, 
taking into account the existing instrumentation and international 
partners, but each element is critical and the list is not sufficient 
to solve all of the major uncertainties in forecasting the future. It 
maintains the most basic needs and adds only those missions which are 
clearly the most crucial priorities in a set of many critical 
observations. The request for climate research reveals the level of 
constraint applied within the Decadal Survey.
    First, we must have a sufficient set of sustained multi-decadal, 
global measurements of key variables in order to understand how the 
Earth is changing, to understand the roles of various natural and human 
forcing factors, and to assess climate models. Stripped to its 
fundamentals, the climate is first affected by the long-term balance 
between incoming and outgoing energy. Both the long-term records of 
total solar input and the Earth's energy budget are in jeopardy. Other 
variables that define the state of the atmosphere and ocean and provide 
a foundation for both weather forecasting and climate are equally 
critical. These include such fundamental observations as temperature 
and water vapor soundings, the distribution of snow and ice, ozone 
profiles, and surface winds. The de-scoping of NPOESS involved each of 
these key climate variables. Without the Decadal Survey recommendations 
we do not address these most basic needs of the climate sciences.
    Second, current observations and models raise particular concerns 
about the mass balance and even the stability of the large ice caps. In 
terms of our capabilities to assess how the Earth system is changing, 
the ice sheets represent one of the most significant areas of 
uncertainty and one of the most significant areas in terms of potential 
societal impact. The Decadal Survey places a high priority on 
determining ice sheet volume, sea ice thickness, ice sheet surface 
velocities, and improved estimates of the sensitivity of the ice sheets 
to climate change.
    Third, the Decadal Survey calls for a focus on the two areas that 
are considered to be the most limiting in terms of our ability to 
improve climate model predictions. The first area is aerosol-cloud 
forcing. Aerosol climate forcing is similar in magnitude to carbon 
dioxide forcing, but the uncertainty is estimated to be substantially 
larger. The impact of aerosols on cloud formation amplifies their 
importance to the climate system. The Decadal Survey also calls for a 
focus on measuring ocean circulation, ocean heat storage and ocean 
climate forcing. Again, the problems are fundamental, involving the 
measurement of sea level, the importance of how rapidly heat is being 
mixed into the oceans, and improvements in our ability to simulate the 
ocean circulation.
    We are more than capable of providing the observations needed to 
address the specific topics above. Importantly, the climate chapter of 
the Decadal Survey also calls for us to address much more challenging 
problems by bringing innovative approaches to the fore and challenging 
our ability to return to the cutting-edge of Earth observing. The 
accurate measurement of the surface fluxes of energy, water and 
momentum at the Earth's surface, and an improved ability to examine 
atmospheric convection (which governs the transport of heat, water 
vapor, trace gases, and aerosols and defines cloud formation) would 
substantially advance our ability to predict the future and to 
understand critical problems such as sea level variations and changes 
in the distribution and character of precipitation. Missions dedicated 
to these two important topics are not a part of the priority set from 
the Decadal Survey.

(4)  What role, if any, do NASA's Earth science research and related 
programs play in validating the accuracy of climate measurements 
collected from Earth observing satellites and in developing predictive 
capabilities for climate change and its effects?

    The decline in capability is not restricted to missions and 
instruments. The decline in the observation budget is matched by a 
significant decline in the Research and Analysis budget in the Earth 
Sciences. Sub-orbital and land-based studies increase our ability to 
assess and validate climate measurements. A comprehensive approach to 
the analysis, distribution and stewardship of observations broadens the 
base of applications and entrains a broader set of disciplines and a 
higher level of expertise directed toward increasing our confidence in 
Earth observations, expanding their value, and improving predictive 
capabilities.
    The loss of capability has the potential to be long-term and 
particularly costly because of its timing. The lack of missions, the 
reduced level of opportunities, the lack of innovation, and the 
weakness in the Research and Analysis budgets are likely to result in a 
reduction in student interest, and most clearly in the training of 
graduate students and post-doctoral researchers. This loss of 
opportunity, with it potential impact on attracting the next generation 
of scientists and engineers who design sensor systems and analyze data, 
matches a time in which a substantial fraction of the NASA Earth 
sciences workforce is able to retire. The FY 2008 and out-year budgets 
have the potential to create significant weakness in the capability of 
the workforce at the same time that society is demanding an increased 
emphasis on understanding climate and its impacts.

(5)  What are your perspectives, as an individual researcher, on 
international collaborations in the Earth sciences, and what value 
would international collaborations offer in advancing the recommended 
missions in the decadal survey?

    In my opinion, the statements on international collaboration 
provided in the Decadal Survey are sound. International collaborations 
have a number of benefits including a reduction in cost and a potential 
reduction in the likelihood of gaps in key data sets. In addition, 
collaboration can increase the number of science users and bring a 
broader array of technologies to bear on a specific problem. NASA has 
demonstrated success in developing such partnerships, with TOPEX/
Poseidon and RADARSAT-1 as good examples. Moreover, it is now 
relatively common for flight agencies to offer announcements of 
opportunity to the international science community as the agencies 
attempt to maximize the payoff of each flight project.
    However, joint ventures must still be considered with care, 
particularly for climate data sets. As noted in the Decadal Survey 
climate chapter, instruments built by one partner may not be designed 
to the exact requirements of another partner. Although two missions may 
utilize the same type of instrument--for example an altimeter--and 
therefore sound like they are duplicative, the differences in design 
may allow one to resolve ocean eddies and improve our knowledge of the 
ocean circulation while the other may not achieve this objective. 
Technology transfer restrictions may also prevent the exchange of 
important technical details about the instruments. Restrictions on 
access to data and software vary from country to country, as do 
approaches to calibration and validation. Joint ventures between 
government flight agencies and commercial partners can result in 
serious complications with data cost, availability, and distribution. 
Missions can also be terminated or significantly altered by host 
countries, resulting in a greater impact if the other partners had 
counted on the international partner to provide a key observation or 
synergistic measurement.
    International partnerships should only be fostered where synergy 
between instrument capabilities and the science requirements is strong, 
where there is free and easy access to data, and where there is 
transparency in the process of analyzing data such that analysis 
algorithms are freely available.
    The Decadal Survey includes many examples where priorities were 
altered based on knowledge of missions proposed by international 
partners. A case in point is the cloud-aerosol mission (ACE) proposed 
by the Decadal Survey which, despite its importance in addressing areas 
of uncertainty in climate models, was placed in phase 2 (2013-2016) 
because of cloud and aerosol information that would become available 
from international sources (GCOM-C and EarthCARE).

End Note

    An improved ability to predict climate change will allow us to be 
good stewards of this planet. But few seem to recognize that our 
ability to better predict the future has benefit far beyond addressing 
the consequences of increased levels of greenhouse gases. The potential 
societal benefits are substantial. For example, even modest improvement 
in seasonal to interannual predictions have the potential for 
significant societal benefit in agriculture, energy, water, and 
weather-related management. The Decadal Survey presents a vision that 
recognizes that the demand for knowledge of climate change and 
variability will increase. The risk in failing to provide this 
information is high. However, our ability to serve society through 
increased observing capability and improved model prediction is far 
greater than a single issue, even though the issue of climate change is 
of enormous significance. An improvement in our ability to anticipate 
the future increases our capability to utilize this knowledge to both 
limit adverse outcomes and maximize benefits to society.

                      Biography for Eric J. Barron

Date and Place of Birth:

    26 October 1951, Lafayette, Indiana

Education:

1B.S., 1973, Florida State University (Geology)

M.S., 1976, University of Miami (Oceanography, Marine Geology and 
        Geophysics)

Ph.D., 1980, University of Miami (Oceanography, Marine Geology and 
        Geophysics)

Positions:

1980--Postdoctoral Research Fellow, National Center for Atmospheric 
        Research, Boulder, Colorado

1981-1985--Scientist, Climate Section, National Center for Atmospheric 
        Research, Boulder, Colorado

1985-1986--Associate Professor, University of Miami

1986-    --Director, Earth System Science Center and Associate 
        Professor of Geosciences, the Pennsylvania State University

1989-    --Professor of Geosciences, the Pennsylvania State University

1998-2003--Director, EMS Environment Institute

2002-    --Dean, College of Earth and Mineral Sciences

2002-    --Trustee, University Corporation for Atmospheric Research 
        (currently Vice Chair)

2003-    --Board of Governors, Joint Oceanographic Institutions, Inc. 
        (currently Vice Chair)

2006-    --Dean, Jackson School of Geosciences

Professional Societies:

Fellow, American Geophysical Union

Fellow, American Meteorological Society

Member, Geological Society of America

Fellow, American Association for the Advancement of Science

Member, American Association of Petroleum Geologists

Member, Phi Kappa Phi

Honors:

1969-1973--Honors Student, Florida State University

1975-1977--Texaco Fellow

1976--National Center for Atmospheric Research Supercomputing Fellow

1977-1978--Outstanding Student Award, Miami Geological Society

1979-1980--Koczy Fellowship (most outstanding student in last year of 
        study)

1980--Smith Prize (most creative dissertation)

1988--Excellence of Presentation Award, Society of Economic 
        Paleontologists and Mineralogists

1989--Honorable Mention for Excellence of Presentation Award, Society 
        of Economic Paleontologists and Mineralogists

1992--Wilson Research Award, College of Earth and Mineral Sciences, The 
        Pennsylvania State University

1992, 1993--Provost Award for Collaborative Instruction and Curricular 
        Innovations

1993--Excellence of Presentation Award, Society of Sedimentary Geology 
        (SEPM)

1993--American Geophysical Union Fellow

1993--Honorable Mention for Excellence of Presentation (Poster), 
        American Association of Petroleum Geologists

1995--American Meteorological Society Fellow

1997--American Association of Petroleum Geologist's Distinguished 
        Lecturer

1999--Wilson Teaching Award, College of Earth and Mineral Sciences, the 
        Pennsylvania State University

1999--NASA Outstanding Earth Science Education Product (``Discover 
        Earth: Earth-as-a-System'')

1999--Distinguished Professor of Geosciences

2001--NASA Group Achievement Award for ``Research Strategy for the 
        Earth Science Enterprise''

2002-    --Fellow, the National Institute for Environmental eScience, 
        Cambridge University, United Kingdom

2002--Frontiers in Geophysics Lecture, American Geophysical Union

2003--NASA Distinguished Public Service Medal

2004--American Association for the Advancement of Science Fellow

Related Experience:

Publications

1982-1989--Member, Editorial Board, Geology

1984-1985--Member, Editorial Board, Palaeogeography, Palaeoclimatology, 
        Palaeoecology

1985-1991--Editor-in-Chief, Palaeogeography, Palaeoclimatology, 
        Palaeoecology

1988-1996--Editor, Global and Planetary Change

1989-1995--Associate Editor, Journal of Climate

1991--Member, American Geophysical Union, Selection Committee 
        Paleoceanography Editor

1992-    --Member, Editorial Board, Palaeogeography, Palaeoclimatology, 
        Palaeoecology

1994-1996--Member, Editorial Board, Geotimes

1994-2000--Member, Editorial Board, Consequences

1995, 1997--Chair, American Geophysical Union, Selection Committee, 
        Biogeochemical Cycles Editor

1995-1999--Editor-in-Chief, Earth Interactions (electronic journal of 
        AMS, AGU and AAG)

1998--Editorial Board, Oxford University Press, Global Change 
        Encyclopedia

Service to Societies

1986-1990--Member, American Meteorological Society Committee on Climate 
        Variations

1988-1991--Chair, American Meteorological Society Committee on Climate 
        Variations

1988-1990--Member, Global Sedimentary Geology Program Committee, 
        Society of Economic Paleontologists and Mineralogists

1991--Chair, Penrose Conference Committee, Geological Society of 
        America

1990-1991--Member, American Geophysical Union, Maurice Ewing Medal 
        Subcommittee

1991-1996--Chair, American Meteorological Society Annual Meeting 
        Program Committee for Global Change

1994--Member, American Geophysical Union, Small Science Panel

1995-2002--Member, American Geophysical Union Atmospheric Sciences 
        Executive Committee

1998--Citation Author-American Geophysical Union, Revelle Medal

1998-    --Member, American Geophysical Union, Horton Award 
        Subcommittee

2003--Member, American Meteorological Society, Mid-term Strategic 
        Planning Assessment team

2005--Chair, American Geophysical Union, NASA Vision Panel

National Research Council

1987-1990--Member, Climate Research Committee

1990-1996--Chair, Climate Research Committee

1989--Member, Study Committee on Earth System History and Modeling, 
        Global Change Committee

1990-1994--Member, Board on Global Change Research

1992-1996--Member, Committee on Human Dimensions of Global Change

1995-1997--Member, Board on Atmospheric Sciences and Climate

1997-1999--Co-Chair, Board on Atmospheric Sciences and Climate

1999-2003--Chair, Board on Atmospheric Sciences and Climate

1997-2002--Ex-officio, Committee on Global Change Research

1998-2000--Member, Panel on Grand Environmental Challenges

1999--Member, Panel on Assessment of NASA Post-2000 Plans

2002-2003--Member, Panel on Tracking and Predicting the Atmospheric 
        Dispersion of Material Releases: Implications for Homeland 
        Security

2003-2004--Chair, Committee on Metrics for Global Change Research

2004-2006--Member, Survey Steering Committee for Earth Science and 
        Applications from Space: A Community Assessment and Strategy 
        for the Future; Chair, Panel on Climate Change and Variability

2006-    --Member, Committee on Analysis of Global Change Assessments

Service to the Federal Government

1988--Member, NSF Review Panel, Ocean Drilling Program Plan, FY 1988-
        1990

1988-1990--Member, Ocean History Panel, NSF Ocean Drilling Program

1990-1994--Member, Science Executive Committee, NASA Earth Observing 
        System

1994-1997--Chair, Science Executive Committee, NASA Earth Observing 
        System

1990-1994--Chair, Climate and Hydrology Panel, NASA Earth Observing 
        System

1990-1993--National Center for Atmospheric Research Scientific 
        Computing Division Advisory Committee

1990-1993--Chair, NSF Advisory Committee, Marine Aspects of Earth 
        System History (MESH)

1989-1993--Climate Systems Modeling Project Advisory Board

1991-1993--Member, NSF Review Panel for Geological Record of Global 
        Change

1992-1993--Member, Earth Science and Applications Advisory Committee, 
        NASA

1993--Chair, Earth Science and Applications Advisory Committee, NASA

1994-1997--Member, Earth Science and Applications Advisory Committee, 
        NASA

1994-1995--National Center for Atmospheric Research Director's Advisory 
        Committee

1994--Chair, USGCRP Forum on Global Change Modeling

1994-1996--Chair, U.S. National Committee for PAGES and NSF Earth 
        System History Panel

1995-1996--Chair, Allocation Panel for Interagency Climate Simulation 
        Laboratory

1995--Testimony, U.S. House of Representatives, Committee on Science, 
        NASA Budget

1997--Testimony, U.S. Senate, Committee on the Environment and Public 
        Works--Global Warming

1997-1999--Member, NSF Geosciences Advisory Committee

1997--Chair, NSF Committee of Visitors on Ocean Sciences Facilities

1997--Co-Chair, White House/USGCRP workshop on ``Impact on Climate 
        Variation in the Mid Atlantic States''

1997-2000--Member, USGCRP National Assessment of Climate Impacts 
        Synthesis Team

1998-2000--Member, NSF Geosciences Strategic Planning Committee GEO-
        2000

1998-    --Member, NOAA Panel on Long Term Climate Monitoring

1999-    --Member, NASA Goddard Space Flight Center, Director's 
        Advisory Committee

2000-    --Member, DOE BERAC Subcommittee on Global Change

2000--Chair, Screening Committee, Director of Earth Sciences, Goddard 
        Space Flight Center

2000--Member, EPA Review Panel, Integrated Assessment

2000--Member, DOE Review Panel, Climate Change Prediction

2001--U.S. Senate Testimony on Climate Change Science--Committee on the 
            Environment and Public Works

2001--Testimony, U.S. House of Representatives, Committee on Science--
        NOAA Budget

2001--Briefing, U.S. House of Representatives, Committee on Science--
        Climate Change Science

2003-    --Member, NSF Steering Committee for Cyberinfrastructure 
        Research and Development in the Atmospheric Sciences

2003-2005--Member, Earth Science and Applications Advisory Committee, 
        NASA

2005--Chair, NASA Senior Review for the Earth Sciences

2006--Chair, NSF Earth System History Review panel

International Service

1982-1987--Chair, International Geological Correlation Program (IGCP), 
        Project 191, ``Cretaceous Paleoclimatic Atlas Project''

1982-1986--Member, International Lithosphere Program (ILP), Working 
        Group 7 ``Paleoenvironmental Evolution of the Oceans and the 
        Atmosphere''; Participant, Conference on Scientific Ocean 
        Drilling (COSOD) Organizer, Penrose Conference on Cretaceous 
        Climates

1982-1986--Member, SCOR Working Group 79, ``Geological Variations in 
        Carbon Dioxide and the Carbon Cycle''

1986-1987--Member, Global Environmental Change Panel for Conference on 
        Scientific Ocean Drilling (COSOD II)

1988-1990--Organizer, Global Sedimentary Geology Working Group on 
        Paleogeography and Paleoclimatology

1995--International Review Member, Ocean Drilling Program

1996-1997--Member, Joint Steering Committee, World Climate Research 
        Program

Other

1980--Shipboard Scientist, RV Glomar Challenger Leg 75

1998--Chief Scientist, RV Oceanus

1998-2002--Elected, two terms, State College Area School Director

    Chairman Udall. Thank you very much, Dr. Barron.
    Dr. Foresman.

STATEMENT OF DR. TIMOTHY W. FORESMAN, PRESIDENT, INTERNATIONAL 
              CENTER FOR REMOTE SENSING EDUCATION

    Dr. Foresman. Thank you, Mr. Chairman, Ranking Member and 
Members of the Subcommittee.
    I would like to focus this committee's attention on 
applications to what I feel is the foremost critical arena for 
carrying forth the NASA Earth Science Application program 
mission for translation and engagement with the greater user 
community in our society. I am specifically referring to a 1999 
initiative that existed among 17 federal agencies called 
Digital Earth, which was led by NASA Earth Sciences. These 
agencies formed a common objective to apply Web-based 
visualization technologies to enable data exchange among the 
various government departments.
    Inter-operability of our government's information resources 
is a requisite step to addressing major decision support 
challenges facing our nation at local and state levels across a 
litany of compelling issues ranging from disaster warning and 
response to climate change research. NASA was leading 17 
federal agencies in 1999 to create virtual three-dimensional 
Digital Earth geobrowsers, today's Google Earth. NASA was also 
leading the design of the underlying architecture to operate 
interconnecting systems with Earth observation science data and 
application. The potential promise of these technologies to 
display and share data and information was not lost upon our 
federal colleagues. They fully recognized that these 
astonishing Digital Earth capabilities would enable scientists 
and managers within our government to take full command of 
their own agency's information and resources and interlink with 
all other information available throughout the Federal 
Government.
    Our industry and academic colleagues were quick to join 
with this engaging and visually enabled captivating initiative 
for Web-based collaboration, and indeed, many have continued to 
pursue this Digital Earth vision long after NASA began to 
decommission the interagency working group. This 
decommissioning was unfortunate, in my opinion. The loss of 
NASA's leadership, guidance and momentum for the Digital Earth 
initiative has proven to be a tremendous setback for critical 
areas in the Earth observation science program. The fact that 
geobrowsers such as Google Earth and Microsoft's Virtual Earth 
and many others can be directly linked to the Digital Earth 
legacy is testimony to the paramount importance of these 
technologies for their capacity to deliver science and 
information directly to the user community, and this is only 
the tip of the iceberg. Seven years later, NASA cannot deliver 
a decisive decision support system or a citizen alert system 
with anything resembling the ease of use and sophistication of 
Google Earth.
    While working for the United Nations environment program, I 
launched Google Earth's first contract in 2001 when they were 
known as Keyhole. Where was NASA leading us in 2001? What is 
NASA's Earth Science Application program doing today to build 
real-world partnerships that can quickly create visualization 
solutions for complex problems? What is NASA doing to fully 
engage with these geobrowser technology teams to rapidly move 
forth on delivering Earth observation science and information 
to citizens and decision-makers? Market forces and free 
enterprise should not be allowed to replace NASA and its 
mission during our current era of global change and climate 
variability.
    This is why I am most concerned that NASA's Earth Science 
Application program seriously rethinks its current trajectory 
and seriously engages with the creative forces of market and 
academia and NGOs but most important, NASA should seriously 
accept and assume the leadership role that it once held in this 
most fecund and catalytic domain of science and technology and 
apply this for the service of America and the world's citizens. 
When NASA declined to lead the Digital Earth initiative, the 
Chinese were happy to leap to the forefront during the last 
seven years and launched a series of international symposia and 
international journals and the International Society for 
Digital Earth.
    An incredible range of phenomenal and societal shifting 
applications are currently underway applying Digital Earth 
including monitoring of Darfur human rights violations and 
conflicts, citizens' engagement with mountaintop removal issues 
in Appalachia, Yukon indigenous tribes assuming governance 
along the Yukon River Valley, grassroots women's groups 
creating peace maps for their community, and disaster response 
in Indonesia and Katrina. A small team at NASA Ames has 
developed a world-class and free open source Digital Earth 
geobrowser called World Wind. The World Wind team, about the 
same size as Google Earth's staff was back in 2001, has been 
struggling for funding and needs support. Private discussions 
ongoing between Google executives and Director Griffin 
regarding strategic goals and objectives of the Google-NASA 
Enterprise partnership should immediately be reviewed and 
considered by your Committee.
    Rapid and collective action will be required to align 
NASA's Earth Science Application program with the pace of 
development and action occurring in today's technology, science 
and social landscape. Google Earth is just two years old. My 
team helped form and influence that trajectory with success six 
years ago. What can we expect of NASA over this next year?
    Thank you, Mr. Chairman, Ranking Members and Members of the 
Committee.
    [The prepared statement of Dr. Foresman follows:]
               Prepared Statement of Timothy W. Foresman
1.  How can NASA's Earth Science Applications Program enable the 
applied use of NASA Earth observation data for societal benefit?

    NASA has a unique and valuable brand that facilitates connecting 
segments of society, nationally and internationally, with the benefits 
of Earth observation. This brand of credibility still retains a sense 
of intellectual awe that breaks through many barriers that other 
agencies or firms must overcome to convey similar communications and 
engagement. Therefore the first challenge for enablement comes with the 
brand.
    Societal use is a broad term, well articulated in the National 
Research Council's 2007 report, Earth Science and Applications from 
Space: National Imperatives for the Next Decade and Beyond. This 
witness is in full accord with the recommendations of the reference 
report and its recommendations, and will therefore attempt to elucidate 
for highlight specific items, elements, or recommendations that are not 
clearly defined in the report.
    Society is facing an onslaught of changes that may responsibly be 
labeled of ``biblical proportions.'' These actions are occurring at 
such a pace and scale, that science teams are challenged to locate 
their research plots and areas intact from one year to the next. Many 
forests have disappeared, for example, while science teams were 
debating the carbon budget and biomass contained within them. These 
societal onslaughts include:

        <bullet>  Atmospheric build up of greenhouse gases higher than 
        experienced from 600,000 to one million years. Carbon dioxide 
        in the atmosphere has passed the tipping point of 350 parts per 
        million.\1\
---------------------------------------------------------------------------
    \1\ Author's analysis of trends for climate and environmental 
trends since the 1960s has demonstrated a consistent pattern of 
scientists missing tipping points until after the fact. In addition, 
the consensus driven process for define projections also follows a 
consistent pattern whereby the `radical' projections of 20-30 years 
past reveal to be seen as conservative projections when realized. 
Examples of the Club of Rome population projections are one case in 
point.

        <bullet>  Humans are witnessing the sixth massive planetary 
---------------------------------------------------------------------------
        epoch of species extinction recorded for the Earth.

        <bullet>  Approximately one billion people do not have access 
        to safe drinking water.

        <bullet>  The 2002 Global Environmental Report (GEO 3) of the 
        United Nations Environment Programme was not able to document 
        one positive trend in desertification, deforestation, over 
        fishing, arable land productivity, coral reef health, 
        biodiversity, protection of migratory species, human security, 
        disease vectors, or environmental sustainable practices.

        <bullet>  Climate change appears to be gaining momentum while 
        coping strategies for the most vulnerable society members have 
        not been put into place or are unknown.

    NASA's Earth Science Applications Program (ESAP) has the potential 
to provide profound amounts of useful data and information across the 
litany of sectors that divide the human community operations. Forestry, 
fisheries, farming, education, health care, disaster response, 
community development, and governance all fulfill separate and 
compartmentalized domains of local and regional operations. NASA ESAP 
has developed a reasonably literate understanding of how information 
can flow from sensor collection to decision-making in the field. 
However, they lack the financial resources, the personnel with 
experience and expertise, and the requisite infrastructure to implement 
the process control and operations. They are limited by NASA's mandate 
for research, which is consistently used to set limits on the success 
of programs within NASA ESAP. Therefore, major shifts in the follow 
arenas are recommend to be placed on the table if NASA ESAP plans to 
``enable the applied use of NASA Earth observation data of societal 
benefit.''

        <bullet>  Define the research continuum for NASA ESAP in 
        harmony with the Department of Defense categories (e.g., 6.1 to 
        6.6 defines six levels of research and development, while NASA 
        has no differentiation).

        <bullet>  Create multi-agency working groups with concrete 
        deliverable for products, selectively rotating chair positions 
        on an annual basis, and create funding mechanisms for shared 
        contracting (e.g., with membership in the State Department's 
        Humanitarian Information Unit).

        <bullet>  Break all grants and awards 50-50 percent into two 
        sectors: (1) major institutions, and (2) small business and 
        NGOs. Currently the vast major of funds go to Congressional 
        earmarks or distributed to larger organizations and 
        universities with a track record of receiving funds.

        <bullet>  Require all research results to be immediately 
        converted into no-cost, web-based Earth science curriculum for 
        K-12 and collegiate levels.

        <bullet>  Provide for NASA science scholars program in 
        partnership with major national coalitions, such as through the 
        National Council for Science and the Environment's 
        approximately 160 university affiliates.

    NASA's participation in annual conferences for major users of Earth 
observation data provides perhaps the most concentrated and effective 
opportunities for NASA ESAP to enhance enablement of data for societal 
needs. Annually, over 13,000 active users of satellite and spatial 
data, from all walks of society, attend the ESRI (Environmental Systems 
Research Institute, Redlands, CA) annual user conference in San Diego. 
The American Society of Photogrammetry and Remotes Sensing (ASPRS) 
annually host over 2,000 active scientists, industry and government 
workers who apply Earth observations data on a daily basis in their 
vocations. The International Society for Photogrammetry and Remote 
Sensing brings multinational attention to NASA's goals with global 
congress ever four years along with annual special focus meetings. NASA 
should recognize an implement an improved strategy for engaging with 
these communities as they represent the cadre of activist promoting and 
building upon the use of Earth observation data.

Recommendation: NASA ESAP create a comprehensive and strategic campaign 
to participate more fully and support the aforementioned conferences, 
along with a least a dozen more, for the purpose of 1) gathering 
intelligence on applications and user requirements for NASA Earth 
observation data and information, 2) foster the creation of 
partnerships with increased members of these communities as societal 
representatives, 3) identify critical and effective educational 
opportunities, and 4) implement a stronger brand marketing program.

2.  What is involved in translating NASA's Earth observation data into 
information for decision-makers in Federal and State and local 
governments, commercial enterprises, and non-governmental institutions?

    A fundamental understanding is needed as to the issue of what is 
referred to as ``pin the tail'' on the decision-makers. Decisions that 
affect society are mostly local and made daily by the citizens of the 
planet. These decisions range from carrying umbrellas to applying sun 
screen, to where to vacation, to what type of automobile to purchase, 
and hopefully to what type of proposition or political candidate to 
vote for in an election. This subject was investigated thoroughly by a 
team from GRID Arendal, Norway under the leadership of Lars 
Kristoferson, where a diffuse and complex reality was identified 
regarding the pathways environmental and spatial data and information 
enter the decision-making processes of society, Figure 1. A key finding 
was that visualization of science data had the most direct impact on 
societies and decision-making. An example was given of using Landsat 
data for the 200-year land use change study for the Baltimore-
Washington region.\2\ This science study (a collaboration of NASA, U.S. 
Census, USGS, and the University of Maryland, Baltimore County) 
provided then Governor Parris Glendening of Maryland with the 
visualization video that propelled the Smart Growth legislation.
---------------------------------------------------------------------------
    \2\ Foresman, T.''The Baltimore-Washington Regional Collaboratory 
Land Use History Research Program,'' in Sisk, T.D., ed. Perspectives on 
Land Use History of North America: A Context for Understanding Our 
Changing Environment. U.S. Geological Survey, Biological Resources 
Division, Biological Science Report USGS/BDR/BSR-1998-0003, pp. 33-42. 
1998.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 1--Decision-making Chain for Earth Observation Data and 
                    Information

    Of the five steps define in Figure 1, NASA ESAP has been mostly 
attuned to Step 1, producing information. The litany of programs and 
data clearinghouses that have been designed, built, and attempted is 
beyond the scope of this document. Fundamentally, NASA ESAP has been 
underwhelming in its success to getting these information repositories 
and enterprises to push the data and information into Steps 2-5.
    A compelling element of translating data and information for 
decision-makers is in having a deep and experiential level of 
understanding regarding how decisions are made in various agencies, at 
various levels, and among industry and NGOs. This witness has a rare 
background that includes managing the spatial data and information 
enterprises or departments at the county level, at the city level, for 
various NGOs, for businesses, for federal agencies (DOD, EPA, NASA), 
for various country ministries, and for the United Nations. This 
experience has taught the witness that translation by federal employees 
is simply not an easy task and must be learned as an art form, not an 
engineered or scientific script. Therefore, the most efficacious 
approach is to incorporate into the NASA ESAP culture and operations 
various veteran visiting experts from different walks of society, both 
nationally and international, on a frequent and consistent basis. 
Veteran experts can be partnered with NASA ESAP staff to work on 
translation issues, pilots, and other exploratory techniques. Such 
``interns' or visiting staff will provide for a much more cost 
effective approach in opposition to the numerous and costly regional 
workshops and seminars that have been pressed into service in the past. 
Fact finding workshops do not translate nearly as well as having 
veteran experts resident at NASA, for six months or longer, in defining 
and testing improved translating schemas. These expert exchange type 
experiences provide many additional residual benefits by broadening the 
NASA experience base.
    NGO groups are especially poised to advance the societal benefits 
from NASA ESAP data and information. A flush of successes were recently 
highlighted at the 5th International Symposium on Digital Earth held in 
Berkeley, California (www.isde5.org) held 5-9 June 2007. General Pete 
Worden, Director NASA Ames, was a keynote presenter at this conference, 
which documented Earth observation data being used for:

        <bullet>  communities working to ameliorate the negative 
        impacts of mountain removal in the Appalachian mountains,

        <bullet>  monitoring human rights in Darfur,

        <bullet>  disaster response in Indonesia and New Orleans,

        <bullet>  disease vector monitoring and management,

        <bullet>  glacier monitoring and mapping,

        <bullet>  biodiversity assessments,

        <bullet>  land cover change dynamics in South America,

        <bullet>  forest protection through science visualization and 
        community engagement,

        <bullet>  community peace mapping and conflict mitigation, and

        <bullet>  marine species tracking and monitoring.

    The vast majority of these examples were led by NGOs. Typically, 
NGOs, including those of recognized stature (e.g., Conservation 
International, Green Belt Movement, Heinz Center, Nature Conservancy, 
World Wildlife Fund) do not possess large technical staffs and rely 
instead on one or two geographic information system (GIS) technicians 
who usually import Earth observation data from various sources for 
their project assessments. By focusing on the functional methods to 
facilitate ready and free access of timely and time-series Earth 
observation data for locations around the planet, NASA ESAP could 
revolutionize its impact on society.
    Success has been witnessed in a semi-random fashion regarding the 
educational initiatives of NASA ESAP. Many fine examples exist, 
including the Remote Sensing Core Curriculum (RSCC) and Conferences on 
Remote Sensing Education (CORSE) that were initiated in the early 1990s 
with seed funding from NASA ESAP. These programs were successful in 
part because they were based on small core groups of collaborating 
experts as opposed to large institutions with unwieldy bureaucracies. 
In addition, the education programs worked closely with other 
successful initiatives such as the NASA/NOAA Globe program.

3.  What gaps, if any, exist between the goals of NASA's Earth Science 
Applications Program and the tools and processes needed to translate 
Earth observation data into useful applications? What, if any, 
improvements to NASA's Applications Program would you recommend?

    NASA ESAP was once the world leader in an initiative called Digital 
Earth beginning in 1998. This initiative involved 17 federal agencies 
agreeing to cooperate, with no funds exchanged and led by NASA, on 
defining and creating the tools and process needed to translate Earth 
observation data into useful applications. The Digital Earth initiative 
was heralded around the country and the world, with the Chinese Academy 
of Sciences embedding the program immediately into their structure and 
out-year planning processes. The Chinese founded the International 
Society for Digital Earth May of 2006 and are responsible for helping 
initiate the new International Journal for Digital Earth (Taylor and 
Francis Publishers). This sequence of international successes has been 
accomplished without NASA ESAP participation since 2001, due to 
political decisions made under the current administration. The 
reasoning behind NASA ESAP's decision to kill the Digital Earth 
initiative that NASA had created and nurtured, was due to the 
association of former Vice President Al Gore's name regarding a speech 
where he mentions the Digital Earth vision. Had the current 
administration followed the same logic with the Internet, Congress 
would be using alternative means of communications. This gap in NASA's 
judgment has had profound impacts on its ability to work with and lead 
in delivering the tools and processes necessary to translate Earth 
observation data.
    Further testimony on this subject is provided from the witness's 
direct relationship with the Digital Earth community after leaving NASA 
Headquarters in 2000 for the position as Director of Early Warning and 
Assessment at the United Nations Environment Programme (UNEP). While at 
UNEP, the witness provided the first contract with the founders of 
Google Earth (then operating as Keyhole Inc. with four programmers). 
These types of entrepreneurial opportunities for more effective tools 
and processes for translating and delivering Earth observation data 
were therefore squandered by NASA ESAP and have not been recaptured. 
Currently, as witnessed at the 5th International Symposium on Digital 
Earth, a suite of organizations is refining and operating Digital Earth 
geobrowsers (e.g., NASA's World Wind, Geofusion's GeoMatrix, ESRI's 
ArcGIS Explorer, Microsoft's Virtual Earth, Google Earth, Skyline's 
Globe) that can and will be the primary tools for delivering data and 
information to decision-makers and citizens throughout the planet. NASA 
ESAP is not engaged in these works, albeit conversations with Google 
executives and Dr. Griffin (NASA Administrator) have been on going. The 
flaw in these discussions is that NASA ESAP is not engaged with the 
community, but rather has limited strategic dialogues with only one of 
the industry leaders and therefore is not demonstrating comprehensive 
attention regarding the requirement to engage with the community of 
developers as a whole, including its own NASA World Wind. NASA's World 
Wind geobrowser (an open source software platform), while 
internationally recognized for its technical prowess and performance, 
receives short thrift in financial and staffing support from NASA's 
administration.
    The number one recommendation for NASA ESAP is to terminate the 
failed policy of linking Mr. Gore with Digital Earth (there is no 
factual link, only an historic footnote) and revisit the potential 
leadership role for the Digital Earth technical and user community both 
national and internationally. This recommendation will require 
immediate attention due to the ongoing dialogue with Eric Schmidt 
(Google executive) and Brigadier General Pete Worden and other NASA 
executives for a specialized center to be created with Google funds at 
the NASA Ames Research facility in Moffett Field, California. A NASA 
Digital Earth facility with full and open access by NGOs, academia, 
industry, government agencies and international groups should be 
seriously considered to address this question (#3).
    The second recommendation is for NASA ESAP to join in supporting 
the Digital Earth Exchange (DEX) being piloted by the San Diego State 
University Visualization Center. The SDSU Visualization Center, under 
the leadership of Dr. Eric Frost and senior scientist John Graham, has 
been hosting the Strong Angel Series to demonstrate and further develop 
the effectiveness for open-source, and inter-operability standards in 
emergencies and disaster response to use multi-source satellite imagery 
and field data for operational use. This facility has advanced the 
understanding of real-time data exchange and decision support among a 
collection of leading federal, State, industry, NGO, and academic 
participants (including DOD and FEMA representatives). This facility 
and the coalition of supercomputer nodes working in alliance with SDSU, 
represents the epitome of cost-effective, cutting edge technologic 
application of Earth observation data for web-delivery of societal 
priority decision support needs. This entrepreneurial enterprise is 
filling in the major gaps that exist in NASA's ESAP technology 
translation and applications.

4.  What changes, if any, in NASA's Earth Science Applications Program 
are needed to implement the recommendations of the Earth science 
decadal survey on applications and the transition of research into 
operations?

    With respect to the 17 missions defined in the Earth Science 
decadal survey, NASA ESAP is currently below capacity with the 
expertise for the science missions and for the defining the translation 
issues and capacity to provide adequate support. The current staff is 
required to perform heroic efforts in hours and stress to keep up with 
the demands while attempting to cope with the decreasing scope and 
quantity of sensors and missions. Land cover continuity has become a 
Sisyphean task with civil servants constantly engaging with community 
and industry experts to examine new alternatives, while the legacy of a 
35-year Earth observation jewel for science is held hostage to 
programmatic shifts, budgetary cuts, and inter-agency politics (DOD's 
past role in Landsat is a prime example). Climate change and land cover 
change scientists have demonstrated the unqualified success of having a 
time-series record of our planet's land surface phenomena. There is no 
method to recreate this legacy and soon it will be demonstrated for its 
vulnerabilities under the present trajectory.
    A prime example of the successful use of the Landsat time-series 
has been the recent UNEP publication One Planet Many People: Atlas of 
Our Changing Environment. This publication has sold more copies than 
any other environmental publication in the history of the UN. It has 
been translated for access on Google Earth and is changing the very way 
people view our dynamic world. A point in fact is the limited role that 
NASA played in this effort (exceptions noted for Dr. Martha Maiden, Dr. 
David Herring, Mr. Woody Turner, and Dr. Rebecca Lindsey who consulted 
on this project).

Recommendation: Institute major changes in NASA ESAP's plan of action 
in 2008 to take leadership in the development of land cover change 
products, atlases, and web-based information for every nation on the 
planet. This must be carefully coordinated with leading land cover 
change researchers and programs, such as those of Conservation 
International, Nature Conservancy, IGBP, UNEP, FAO, and Planet Action.
    The litany of science missions define in the decadal survey 
portrays a serious lack of instrumentation for column measurements of 
greenhouse gases. Instruments have recently be identified, with solid 
understanding of the physics, by Dr. Robert Corell (The H. John Heinz 
III Center for Science, Economics and the Environment) and colleagues 
that would attend to the measurements and monitoring of column CO<INF>2</INF> 
and other greenhouse gases. These measurements are proving critical as 
the science of natural and anthropogenic gas emissions and fluxes 
advances. NASA's cutbacks in sensor development and missions has 
curtailed, if not sequestered, the introduction of new and economically 
feasible greenhouse gases monitoring missions and programs.

Recommendation: NASA ESAP conduct a rapid review workshop with leading 
geophysicists, atmospheric scientists, and instrumentation engineers to 
ascertain the feasibility and scoping of new instruments and missions 
for climate change research beyond those discussed in the decadal 
survey.

5.  Based on your experience as a ``user,'' and your experience in 
working with users, what are the most important steps NASA should take 
to expand the application of NASA's Earth observation data to meet 
social needs?

    NASA will require a reinvention, or reestablishment of its mission, 
to include Earth as it primary planet of study and Earth sciences at 
its core. This shift in mission will enable the staff and collaborating 
agencies and entities a freer rein on educating, engaging, and enabling 
the real-world user communities that can benefit from NASA data, 
information, and services. Currently, the mission and philosophy of the 
Agency, demonstrated by reductions in funding and other resources, is 
crippling NASA's potential in these areas.
    Morale of Earth science personnel has been witnessed to be 
significantly degraded from that of the previous years in previous 
administrations. It would be trivial for Congress to validate these 
statements by inviting various witnesses from the Goddard Space Flight 
Center and NASA Headquarters, or any number of other NASA facilities.
    To propel NASA onto a positive stage for engaging with the user 
community on both a widespread and deeply integrated fashion, the 
following initiatives are recommended for consideration and further 
engagement beginning no later than FY 2008. These initiatives are not 
exhaustive of the opportunities available, but have been identified due 
to the persistence and growth in sophisticated use of Earth observation 
data by the user communities and for their highly visible and 
marketable value.

        <bullet>  Green Belt Movement--Launched by Dr. Wangari Maathai, 
        Nobel Lauriat for Peace, to help upgrade the plight of women 
        and communities throughout Africa and the world. The Green Belt 
        Movement (GBM at www.greenbeltmovement.org) has initiated a 
        one-billion tree planting campaign that directly applies the 
        satellite technology to investigate the areas of deforestation 
        and land use degradation that require priority attention. GBM's 
        use of satellite data and information can be directly linked to 
        a litany of key application areas, including:

                  reforestation

                  water resources,

                  disease vector monitoring,

                  disaster mitigation and response,

                  food security,

                  women and girls education, and

                  biodiversity protection and management, as well as

                  the burgeoning enterprise of carbon for poverty 
                reduction (CPR).

           The world stature of Dr. Maathai and the potential impact of 
        GBM is of such importance that NASA should consider this a 
        priority focus for engagement and support in 2008.

        <bullet>  Planet Action--Launched on the 5th of June by Spot 
        Image (see attached flier www.planet-action.org), this 
        initiative, to focus on climate change research, relies upon 
        application of multiple decades of time-series satellite data. 
        Projects and programs to be associated with Planet Action will 
        require a research component and connection with local 
        communities impacted by challenges of climate change. Results 
        from projects will be shared through an open, Digital Earth 
        Exchange platform. The focus areas include:

                  Vegetation, biodiversity & ecosystems

                  Oceans

                  Ice & snow cover

                  Drought, desertification & water resources

                  Human dimensions & habitation

           Currently, this initiative is engaged in collaboration 
        dialogues with strategic partners, including the Environmental 
        Systems Research Institute, World Wildlife Fund, Conservation 
        International, Digital Globe, GeoEye, Heinz Center, the 
        European Space Agency, and many others. Planet Action will be 
        operated by a separate non-profit entity beginning in 2008.

        <bullet>  Millennium Water Alliance--This alliance was formed 
        four years ago to enable collaborative actions for delivering 
        safe drinking water and sanitation to the two billion people 
        lacking access to both (www.mwawater.org). The leading water 
        NGOs are cooperating but lack the technical infrastructure to 
        enable field coordination and effective knowledge of geo-
        hydrologic regimes around the planet. This alliance represents 
        a prime target for NASA to engage with and begin making real 
        progress in applying its data and information into the existing 
        global community.

    It is sincerely hoped that through the Committee's oversight and 
hearings that a significant shift in focus and effectiveness can be 
brought to a previously renowned agency. Leadership and demonstrative 
results, as well as strategic engagement with key enterprises around 
the Nation and the world, are clearly needed in NASA. Making science 
knowledge actionable should become the proud tradition of NASA and the 
ESAP. Hopefully, the input provided by this witness may help contribute 
to this goal.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Biography for Timothy W. Foresman

EDUCATION

Ph.D., Geography, 1987, University of California at Santa Barbara, 
        Santa Barbara, California

M.Sc., Environmental Engineering, 1981, University of Southern 
        California, Los Angeles, California

M.Sc., Ecology, 1978, San Diego State University, San Diego, California

B.Sc., Biology, 1974, San Diego State University, San Diego, California

FACULTY POSITIONS

1992-1998; Assistant Professor, Department of Geography, University of 
        Maryland Baltimore County, Catonsville, Maryland

1998-2000; Research Professor, Department of Engineering, University of 
        Maryland, Baltimore County, Catonsville, Maryland

2003-2005; International Visiting Scholar, Keio University, Faculty of 
        Policy Management, Center of Information Infrastructure, Shonan 
        Fujisawa Campus, Japan

2002-Present; Adjunct Professor, Department of Geography, University of 
        Maryland College Park, Greenbelt, Maryland

2006-Present; Senior Visiting Research Fellow, Qinqhai Academy of 
        Animal Science and Veterinary Medicine

TEACHING EXPERIENCE

1988-1990, Physical Geography (101), University of Nevada, Las Vegas

1996, Physical Geography (110), University of Maryland, Baltimore 
        County (UMBC)

1992 to 1999, Introduction to Geographic Information Systems (GIS) 
        (386), UMBC

1992 to 1999, Advanced Applications in GIS (486), UMBC

1995, Field Research in Geography (485), UMBC

1994, 1996, 1998, Digital Image Processing for Environ. Applications 
        (481), UMBC

2003, Earth Design (400), Keio University, Japan

CAREER POSITIONS

2006-present, President, Global Water, 1901 N. Fort Myer Drive, Suite 
        405, Arlington, Virginia 22209

2006-present, Senior Visiting Research Fellow, Qinqhai Academy of 
        Animal Science and Veterinary Medicine

1999-present, President (Founder), International Center for Remote 
        Sensing Education

2003-2005, International Visiting Scholar, Keio University, Faculty of 
        Policy Management, Center of Information Infrastructure, Shonan 
        Fujisawa Campus, Japan

2002-present, Adjunct Professor, Department of Geography, University of 
        Maryland College Park, Greenbelt, Maryland

2002-2003, Executive Science Advisor (Consultant Contract), United 
        Nations Environment Programme, 1707 H Street, N.W. , Suite 300, 
        Washington, D.C. 20006

2000-2002, Director, Division of Early Warning and Assessment, United 
        Nations Environment Programme (UNEP), P.O. Box 30552, Nairobi, 
        Kenya

1999-2000, Visiting Scientist, Office of Earth Science, Code YO, 
        National Aeronautics and Space Administration Headquarters, 300 
        E Street, SW., Washington, DC 20546

1998-2000, Research Professor, Department of Engineering, University of 
        Maryland, Baltimore County, Catonsville, Maryland

1992-1998, Assistant Professor, Department of Geography, University of 
        Maryland Baltimore County, Catonsville, Maryland

1992-1999, Director, Spatial Analysis Laboratory, Department of 
        Geography, University of Maryland Baltimore County, Baltimore, 
        Maryland 21250

1991-1992, Executive Consultant, PlanGraphics, Inc., 202 W. Main 
        Street, Suite 200, Frankfort, Kentucky 40601-1501

1988-1991, Manager, Geographic Information Systems, Clark County, 225 
        Bridger Avenue, Las Vegas, Nevada 89155

1987-1988, President, Envir. Consultant, P.O. Box 530, Lagunitas, 
        California 94938

1986-1987, Manager, Remote Sensing/Geographic Information Systems, 
        Systems Application, Inc., 101 Lucas Valley Road, San Rafael, 
        CA 94903

1984-1986, Environmental Scientist, U.S. Environmental Protection 
        Agency, Environmental Monitoring Systems Laboratory, Las Vegas, 
        NV 98114

1978-1984, Research Ecologist, U.S. Naval Civil Engineering Laboratory, 
        Port Hueneme, CA 93043

1976-1978, Associate Director, Ecographics, P.O. Box 706, La Jolla, CA 
        93043

                               Discussion

    Chairman Udall. Thank you, Dr. Foresman, and I thank the 
panel for a very compelling and stimulating set of testimony.
    We will now open our first round of questions. The Chair 
will recognize himself for five minutes.

         Balance in the Earth Science and Applications Program

    I wanted to turn to Dr. Anthes and Dr. Barron initially. 
Dr. Freilich's testimony asserts that NASA's budget request 
supports a balanced program. Do you agree based on the 
recommendations of the Decadal Survey, and if not, what aspects 
of the program are out of balance?
    Dr. Anthes, why don't we start with you?
    Dr. Anthes. Yes. I would not say it is not balanced but it 
is just not enough. You can see that the purchasing power, the 
investments in Earth science at NASA has decreased by 30 
percent since the 2001 levels, and that is not enough to do 
even the minimal program that we are talking about. I think it 
is more a question of too little rather than not a balance.
    Chairman Udall. Dr. Barron.
    Dr. Barron. I completely agree.
    Chairman Udall. Dr. Freilich.
    Dr. Freilich. I thank my colleagues for recognizing the 
balance in the program. I point out that we operate 14 
satellites now and we have seven more in development that will 
launch off by 2013. The size of the Earth Science budget is 
itself determined from a series of balance calculations across 
the disciplines in NASA and between NASA and other agencies. It 
is my job to get the best science, the best applications on the 
resources that are made available.
    Chairman Udall. I thank you for that succinct and to the 
point set of answers. I think we may turn back to this at some 
point later in the hearing.

     Strategies to Mitigate the Impact of Climate Sensors Removed 
                              From NPOESS

    I do want to turn to NPOESS, Dr. Freilich, and talk a bit 
about the status of the strategies to mitigate the impact of 
removing the climate sensors from NPOESS. Maybe I will leave 
that as an open-ended question to you and ask you to respond.
    Dr. Freilich. Okay. Thank you. As you know, it was just 
about a year ago when because of a series of technical and 
budgetary issues the NPOESS program was refocused on its core 
weather forecasting objectives, and that resulted in the 
demanifestation of several climate sensors and degradation of 
some others which are important for the Nation's scientific and 
applications programs. Almost immediately after that and before 
I joined NASA at headquarters, NASA and NOAA working together 
with the Office of Science and Technology Policy began an in-
depth study of the climate impact of those demanifestations and 
degradations, and that was presented in early January, and we 
ranked from that the top measurements that were required to be 
remanifested based on science issues, and you are well aware of 
that, and we are moving forwards to that. Subsequently, we have 
been working with NOAA and OSTP in order to develop mitigation 
scenarios and associated costs, and this is a work in progress 
still in order to get those capabilities back in a realistic 
schedule, a realistic budgetary environment and addressing the 
science and the applications. In April, NASA and NOAA got 
together and jointly funded the remanifestation of the Ozone 
Limb system on the NPOESS Preparatory Project. So to sum up, we 
are working very, very closely and very intensely with NOAA 
under OSTP guidance to understand the impacts of the Nunn-
McCurdy refocusing and to develop scenarios to regain those 
capabilities.

                  Maintaining Climate Instrument Teams

    Chairman Udall. Could I ask more specifically, what are 
your plans for maintaining the teams developing the climate 
instruments such as the TSIS as you do the work to find 
mitigation strategies and the way forward?
    Dr. Freilich. In the area of--for instance, in the area of 
total solar irradiance measurements, the Glory mission, which 
will be launching late in 2008 or early 2009, is primarily an 
aerosol mission but it also includes a total solar irradiance 
monitor, which will continue that time series which is critical 
to have on-orbit overlap. So in many instances, some of the 
measurements and missions that we have under development now 
will continue and extend those time series and those teams are 
in part participating in the development of those missions.
    Chairman Udall. Thank you. My time is expired. I am now 
pleased to recognize Mr. Feeney for five minutes.
    Mr. Feeney. Well, thank you, Mr. Chairman.

                 NASA's Plans With Respect to Resources

    Dr. Anthes, Barron and Foresman, you have heard Dr. 
Freilich's testimony about NASA's approach going forward. Given 
the fact that we have some limited resources and there are 
constraints that all three of you are concerned about, given 
that reality, do you think that programmatically NASA is taking 
the appropriate steps and do you have any guidance for NASA, 
again given the reality of the limited resources that you 
pointed out?
    Dr. Anthes, why don't you start?
    Dr. Anthes. I think we have given NASA about all the 
guidance that they need at the moment through the Decadal 
Survey. That was a two and one-half year study by over 100 
people. But again, I get back to the point that NASA is doing a 
good job with what they have but they just don't have enough, 
and for--you know, we are talking about just going back to the 
2001-2002 level, that is $2 per person per year in the United 
States. That is the price of a bad cup of coffee. And so I 
think this is affordable. I mean, this is not an unreasonable 
request to ask for--to NASA to ask the Administration or the 
Administration to ask Congress or Congress to supply the 
resources needed to do our minimal recommended program.

       Continuity of Climate Observations, Data Gaps, and Sensor 
                           CalibrationXXXXXX

    Dr. Barron. I would like to just add to that that I think 
we have to find a way to fix this issue of climate continuity 
of these observations so that every time it is not a stopgap 
effort. There were a large number of reports and a large amount 
of effort that suggested that NPOESS was going to present 
problems for climate quality observations and it is as if each 
time your worse nightmare arrives one more time and you go 
through--you go through this and even in writing the Decadal 
Survey, it was like a moving target to watch things dropping 
off and questioning what was going to happen and how it was 
going to be done and now we are going to add studies. We are 
going to take a solar measurement that gets us part of it but 
not everything. Each one of these components in terms of this 
record will be examined but nowhere in there I think is the 
sense that we are actually going to fix this so that we can 
actually sit here and argue about how we are going to make 
improvements and advances, how we might be able to save money 
through efficiencies, how we might be able to do a better job 
of designing an observing system because instead the most basic 
and fundamental set of observations for the climate system are 
in jeopardy one more time, and so I think that a lot of 
analysis on how to maintain parts of that is not the issue. We 
have a bigger issue to fix.
    Chairman Udall. Dr. Foresman, you have to push----
    Dr. Foresman. Thank you. I certainly agree with their 
comments. I would relate mine to the other 95 percent of the 
community outside the scientific domain in terms of I feel that 
NASA could do much better in terms of being able to connect and 
outreach with innovation, industry partnerships, academic 
partnerships and NGO partnerships that heretofore have not been 
made available, but again, as I emphasized, the technologies 
that are now changing the landscape are but two years old, and 
if NASA is not prepared within their staff and experience at 
the current time to address how that strategically impacts what 
they should be doing to deliver to every district in this 
nation and citizens that lie within there.
    Mr. Feeney. Dr. Freilich, given Dr. Barron's point about 
the continuity of some of the programs, there is a risk that 
some of our current satellites that are operating well past 
their design life may expire before replacements are launched. 
How serious would the consequences of a data gap for a year or 
two be in terms of our mission and talk about the risks of 
calibrating new sensors in terms of that continuity that Dr. 
Barron was concerned about.
    Dr. Freilich. I could deliver a lengthy treatise as my 
academic background is asking me to do but I will refrain from 
that for your benefit. The need for continuity and the 
approaches to calibration and validation either on orbit 
overlap or vicarious calibration differ from quantity to 
quantity and measurement to measurement. Let me focus for an 
illustrative example on total solar irradiance. We have a 23-
year-plus time series of measurements of the sun's broadband 
output. We can make very, very stable and very sensitive 
instruments but we can't absolutely calibrate them on the 
ground. Therefore, it is essential for that measurement that we 
have on-orbit overlap of six to 12 months so that the time 
series can be made consistent and we can understand whether 
changes are owing to the changes in the sun or changes in the 
instrument when we weren't measuring and therefore, for 
instance, that is why we have put a total solar irradiance 
monitor on the Glory mission, which is due to launch in late 
2008 or early 2009 to assure overlap with our existing 
instruments, for instance, SORCE. Consistency and continuity, 
where our understanding and our predictions are sensitive to 
it, is number one on our list because it is essential for us to 
redeem the Nation's previous investment in these time series by 
continuing them where necessary. In some areas we could survive 
with a gap or a degradation and do calibrations using transfer 
standards.
    Mr. Feeney. Mr. Chairman, my time is expired but if the 
chairman would agree, I would just like to get Dr. Barron to 
respond to that because it is a concern that you raised and you 
think that this is--what do you think of Dr. Freilich's 
response?
    Dr. Barron. He has provided a good answer and it is true 
that different rules and needs apply for different sensors but 
if you can imagine for me a minute having a system in which we 
say oh, we are about to lose this because it didn't work here, 
let us go do something over here, or if something fails and 
then make a decision that you are going to do something, that 
is not a very robust system, and we have been arguing about how 
robust the system is and what needs to be done to make it more 
robust for at least 20 years, it seems to me, and it strikes me 
that we are in worse shape, not in better shape, in terms of 
designing that as a system. So I agree that what he said is 
correct but I do not think that embodies a strategy of how to 
put this problem aside so that you are not continually 
addressing what you need to do and what you need to add because 
you have lost something here.
    Chairman Udall. Thank you, Dr. Barron and Dr. Freilich.
    We will now recognize the gentleman from Texas, Mr. 
Lampson, for five minutes.
    Mr. Lampson. Thank you, Mr. Chairman.
    I think I share some of the frustrations that all of our 
colleagues are starting to express more and more, and Dr. 
Anthes, I think I would have probably not said nearly as nicely 
as what you did about resources. We keep hearing time and time 
again the comments that NASA and other agencies as well make 
the best efforts possible with the resources available. I think 
that is a huge cop-out and there are budgetary issues but we 
are teaching this nation to not understand about science. We 
are teaching this nation that we are not going to get a return 
if we invest in something that will tell us something about our 
future, and the return is huge, and I was sitting here thinking 
that this little statement behind me, how indeed true that it 
is, that if we don't step up to the plate and exhibit the 
political will and quit copping out to those who are leading us 
without that vision--we can talk words but we have to implement 
it, act on it, and I think there is an interest on the part of 
our Congress to do that. We need guidance from the science 
community, we need guidance from this public, and the public 
itself needs to be taught, I believe, how to respond to us so 
that we can become the followers of them and hopefully put the 
resources where we need them. I am going to try to ask a whole 
bunch of questions in a very short period of time so short 
answers, please, gentlemen.

        Transitioning Research Satellites and Measurements into 
                          Operational Systems

    Dr. Freilich, the Earth Sciences Decadal Survey discusses 
the need for transitioning research satellites and measurements 
into operational systems. The NASA Authorization Act of 2005 
calls for NASA and NOAA coordination on research to operation. 
How often has NASA-NOAA joint working group met and when was 
the most recent meeting?
    Dr. Freilich. The joint working group, which is one of many 
specific groups, met twice during 2006, and I believe that the 
most recent meeting was in April of 2006. It was a multi-day 
workshop. However, there are many other meetings periodically 
that we have and regularly. There is a tri-agency altimeter 
working group, and as I pointed out, NASA and NOAA have gotten 
together and remanifested the OMPS-Limb sensor on----
    Mr. Lampson. This committee met a year and a half ago 
almost. What specific issues has it addressed?
    Dr. Freilich. The joint working group has five specific 
issues that it addresses and it focuses on transition of 
measurements, transition of missions that are on orbit and 
issues associated with data set, stewardship and climate 
records.
    Mr. Lampson. Is the joint working group with NOAA able to 
effectively plan for transitions from research to operations?
    Dr. Freilich. We face a real challenge as a country in 
doing that transition and there are very few successful and 
rapid transitions. However, with guidance from the National 
Research Council--and Dr. Anthes in fact authored the CONNTRO 
report to the Committee on NASA-NOAA from research to 
operations. People at NASA and at NOAA are very sensitive to 
this issue. The National Research Council has set out a path 
forward and the joint working group and the other working 
groups are leading us along that path. We are making progress.
    Mr. Lampson. Would any of the other witnesses care to 
comment on any of those questions?
    Dr. Anthes. It is a very good question. It is a very tough 
problem, this transition from research to operations. I hate to 
keep whining about not enough resources but, you know, it takes 
resources to transition these new technologies into NOAA 
operations, and NOAA's budget has been relatively flat, even 
declining, and they simply don't have the resources to 
transition even the simplest, even some of the cheapest new 
technologies into operations. So this is a really big issue, as 
Dr. Freilich says, and we just have to come to grips with there 
is no plan, there is no national plan, it is not going well. 
Partly it is due to the fact that NOAA doesn't have the 
resources to take on these huge responsibilities and so it is 
not just simply one agency problem. It is a two-agency problem.
    Mr. Lampson. The yellow light is on. If I start into this, 
it is going to take me a few more minutes, so I will yield back 
my time now and----
    Mr. Feeney. If there is no objection. Go ahead.
    Chairman Udall. Mr. Lampson, why don't you take a couple 
more minutes?
    Mr. Lampson. Thank you very much.

                 Follow-on to NASA's QuikSCAT Satellite

    For Dr. Anthes and Dr. Barron, according to a recent 
article, scientists exploring options for QuikSCAT success in 
Space News, the new director of the National Hurricane Center 
has emphasized the need to plan for a replacement to NASA's 
QuikSCAT satellite should it fail. The Decadal Survey proposes 
a follow-on to QuikSCAT but not until 2013 at the earliest. 
What is the reason for the timing of the Extended Ocean Vector 
Winds Mission, XOVWM, and how urgent do you believe the 
situation with QuikSCAT is?
    Dr. Barron. I think you see that what the Decadal Survey 
did was put a whole group of very important missions on the 
table and at the same time we tried to live within a very 
specific budget constraint which wasn't give us more, give us 
more, give us more, it was get us back to where we were in 2001 
and 2002. Now, you only have one choice there. You have put a 
list there and you have to put them in time, in some sequence 
and so you will see that one particular mission that focuses on 
one critical topic is delayed to a later date because of hope 
that something will continue or because something else in 
another part of the world is going to contribute some 
information, but there really was within that envelope no 
choice and I think what you see too is, there is nothing added 
to that in terms of true innovations on that list. It is just 
basically to fit things in as best we could that were critical. 
At least that is my view.
    Dr. Anthes. I can only add a little bit to that. There is a 
European scatterometer in place called ASCAT, which although 
not providing the level of accuracy that some people would wish 
at least is an interim scatterometer that will provide some of 
the information needed for the ocean vector winds that are 
important for hurricane forecasting.
    Mr. Lampson. And we are also going to rely on the Russians 
for moving our men and women to and from the International 
Space Station, and who else are we going to be relying on into 
the future? What advances would the XOVWM mission offer over 
QuikSCAT? And I am going to ask----
    Dr. Anthes. This is his--he is an expert in scatterometry 
so he should----
    Dr. Freilich. I am very proud of QuikSCAT. I was the 
mission principal investigator for it so allow me. The XOVWM 
mission that was recommended by the Decadal Survey primarily 
has higher resolution in space so it measures more fine short-
scale variations in the wind field and it will have the ability 
to make measurements that are accurate under raining and severe 
conditions which present systems cannot do. So we will be able 
to get closer to the coast. We will be able to measure smaller-
scale wind variations when the NOAA XOVWM mission flies, and we 
will be able to make measurements that are accurate under 
extreme conditions and rain.
    Mr. Lampson. My last thing, and it is short and I 
appreciate the indulgence of the Chairman and Ranking Member, I 
sent a letter regarding the NASA-NOAA research to operations 
working group report asking for that. It was supposed to have 
been here on February 15. NASA sent it for clearance, I think, 
earlier this month. Do you have any idea when I might be able 
to expect delivery of that?
    Dr. Freilich. I am relatively new to the Federal Government 
and I am learning a lot. I can tell you that substantive work 
on the text of that report ended many, many weeks ago and it is 
working its way through the agency and interagency review 
process. I will take an action to get back to you. I think that 
it is imminent but I can't say with certainty. I am sorry.
    Mr. Lampson. My fear is that we have become such a--almost 
a bloated bureaucracy that we can't move and somehow, I think 
as some of you have stated, Dr. Foresman and others, we have 
got to find a way around that. We have got too much at stake 
for our future.
    Thank you, Mr. Chairman.
    Chairman Udall. Thank you, Mr. Lampson. That was a very 
important line of questioning, and Dr. Freilich, I hope that 
you will respond to Dr. Lampson--or Mr. Lampson as soon as 
possible. There is a Dr. Lampson. It turns out it is Nick's 
brother.

    Total Solar Irradiance Sensor (TSIS)--Maintaining the Team and 
         Potential Inclusion on Landsat Data Continuity Mission

    If I could, Dr. Freilich, I want to go back to the 
discussion of climate instrument teams. It is my understanding 
that the Glory instrument contracts are winding down, as 
important as that project, set of projects is. What 
specifically will NASA be doing to maintain the TSIS team for 
the remainder of 2007--fiscal year 2007 and through 2008 while 
OSTP is deciding what to do?
    Dr. Freilich. I can't give you any specifics, sir, beyond 
the fact that although the contracts--although the work, the 
development work on those instruments--that instrument is in 
fact winding down, because the instrument is being built and 
successfully delivered and integrated, there still remains a 
lot of work for integration tests and maintenance of that 
followed by of course after launch validation and calibration 
and characterization of the instrument. I don't have the 
specific information that I can give you on TSIS. Again, we can 
find----
    Chairman Udall. Do you have an idea when you might have 
that specific information?
    Dr. Freilich. As soon as I can get back and within a couple 
of days I will make inquiries. I am sorry.
    Chairman Udall. That is terrific. Thank you.
    Let me continue on the TSIS line of questioning in the 
context of some broader concerns. NASA officials have indicated 
that the Landsat Data Continuity Mission is being considered as 
a potential platform for TSIS, and how about a sense of when a 
decision might be made on that option and how would adding the 
TSIS affect the LDCM schedule and the duration of any potential 
gaps in the land cover data record?
    Dr. Freilich. You have hit the high points, Mr. Chairman. 
You are well informed. The Landsat Data Continuity Mission is 
designed principally to extend the 30-year-plus record that we 
have of moderate-resolution radiometry over and imagery of land 
surfaces. It has been an incredibly valuable data set. At 
present we have two spacecraft both flying well beyond their 
baseline lifetime. LDCM is scheduled for launch at present in 
mid-2011, designed specifically to minimize the gap, and I am 
afraid that we will have a six to 12-month gap in that long 
time series. We are looking at using that platform potentially 
as you said to extend some other critical time series such as 
TSIS. The number one issue that is guiding us there is in fact 
the schedule and the risk for minimizing the gap on the time 
series of the land imagery. We are looking at lots of options 
and again that work is deeply underway and has been for several 
months. We are letting four contracts for LDCM and they are in 
the process of being advertised right now and the interaction 
between them and the technical addition of TSIS will govern our 
schedules and our decisions.

           Climate Measurements and `Decadal Survey' Missions

    Chairman Udall. Let me follow on here. What role, if any, 
will the Decadal Survey missions have in addressing any 
potential gaps in climate and environment measurements as a 
result of the Nunn-McCurdy restructuring at NPOESS?
    Dr. Freilich. If I understand your question, it is can 
Decadal Survey missions fill in for potential NPOESS 
demanifestations. Do I have that correct?
    Chairman Udall. That is fair enough.
    Dr. Freilich. Okay. The Decadal Survey actually was, as Dr. 
Anthes and Dr. Barron said, was very careful in not overlapping 
capabilities for the Nation so in fact the problem turns out to 
be almost an opposite one, that is, the NPOESS refocusing 
happened late in the Decadal Survey process and many of the 
Decadal Survey missions actually rely on measurements that were 
to be taken by NPOESS as opposed to duplicate measurements that 
would be taken by NPOESS and one of the goals of our workshops 
is to actually understand what contextual measurements that 
would have been made by NPOESS are necessary for the Decadal 
Survey science so that we will advance the science.
    Chairman Udall. Perhaps I could just take another minute 
and ask Dr. Anthes or Dr. Barron if they care to comment on the 
last question.
    Dr. Anthes. Well, there were two recommendations for NOAA 
in the very early time frame, the 2010 to 2013, that have great 
bearing on climate. One is the CLARREO mission, which is to do 
benchmark climate radiation observations. The climate 
fundamentally is warming because there is an imbalance between 
what radiation we are receiving from the sun and what is being 
either reflected back or emitted back and so we need a set of 
benchmark radiation observations that will measure not only 
what the sun is putting in but what is being reflected back and 
what is being emitted back from the Earth. The other instrument 
that is recommended in this very early time frame is the GPS 
radio occultation measurements, which make very accurate and 
precise measurements of the temperature and water vapor 
structure of the atmosphere. Again, these would be benchmark 
climate observations that will tell us how fast the atmosphere 
is warming up, where it is warming up the fastest and how the 
water vapor is increasing regionally and globally. So these are 
two relatively inexpensive missions that can be launched by 
2010 and will contribute to the very essential climate 
observations.
    Chairman Udall. Dr. Barron, anything else to add?
    Dr. Barron. Yes, those--I completely agree with Dr. Anthes. 
Those are extremely important. And I would also, you know, like 
to confirm what Dr. Freilich said. As Chair of the climate 
panel, we sat there with an assumption that we had a basic set 
of observations long planned through NPOESS that would continue 
and that our objective was to build upon that. Where are the 
great uncertainties in climate models? How can we make 
observations to make improvements? And in particular in the 
latter half of the Decadal Survey, every meeting of my panel it 
seemed we had to reassess what was the base that we were 
building upon because we were moving from a situation of 
instead of proposing innovative ideas to tackle important 
problems, we were trying to make sure we were going to not lose 
what we have had for decades.
    Chairman Udall. Thank you, and Mr. Feeney is recognized.
    Mr. Feeney. Thank you, Mr. Chairman.

        International Cooperation, Including Challenges of ITAR

    Congressman Lampson raised the international reliance and 
cooperation issue. Dr. Freilich, obviously there are some 
advantages including avoiding duplication of services and 
reducing costs with cooperation. Your statement suggests that 
there are some bilateral discussions underway with several 
partner agencies. Is the concept to have other countries assume 
full responsibility for designing, building and operating 
individual missions and then sharing the data or to have one or 
several partners participate in individual missions or is it a 
combination? I guess it would be helpful to, you know, see 
where we are going with the bilateral agreements.
    Dr. Freilich. Excellent point. The answer is, it is a 
combination. First let me say that the Decadal Survey very 
specifically points out the need to leverage our capabilities 
with those of our international partners. It points out that 
the scope of the problem and the scope of the solution is far 
greater than what any single agency or any single country can 
do. It turns out that our Decadal Survey scientists are 
completely in line and leading in fact the global climate 
science and Earth systems science community so our aims in NASA 
are well aligned with the aims of our partner agencies in other 
countries. Having said that, in many of our discussions we are 
talking about contributions from an instrument standpoint from 
multiple countries to a particular mission but we are also 
spending extra amounts of time to talk about trading missions. 
If a mission can be flown from a particular country and the 
data are freely available and well characterized, then it aids 
everybody in our analyses and therefore we don't have to 
duplicate those measurements simply to say that we were making 
them as well. The resources are limited, the problem scope is 
large and we really have to have unique application of our 
resources, not duplicative. Having said that, we are trying all 
possible permutations.
    Mr. Feeney. And as you enter and participate in these 
negotiations, how will ITAR regulations hinder or impede your 
efforts?
    Dr. Freilich. ITAR presents challenges. We conform with the 
ITAR regulations and I am intimately familiar with several 
international collaborations. Like I said, ITAR presents 
challenges but we can surmount them. We are going to be flying, 
for instance--we have altimeter missions joint with the French 
agency CNES that have been very successful and we will be 
launching OSTM in June of 2008. We will be flying the first 
ever sea surface salinity measurement mission with our 
Argentine colleagues' space agency CONAE, and that will be 
launching in the 2009 time frame as presently listed. So ITAR 
is challenging but it can be surmounted and we do obey the ITAR 
regulations.
    Mr. Feeney. And finally, Dr. Anthes, you have mentioned 
some of the international cooperation components to 
accomplishing the overall goals. What do you think about ITAR 
and the potential hindrance it poses?
    Dr. Anthes. As Dr. Freilich said, they can be significant, 
and then some kinds of technologies they can actually prevent 
international collaboration. International collaboration, as I 
said, is--we have to consider that carefully but at some point, 
I think as Mr. Lampson implied, the United States can't rely 
entirely on other nations to make these critical observations. 
It would be a little bit like having a military that relied on 
international partnerships. We certainly need to do some 
partnerships but I think that some of these key observations we 
cannot assume that these partnerships will be there or will be 
successful.
    Mr. Feeney. Thank you. I appreciate everybody's testimony 
and I yield back my time.
    Chairman Udall. Mr. Lampson.
    Mr. Lampson. Thank you, Mr. Chairman.
    We also have to be real cautious, I believe, with our 
international partners when we enter into arrangements. There 
seems to more and more opportunity for us to find some way to 
renege in some of those. One I have in mind that doesn't impact 
any of you, the AMS Project, which is a $1.2 billion project 
that has been 95 percent paid for by international partners, 
and our promise was to put it on the space station, and at this 
point it is no longer on the manifest to be able to go to the 
space station. Those folks are not happy campers. And so if we 
expect to be able to enter into these arrangements, which I 
think are critically important, I don't see how there is any 
better way for us to build friendships than by working on 
things that benefit the people of both or more countries. We 
just have to be able to be cautious with what we do, what our 
plans are.
    I don't have a question in any of that. I think I started a 
rant a little while ago. I love NASA. I love the science 
agencies that we have in this nation and I want to do things 
that can bring attention to the magnificent accomplishments 
that they make and people that have the bright minds that are 
making those and to continue to be able to support them in a 
bigger and better way. I think it is important for us to point 
out that right now NASA has a budget that is six-tenths of a 
percent of the Nation's budget, and in the 1960s when we were 
having magnificent achievement in education and in 
technological advances, the budget for NASA was six percent of 
our nation's budget, a significant difference in commitment, 
and that is something that I hope and pray that we can get back 
to as a Congress, as a nation and as a scientific community, 
and with that, I yield back my time, Mr. Chairman.
    Chairman Udall. Mr. Lampson, I might ask you to yield. We 
could use a little bit of your time. I know we have had 
conversations about the AMS Project and the important work that 
would be done in this very fascinating area of antimatter and I 
think we have some opportunities in July to question NASA about 
their plans in this regard. Gentlemen, I look forward to 
working with you to further understand why we can't see that 
this important project be undertaken. I think you and I have 
some additional plans to pursue this.
    Mr. Lampson. Indeed, and I appreciate your interest in it 
but I tried to mention that only to let it be a part of this 
big picture of what we are not doing right now. There are too 
many times when we take and make the excuse of we can't get the 
resources to do something. If it is important for us as a 
Nation, as a people, we ought to find the resources. We did 
once before and we got an unbelievable return for it, and that 
is what I am looking for. That is what I want to see my 
government doing for this nation. It is within us. We have got 
to have the leadership to make it happen.
    Chairman Udall. I thank the gentleman for yielding to me 
and I would yield back to him if he----
    Mr. Lampson. And I will yield my time back. Thank you, Mr. 
Chairman.
    Chairman Udall. I thank the gentleman. The Chair will 
recognize himself for five minutes.

    Plans for Future Observations Systems to Address Societal Needs

    I did want to return to Dr. Freilich but also give Dr. 
Foresman a heads-up that we haven't been ignoring him and I 
wanted to give him an opportunity to comment on the question I 
am going to ask Dr. Freilich. What I want to focus on was the 
Academy's survey, the Decadal Survey stressed the need for 
observation systems to look at both scientific and societal 
needs, and I want to just give you a chance to talk about 
NASA's planning process for future observation systems takes 
into account this important area of societal needs. When you 
are finished, I would like to give Dr. Foresman an opportunity 
to comment as well.
    Dr. Freilich. Our missions are the basis--they provide the 
hard measurements and the information. The research and 
analysis program develops scientific-based understanding of the 
Earth as a system using modeling as well as those measurements. 
Our Applied Sciences program serves as what I call a flexible 
bridge between the knowledge that we gain in the research and 
analysis program and the need for focused information to 
address societal benefit areas and very specifically, our 
Applied Sciences program is designed to further that 
communication between the science understanding that is driven 
by the missions and the need for services and information by 
others who are dealing specifically with societal benefit 
areas. The focus of the Applied Sciences program is becoming 
aligned with US GEO, the Group on Earth Observations, and their 
nine societal benefit areas. In each one of those areas, we 
have pilot projects in which we demonstrate the utility of the 
NASA measurements and understanding to further other agency and 
other organizations' goals in their--for their objectives. So 
very specifically, the Applied Sciences program forms that 
connection between the science and the societal benefit areas. 
We are aligned with US GEO, and as I pointed out, we are 
playing a very key role in the international Committee on Earth 
Observing Satellites which is the coordinating arm for the 
global GEO.
    Chairman Udall. Thank you. And I want to turn Dr. Foresman 
and I think particularly ask Dr. Foresman to outline some 
examples of how this very powerful technology can be used. I 
had obtained recently, Dr. Foresman, a radio story about Darfur 
and how actually satellite imagery could help us understand on 
a real-time basis what was happening there and would help us 
expand our efforts to prevent what is clearly genocide and a 
very tragic situation from further developing, and I know you 
had some other examples in your testimony. So the floor is 
yours.
    Dr. Foresman. Thank you, Mr. Chairman. This also tends to 
reach into issues of international cooperation as well, so it 
is not just restricted to the United States. We are sitting at 
a profound point in history where we can view these various 
radical, if you will, changes in terms of land use or 
humanitarian issues around the planet with regular citizens 
being able to engage. This is something that the Applied 
Science program, again with due respect, having been in that 
program and I know they did a lot of very good things but the 
bureaucratic realities tend to basically dilute the ability to 
provide rapid response, and rapid response is occurring in a 
variety of sectors at a rate which we talked about into the 
hundreds of thousands of projects that are showing up around 
the planet that unfortunately is beyond the scope of NASA 
headquarters to address. However, by restructuring, it could 
have the potential to address this in some very significant 
ways. You know, we are looking at deforestation issues. While 
searching for better algorithms for carbon, sometimes the 
academics spend time sequestering their information to be 
published while the forest has been removed and so they come 
back and they find out that it is a moot point, and this 
happens continuously. Reporting on how many trees are there is 
a phenomenal area that we are still abjectly behind the ball. 
Recently one of the applications was done in Santa Cruz, not 
known as a developing nation but Santa Cruz, California, where 
they were able to save 1,000 redwood trees in the backyard 
simply by providing through these various visualization tools 
that I am speaking of that NASA was the leader in showing the 
community what was going on with 1,000 trees that had been 
promulgated through the official channels as but a clear--a 
logging exercise by the watershed district. Well, it was a 
clear-cutting exercise to gain monetary benefit to a watershed 
district. This is a phenomenal thing, 1,000 acres of redwood 
trees right in the backyards of some of the most literate and 
intelligent people on the planet. So these kinds of examples 
are showing up and we captured many of those in Berkeley with 
General Pete Worden, who was there in Berkeley just two weeks 
ago with me highlighting many of these examples, and it was 
interesting because the Google executives admitted--and it 
wasn't just Google, you know, I don't have stock in that 
company--admitted that they can't even contain what is going 
on. This is an uncontrolled experiment. Well, it is an 
experiment that NASA should be controlling as best they can 
because it is the absolute soft spot. It is where the rubber 
meets the road in terms of how to transfer our science and 
knowledge into the backyards of citizens. And so we have a 
choice. There is two paths. We can sit back and say well, it 
will happen and let us watch what happens, or we can say, no, 
this is the time for leadership and to really gain the upper 
hand in these application areas because they are so profound in 
terms of mountaintop removal, for our energy resources in our 
country in terms of the governance by indigenous people that 
are taking over water quality monitoring and sampling from the 
USGS and EPA in a very profound way and a great example of the 
communities taking on the responsibility for stewardship in the 
backyards, and the tools are there now that we only dreamed of 
seven or eight years ago. They are here now and they are not 
part of the plan. Thank you.
    Chairman Udall. Dr. Barron, would you like to comment as 
well?
    Dr. Barron. I would. I think it is an extremely important 
question, and to be perfectly blunt, I view the applications 
program side of NASA a decade ago as throwing data over the 
transom and finding out who might grab it. I view the current 
program as one which is directly throwing data over the transom 
where you are sitting there looking at a particular application 
use and making sure that the data is available. But I think we 
forget the fact that there is actually a science that needs to 
be accomplished to make the societal connections. You are 
sitting right now in a world in which climate variability is 
having a big influence in something like West Nile virus 
delivered by a mosquito yet you are sitting there analyzing 
where and how to respond in hindsight by collecting numbers of 
dead birds and testing them when we have the capability to 
actually couple the science and human health sciences together 
so that you actually start to forecast the outcomes for 
something like a Dengue fever or a West Nile virus. We have 
that capability in the short-term and the long-term if we can 
put the communities together and to begin to set up the types 
of observations and modeling that you need to do it. And by 
collecting observations and sitting there thinking just as a 
climate scientist, you are not going to make that 
accomplishment. You actually have to bring these societal 
connections to the forefront and not one which is a handoff of 
data but one that actually promotes scientific discovery and 
brings that same discipline of forecasting that we apply to 
weather forecasting to something like human health forecasting.
    Chairman Udall. The two other Committee Members that are 
here inform me they have no additional questions. I did have 
one additional line of questioning I wanted to direct to the 
panel, then we will draw the hearing to a conclusion. I will 
turn back to Dr. Freilich but I would like everybody else on 
the panel to feel free to comment.

       NASA's Future Earth Observation Missions and Integrating 
          Decadal Survey Recommendations, NPOESS Changes, and 
                       International Cooperation

    Your testimony indicates that NASA's plan for future Earth 
observing missions will integrate the scientific 
recommendations of the Decadal Survey, the ongoing NPOESS Nunn-
McCurdy changes and the contributions of our international 
partners. That is no small task. Could you explain in specific 
terms how you plan to actually make that integrated approach a 
reality, and then if I could thrown an additional two questions 
at you: What is the timeline for that integrated plan and how 
does that timeline address any potential data gaps as a result 
of the restructuring, the Nunn-McCurdy restructuring of NPOESS? 
If you want to provide some of this for the record, we would be 
happy to indulge you in that way well, but if you want to take 
a shot right now, I would appreciate it.
    Dr. Freilich. Okay. I will take a shot at that. Before I 
start that, may I have your lead to address the timeliness of 
some of our Applied Sciences projects or----
    Chairman Udall. Sure. Please.
    Dr. Freilich. Dr. Foresman made a very good point about the 
need to be timely in order to actually have real benefit, and 
Dr. Barron talked about throwing directed or undirected data 
over the transom. We have some real shining stars of projects 
in the Applied Sciences program and I would just like to talk 
about two or maybe one to start with, the SERVIR node, which is 
a data environmental monitoring synthesizing and distribution 
center that we in Applied Sciences have set up in Central 
America to bring in not only NASA data but also models from 
other agencies and to provide the information that is necessary 
for decision-makers in the Meso American area to actually 
manage the environment and to understand. Just last month, I 
think it was around the 18th of May, we were contacted by the 
environment ministry of Honduras where there was a degradation 
in air quality and it was unclear whether this was being caused 
by Saharan dust--they knew that there was Saharan dust in the 
area--or whether it was being caused by smoke, and the response 
in Honduras and Nicaragua and Costa Rica would be quite 
different. In just a matter of four days, SERVIR took data from 
our flying satellites, including the relatively recently 
launched CALIPSO satellite which measures aerosols and clouds 
as well as data from MODIS, combined that information with 
models, models of smoke distribution, fire distribution, et 
cetera, many of which were generated in the United States, and 
provided a clear description to the affected areas that in fact 
there was dust but it was located well to the east in the 
Caribbean and the degradation of air quality that they were 
seeing was resulting from fires which were relatively local, at 
least to Central America. The point being that in that very 
short amount of time, that NASA-sponsored project could provide 
the specific information that was flexibly needed by that 
ministry.
    Okay. Now let me answer your questions. Sorry about that. 
It is a big task to pull together the international 
collaborations, the NPOESS response and our increased 
understanding of the technical and cost challenges of the 
missions. We are working on a time scale that is focused 
informing the fiscal year 2009 process because the 
Administration's fiscal year 2009 budget process is the first 
one that is going to be fully looking at the detailed 
recommendations of the Decadal Survey. I have been on the road 
almost constantly for the last couple of months speaking with 
our international partners and bringing together some of those 
joint science working groups. We actually even started some of 
the concept studies to look at technical challenges and costs a 
little bit before the Decadal Survey came out. They have all 
reported to us once and we are in the final stages of 
rationalizing those inputs and it is our hope--and you know 
what is happening with the NPOESS-OSTP-NASA-NOAA joint 
deliberations. They are all focused on coming up with at least 
the outlines of a plan and the associated resources in order to 
inform the Administration's development of the fiscal year 2009 
budget process. So we are moving towards a fall--we are moving 
towards a fall coalescence or synthesis for the integrated.
    Chairman Udall. Dr. Anthes or Dr. Barron, did you have any 
interest in adding additional commentary to that?
    Dr. Anthes. Well, I think it is good that they are 
seriously considering the Decadal Survey but it is going to 
take more than rebalancing, more than considering, more than a 
few workshops. Mr. Lampson is right on. This country can't 
afford not to do it. There is a cost for doing nothing. We are 
talking about, I mean, some lag--to stabilize greenhouse 
emissions in the United States might cost $30 billion. That is 
just annually. Is that going to work? How do we know that is 
happening? Are we going to invest $30 billion in something that 
won't work or we can't observe or can't verify? What about 
China? China is the greatest greenhouse gas emissions country 
right now. How do we know what they are doing and whether what 
we will do will make any difference compared to what they do? 
So the cost of doing nothing is huge. The cost of getting on 
with observing this planet is very, very small. We just have to 
do it.
    Chairman Udall. Thank you very much.
    Dr. Barron, do you want to have the last word or should we 
leave Rick with it?
    Well, thank you all today for taking your valuable time to 
appear before the Subcommittee. We look forward to future 
visits on the part of all of you.
    At this point I want to announce if there is no objection, 
the record will remain open for additional statements from 
Members and for answers to any follow-up questions the 
Subcommittee may ask of the witnesses. Without objection, so 
ordered.
    The hearing is now adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions

Responses by Michael H. Freilich, Director, Earth Science Division, 
        Science Mission Directorate, National Aeronautics and Space 
        Administration (NASA)

Questions submitted by Chairman Bart Gordon

Q1.  Is there a consensus (among federal agencies, academia, and other 
users) on a set of climate and environmental measurements to which the 
nation should commit for sustained observations? If so, what is the 
set? If not, should there be such a set of consensus measurements and 
what would be involved in reaching consensus?

A1. There is a National consensus on the set of climate variables 
documented in the U.S. Climate Change Science Program CCSP Strategic 
Plan, which are similar to the internationally agreed-upon set of 
Essential Climate Variables of the Global Climate Observing System 
(GCOS) of the World Climate Research Program (WCRP). The set is made up 
of approximately 40 different climate variables covering oceans, 
atmospheres, the cryosphere, the biosphere, and chemistry.
    Overall, the science community has defined a relatively complete 
set of variables and associated observation accuracy for each variable. 
Several reports have also considered and documented the required 
accuracy, stability, and overlap of observations of these variables 
required to observe climate forcing, responses, and feedback (e.g., the 
U.S. multi-agency report from NASA, NOAA, EPA, and NPOESS Ohring et 
al., BAMS September 2005; and, the international GCOS Satellite 
Calibration Requirements Report). While the current observing systems 
are not fully capable of meeting these requirements, the recent 
National Research Council (NRC) Decadal Survey recommended specific 
mission priorities to address this lack of full capability. In 
addition, efforts are underway in NASA's research program to develop 
new methods to prioritize climate observations using Observing System 
Simulation Experiments (OSSEs), a concept analogous to weather 
prediction OSSEs, but based on climate model physics and the ability to 
use climate observations to determine uncertainties in climate model 
predictions.

Q2.  The value of Earth observing satellites lies in the data and 
measurements they collect. Will implementing the Decadal Survey's 
recommended missions require changes to NASA's data management systems? 
If so, what are your plans for making such changes?

A2. NASA's Earth Observing System (EOS) has developed an extensive data 
system architecture capable of handling data ingest, processing, 
quality control, validation, archive, and distribution. The system is 
distributed across major data centers as well as smaller data systems. 
The size of the systems is determined by data volume, processing 
complexity, and user community needs. This distributed system has been 
found to be the most robust and efficient method, and keeps data 
processing as close as possible to the scientific expertise needed in 
its creation, validation, and quality control.
    The missions recommended by the NRC Decadal Survey for Earth 
Science have similar overall data requirements, compared with NASA's 
current EOS and Earth System Science Pathfinder missions, so they would 
be handled in a similar architecture to the current NASA satellites. 
Many of the NRC-recommended satellites do have large data rates and 
processing requirements, so they will represent significant extension 
of capability at current data centers and, in a few cases, may lead to 
new data centers. Data system approaches would be selected to most 
efficiently and robustly accomplish the NRC Decadal Study missions. For 
example, the portion of the Climate Absolute Radiance and Refractivity 
Observatory (CLARREO) mission to extend the Earth radiation budget 
satellite data would extend the capabilities of the EOS-developed 
Clouds and the Earth's Radiant Energy System (CERES) radiation budget 
data system at the NASA Langley Atmospheric Sciences Data Center. Such 
an approach takes full advantage of the previous NASA hardware and 
software development efforts, and ensures a low risk approach to 
achieving the NRC recommended data sets.

Q3.  The decadal survey urges the continuation of the currently 
operating Terra, Aqua, Aura, and SORCE Earth observation satellites for 
as long as possible to help minimize data gaps resulting from the loss 
of NPOESS climate sensors. What is the current plan for continuing 
these missions and how long are they expected to provide data?

A3. As recommended by the NASA Earth Science Senior Review conducted in 
April 2007, the Aqua, Terra, and SORCE missions have been approved and 
budgeted for operation through 2011. The Aura mission is still in its 
primary mission phase, which will end in 2010. All four of these 
missions will be examined for further extension in the next Earth 
Science Senior Review, to be conducted during 2009.
    The Earth Science Division within the Science Mission Directorate 
reviews the status and performance of all of NASA's Earth observing 
missions operating beyond their primary mission every two years as part 
of our Senior Review process. The review process considers the 
satellite performance and instrument health, the value of the 
observations to NASA research objectives, as well as to all National 
operational agencies such as NOAA, the Department of Defense and the 
U.S. Geological Survey, among others. Terra, Aqua and SORCE were 
included in the most recent review, completed in April 2007. Aura was 
not included in the 2007 review because that mission is still in its 
primary mission phase, which will end in 2010. Aura will be included in 
the next review, to be held in 2009. The Senior Review found that the 
satellites and their payloads were operating well with no life-limiting 
factors expected to become important through 2011. The measurements 
from all four missions were found to have continuing value both for 
NASA science and for interagency and national objectives.
    In general, mission and instrument lifetimes depend on many 
factors, from individual instrument performance to spacecraft 
performance. Records show that not many NASA satellites built to 
typical mission standards operate longer than 10 years in orbit. 
However, these four satellites have operated in-orbit for less than 10 
years, the oldest being Terra at 8 years in orbit. The primary life-
limiting factor for these satellites is the available fuel for orbit 
adjustment maneuvers, and there is sufficient fuel for Terra, Aqua, 
Aura, and SORCE to support lifetimes to at least 2011.

Q4.  According to a report of the MODIS Science Team,'' as documented 
in the The Earth Observer publication, ``The use of MODIS data for land 
studies has exceeded even our most optimistic expectations and has been 
an unprecedented success for NASA's terrestrial program.'' Will follow-
on sensors to MODIS have the capability to support the growing number 
of applications derived from MODIS data?

A4. The planned follow-on sensors to MODIS are the Visible-Infrared 
Imager Radiometer Suite (VIIRS) instruments on the NPOESS platforms. 
The VIIRS instruments should have the capability to support most of the 
land applications pioneered by the MODIS data. The one exception to 
this is in the area of active fires. VIIRS has some active fire 
capability, but the current design of VIIRS instrument precludes 
getting active fire data of MODIS quality.

Q5.  In order to understand the science of global climate change, it is 
necessary to constrain the uncertainty in changes in the temperature of 
the sun. Unfortunately, the historical record of measurements of total 
solar irradiance has several unexplained offsets between data sets from 
different satellites, which are thought to be due to inconsistent 
sensor calibration (see, for example, http://www.ngdc.noaaa.gov/stp/
SOLAR/IRRADIANCE/irrad.html).

Q5a.  Does NASA agree that sensor calibration is the culprit in these 
offsets? If so, why did NASA not consistently calibrate sensors on 
previous solar-monitoring missions? If not, what does NASA identify as 
the cause of these offsets?

A5a. Sensor calibration is the only possible cause of these offsets; 
these instruments are monitoring the same Sun at the same time, so 
should provide the same measurement result. No facility has ever 
existed to calibrate these total solar irradiance sensors to the 
desired accuracy levels, although NASA's Glory program is currently 
funding the establishment of such a facility. Fortunately, measurement 
continuity combined with instrument stability has allowed tracking of 
solar variability over this 30-year climate data record despite these 
offsets, the magnitude of which is time-independent, even in the 
presence of shorter-term variability in the sun's output.

Q5b.  How will NASA ensure that the solar irradiance sensors to be 
flown on Glory and any future missions will be accurately calibrated 
and will stay calibrated, so that the data they collect on total solar 
irradiance will be scientifically useful for climate change analysis?

A5b. Despite the instrument offsets, the existing total solar 
irradiance (TSI) record is already scientifically useful for climate 
change analysis because of data continuity and good instrument 
stability. The Glory mission and future missions are intended to 
maintain such data continuity with on-orbit tracking of instrument 
stability. The Glory mission and future missions will also improve 
instrument accuracy via improved sensor calibrations and end-to-end 
testing by the new TSI Radiometer Facility planned as part of the Glory 
program.

Q5c.  What is the current technical uncertainty on long-term changes in 
total solar irradiation? How will Glory and other future solar-
monitoring missions change this uncertainty?

A5c. The current technical uncertainty on long-term changes in solar 
radiation is limited by instability of some of the early instruments. 
These limit the current technical uncertainty to about 0.004 percent 
per year from the data record going back to 1978. Since the early 
1990s, instruments are more stable, with on-orbit tracking providing 
0.001 percent per year uncertainty.
    The Glory mission and other future solar-monitoring missions, as 
well as some currently operating missions such as SORCE, improve this 
uncertainty with better instrument stability. Improved accuracy on 
Glory and the new calibration facility, which will provide a baseline 
against which future instruments should be compared, will maintain a 
connection to the existing irradiance record across potential data 
gaps. Improved absolute accuracy with Glory will also better allow 
detection of solar changes over an extended time period by establishing 
current-day benchmark irradiance measurements.

Questions submitted by Chairman Mark Udall

Q1.  What specifically will NASA do to maintain the Total Solar 
Irradiance Sensor (TSIS) instrument team for the remainder of Fiscal 
Year 2007 and through 2008?

A1. The TSIS performs two basic measurements: total solar irradiance 
using the Total Irradiance Monitor (TIM) and solar spectral irradiance 
using the Spectral Irradiance Monitor (SIM). These measurements are 
fundamental to discriminating and quantifying natural versus 
anthropogenic contributions to climate change. In January 2007, NASA 
and NOAA delivered a joint report to the Office of Science and 
Technology Policy (OSTP) addressing the impacts of the NPOESS Nunn-
McCurdy Certification on climate measurement goals. In this report, 
NASA and NOAA determined that continuing the TSIS measurements had the 
highest priority. The TSIS instrument is built by the Laboratory for 
Atmospheric and Space Physics (LASP) of the University of Colorado in 
Boulder, Colorado.
    Continuous measurement of the total solar irradiance dates back to 
the Earth Radiation Budget instrument launched on the NASA Nimbus-7 
mission in 1978 and the measurement of the solar spectral irradiance 
dates back to the SIM instrument on the NASA Solar Radiation and 
Climate Experiment (SORCE) mission launched in 2003. The SORCE mission 
presently provides both measurements. The measurement of the total 
solar irradiance will be continued by the TIM on the NASA Glory mission 
to be launched late in 2008.
    NASA presently supports the TSIS instrument team through the SORCE 
and Glory missions. These funds are as follows in millions of real-year 
dollars.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Following the NPOESS Nunn-McCurdy Certification decision in June 
2006 that de-manifested the TSIS instrument, NASA and NOAA have worked 
together to identify various options for retaining total and spectrally 
resolved solar irradiance and other important measurement capabilities 
de-manifested from NPOESS. Options are presently under consideration by 
NASA and NOAA, through a process being led by the OSTP.

Q2.  Your testimony notes that NASA's response to Sections 313 and 314 
of the NASA Authorization Act of 2005 has been to incorporate the 
requirements of the Act into NASA's recent research grant solicitation. 
Could you please describe how NASA's applications grants program, which 
focuses on projects that are ``national in scope,'' responds to the 
intent of the Act?

A2. NASA's applications grants program, known as the Earth Science 
Division Applied Sciences Program, recognizes that environmental 
decision-making, resource management, and disaster response most often 
resides at the regional, State, local and tribal agency levels--it is 
imperative that the program work at these levels if it is to have 
impact. The need to work at all levels of government--and across a 
broad range of application areas--presents a challenge to the Applied 
Sciences Program, which is a small program that is managed out of NASA 
Headquarters in Washington, DC. NASA is addressing this challenge in a 
number of ways outlined below.
    First, in order to maximize NASA's impact (and in keeping with our 
federal role), the Agency supports projects that are national in scope; 
that is to say, projects are required to be applicable beyond a one-
time application in a single locality. By doing this, NASA is serving a 
state or locale through the development and demonstration of an Agency 
capability and at the same time, NASA is laying the groundwork for 
making that capability available at a national level. In addition, NASA 
has many projects that only involve federal partners, but will have an 
impact in all 50 states. For example, NASA is working with the Federal 
Aviation Administration (FAA) and the National Oceanic and Atmospheric 
Administration (NOAA) to improve weather prediction for airplane 
travel.
    Second, since NASA does not have direct connections to decision-
makers and operational agencies at the State, local, and tribal levels, 
the Agency uses all available avenues to reach them. Many of our 
federal partners, such as Environmental Protection Agency (EPA), U.S. 
Department of Agriculture, and the Department of the Interior (DOI), 
provide direct access to their regional and state branches, who are 
directly involved in decision-making at those levels. In addition, we 
utilize both NASA centers and universities through our competitive 
solicitations to make connections in their localities. NASA also makes 
linkages through regional governmental organizations, such as the Gulf 
of Mexico Alliance and the Western Governors Association--these provide 
an excellent mechanism for reaching potential end-users and for 
understanding the needs of a region.
    Finally, NASA participates in national organizations of State 
government officials, such as National States Geographic Information 
Council (NSGIC), to facilitate matching their needs and federal 
capabilities.

Q2a.  How many remote sensing pilot projects that specifically address 
State, local, regional, and tribal agency needs has NASA's grants 
program supported?

A2a. The NASA Earth Science Division Applied Sciences Program currently 
sponsors 83 competitively selected projects that are in various stages 
of maturity, nearly all of which extend NASA research capabilities to 
help decision-makers serve citizens at the local, State and regional 
levels. Of these 83 active solicited projects, 27 are working directly 
with local/State authorities in 25 different states to solve their 
problems. This number is expected to increase with the projects that 
will be selected under the ``Decisions 2007 under ROSES'' open 
solicitation. A copy of this solicitation can be found at: (http://
nspires.nasaprs.com/external/viewrepositorydocument/77336/
A.20%20Decision%20Support.pdf).
    Specific language from Section 313 of the NASA Authorization Act of 
2005 (P.L. 109-155) was used in the ROSES solicitation to guide the 
investigators, partners, and peer reviewers on the priorities of the 
program.

Q2b.  Have any workshops presenting the results of pilot projects been 
held?

A2b. All of Earth Science Division Applied Sciences Program's 
competitively selected projects are required by contract to formally 
report their results at the completion of their period of performance. 
In addition, dissemination of both results and lessons learned through 
workshops, professional meetings, and other venues is very important 
for the success of our projects and our program. NASA has found that a 
practical and effective way to disseminate information on results and 
lessons learned is through topical workshops that are organized by the 
Applied Science Program and where all of the appropriate Applied 
Science projects meet with stakeholders and potential partners to both 
assess their needs and to disseminate project results and lessons 
learned. This past year we have conducted workshops on applications 
topics including Air Quality, Fisheries, Public Health, Disaster 
Management, and Ecosystems Management.
    NASA requires that all Applied Science Program projects plan to 
participate in workshops for this purpose. For example, NASA included 
the following language in the 2007 Solicitation, ``Decision Support 
through Earth Science Research Results'':

         Workshop

         The project should plan to travel and participate in a 
        Program-sponsored results conference to disseminate the lessons 
        learned from the project as widely as feasible. The Applied 
        Sciences Program will coordinate this activity with project 
        team during the course of the project; however, the project 
        should budget accordingly to attend this event.

    In addition to conducting workshops at the project and program 
levels, Applied Sciences program managers and grantees attend regional, 
State, and professional society workshops and participate in 
interagency working groups such as the Gulf of Mexico Alliance, 
Commercial Remote Sensing Space Policy Senior Management Oversight 
Committee, and the Subcommittee on Disaster Reduction.

Q2c.  Has the specific advisory group called out in Sec. 314 been 
established? If not, why not?

A2c. NASA is investigating establishment of an Advisory Group that will 
report up through the NASA Earth Science Advisory Committee, which is 
part of the formal NASA Advisory Committee (NAC). NASA expects that the 
Applied Sciences advisory group, pursuant to Section 314, will be 
established by the end of this calendar year.
    In the meantime, NASA has been seeking external advice on the 
program through National Academies of Science (NAS) Space Studies 
Board. A review, entitled ``Review of NASA's Earth Science Enterprise 
Applications Program Plan (2002),'' was completed in 2002. This was 
followed by a second review, entitled ``Extending Observations and 
Research Results to Practical Applications: A Review of NASA's 
Approach, which has been underway since the fall of 2005.'' The NAS has 
indicted that this report will be published before the end of September 
2007.

Q3.  Your testimony notes that NASA will ``preserve and expand the 
preeminent research and analysis, applied sciences, technology 
development and educational programs that distinguish the NASA Earth 
Science endeavor.'' In specific terms, how do you plan to expand the 
programs, given your five-year budget profile, and when?

A3. The recently released draft of the National Research Council's 
Decadal Survey for Earth Science will become the basic guide to future 
activities as described in the NASA testimony. NASA intends to follow 
the recommendations of the Decadal Survey to the extent that the 
available budget will permit. In this process, the Agency's primary 
objective is to implement the most useful science that we can 
accomplish within the framework of our existing programs. Expansion 
will be pursued only where it is driven by the highest quality science 
and consistent with the available budget.

Q4.  You testified, ``the Earth Science Subcommittee of the NASA 
Advisory Council annually examines the split of activities and assesses 
our scientific performance.'' When was the last Earth Science 
Subcommittee assessment of the Earth Science Division's performance and 
could you, please provide a copy of that assessment for the record?

A4. The NASA Administrator established the Earth Science Subcommittee 
in early 2006 with the following terms of reference: ``The Earth 
Science Subcommittee (ESS) is a standing subcommittee of the NASA 
Advisory Council (NAC); it also supports the advisory needs of the 
Science Mission Directorate (SMD). The scope of the Subcommittee 
includes the advancement of scientific knowledge of the Earth system 
through space-based observation and the pioneering use of these 
observations including process studies, data assimilation and modeling 
to ultimately enable improved prediction of climate variability and 
change, weather and natural hazards. In addition to scientific 
research, the scope encompasses the development of enabling 
technologies, systems, computing and information management 
capabilities, including those with the potential to improve future 
operational systems.''
    The ESS has met five times since its establishment. The times and 
main topics on the ESS discussion are summarized below. The agenda and 
reports to the NAC from the June 2007 are provided for the record. 
Records of previous subcommittee meetings, including summaries of 
findings and minutes, are publicly available at: http://
science.hq.nasa.gov/strategy/NAC<INF>-</INF>sci<INF>-</INF>subcom/
index.html.

        1.  May 3-4, 2006--ESS discussion and recommendation on 
        allocation of resources within ESD and assessment of balance. 
        Also, ESS discussion on ESD roadmapping.

        2.  July 6-7, 2006--ESS review of SMD draft Science Plan.

        3.  September 27-28, 2006--ESS review of ESD Science Plan; 
        review of NPOESS restructuring efforts.

        4.  February 27-28, 2007--ESS review of ESD Decadal Survey 
        early assessment and ESD preparatory mission concept studies; 
        lunar science workshop participation.

        5.  June 12-13, 2007--ESS review of ESD planning for Community 
        workshops relating to the earliest group of the Decadal Survey 
        missions; review and assessment of selected Annual Performance 
        Goals (APG).

    Regarding the APG review, the ESS was asked to support the NASA-
wide process of developing the FY 2007 Performance and Accountability 
Report to Congress. The ESS reviewed ESD material relevant to six APGs, 
one of each science focus areas. The material reviewed constitutes 
peer-reviewed results of ESD funded research activities. The considered 
APGs are pertinent to the Research and Analysis Program. [See 
Attachment A, Earth Science Subcommittee Report.]

Q5.  What was the original objective of the Earth System Science 
Pathfinder (ESSP) program, and how, if at all, has the objective for 
the program changed?

A5. The ESSP program, within the NASA Earth Explorers Program, was 
originally intended to provide frequent, flexible opportunities for 
rapid-development flight missions focused on specific Earth science 
investigations. ESSP missions were to be focused on:

        <bullet>  Acquiring key additional measurements in response to 
        new scientific understanding, including exploiting scientific 
        discoveries from facility-class missions;

        <bullet>  Proving the concept and scientific utility of new 
        data sets and measurement approaches; and/or,

        <bullet>  Ensuring the continuity of critical measurement time 
        series (i.e., ``gap filler'' missions for critical data sets).

    The ESSP program was intended to:

        <bullet>  Provide frequent, predictable opportunities for 
        training new investigators and ensuring the continued broad 
        involvement of the scientific community in the overall 
        development of ESE satellite projects;

        <bullet>  Encourage direct involvement of university faculty 
        and students in all aspects of ESE flight mission planning and 
        implementation, and expand the base of academic institutions 
        that have the capability (through experienced faculty) to 
        manage satellite-related technical projects; and,

        <bullet>  Foster development of innovative teaming arrangements 
        that optimize the contributions and minimize the costs of 
        industry, university, and government partners. (from the NRC 
        PI-led mission report, ``Steps to Facilitate Principal-
        Investigator-Led Earth Science Missions'' of which Dr. Michael 
        Freilich was an author)

    ESSP missions are characterized by: Competitive selection; overall 
mission life cycle cost constraints (generally small-to-medium missions 
only); PI-led, focused science objectives defined and managed by the 
Principal Investigator; and, relatively rapid development (although 
this has not been achieved). The overall goals of the ESSP program have 
not fundamentally changed.

Q5a.  When was the last solicitation for an ESSP mission issued, and 
what are the plans for the frequency of future solicitations?

A5a. The last NASA Announcement of Opportunity (AO) for ESSP missions 
was the ESSP-3 AO, released in 2001 (earlier solicitations were 
released in 1996 and 1998). The Orbiting Carbon Observatory (in 
development to be launched in late 2008) and Aquarius (in development 
to be launched in mid-2010 in collaboration with the SAC-D mission of 
the Argentine Space Agency CONAE) missions were chosen from the ESSP-3 
AO solicitation, with Hydros selected for initial development as a 
backup should one of the two primary missions not be developed 
successfully. The President's FY 2008 budget request includes funding 
for a new ESSP mission to be solicited in late 2008, with launch no 
earlier than 2014.

Q5b.  The decadal survey recommends that ESSP missions be replaced with 
low-cost research and applications missions that ``focus on fostering 
revolutionary innovation and training future leaders of space-based 
Earth science and applications.'' What is NASA's response to this 
recommendation?

A5b. The recommendation to establish a ``Venture Class'' program to 
solicit competitive, ultra-low-cost ($100 to $200 million) missions or 
instrument flight opportunities annually or bi-annually will be 
considered along with the other recommendations of the Decadal Survey 
for Earth Science as part of the NASA FY 2009 budget formulation 
process. NASA will be guided by the community consensus, high-priority 
science issues identified by the Decadal Survey, and will design the 
most efficient program possible to advance the identified science 
issues and maintain the balanced, broad program called for by the 
Survey.

Q6.  Your testimony indicates that NASA is ``planning a comprehensive 
review of the [applied sciences] program to ensure that is aligned with 
the NAS Decadal survey recommendations.'' What will that review entail, 
who will conduct it, and what is the schedule?

A6. The Applied Sciences Program's new leadership is currently 
conducting a multi-step review of the entire program, including program 
structure and management, in light of the recommendations made in the 
Decadal Survey with respect to applications, as well as the upcoming 
National Academy of Sciences report that specifically addresses NASA's 
approach to applications (see the answer to Question 2c). First, an 
informal review is taking place through program reviews at NASA 
Headquarters, visits to the NASA field centers (reviews have taken 
place so far at Ames Research Center, Goddard Space Flight Center, 
Stennis Space Center, and Langley Research Center), and through 
presentations of individual projects by investigators. Second, formal 
peer reviews of selected projects will take place this fall. Third, a 
formal programmatic review will take place upon formation of the new 
Applications Advisory Group in early calendar 2008 (also discussed in 
Question 2c). This formal review will include both the current program 
and proposed future strategic direction that the program is 
considering.

Q7.  When will NASA deliver the NASA-NOAA Research to Operations Joint 
Working Group report, as directed in Section 306 of the NASA 
Authorization Act, to Congress?

A7. The report required pursuant to Section 306 of the NASA 
Authorization Act of 2005 (P.L. 109-155) was delivered to the relevant 
Committees on July 10, 2007.

Q8.  You testified that NASA is ``letting four contracts for LDCM and 
they are in the process of being advertised right now and the 
interaction between them and the technical addition of TSIS will govern 
our schedule and our decisions.''

Q8a.  Does the original accommodation study awards issued to the four 
contractors require them to address the potential accommodation of TSIS 
and any other sensors (other than OLI)? If not, was a change to the 
contract made to address those issues?

A8a. The original accommodation study awards issued to the four 
spacecraft contractors within the Landsat Data Continuity Mission 
(LDCM) project include options to study interfacing other sensors, in 
addition to the Operational Land Imager (OLI), to the LDCM observatory. 
These study options have been initiated and all four spacecraft 
contractors are in the process of analyzing the manifest of the TSIS on 
the LDCM.

Q9.  What are the technical differences between the requirements issued 
for the Operational Land Imager (OLI) instrument for the Landsat Data 
Continuity Mission (LDCM) and the capabilities of the Enhanced Thematic 
Mapper on the Landsat 7 spacecraft?

A9. The differences between capabilities of the Enhanced Thematic 
Mapper (ETM) on the Landsat 7 and the requirements for the LDCM-OLI 
include the following enhancements for OLI: an additional band for 
coastal zone science; an additional band for cloud detection; and, an 
enhancement to a band to make images clearer. Thermal imaging 
capability is not part of the OLI baseline capability. Thermal 
capability has been investigated as an optional separate instrument 
that would operate concurrently with the OLI. Following extensive 
analysis and assessment of alternatives for thermal image data 
capability, NASA has determined that the current budget profile cannot 
support the acquisition of the thermal capability for LDCM.

Q9a.  Did the RFP for the OLI include the option of including thermal 
imaging bands?

A9a. No. The thermal capability was scoped as a separate optional 
instrument.

Q9b.  Is NASA analyzing alternatives to LDCM for acquiring thermal 
imaging data such as instrument flight on other platforms, data 
purchases, or access to data obtained from any international satellites 
that could provide comparable thermal imaging data?

A9b. The required performance for the Landsat thermal data is not 
immediately available in proven form from any current source. NASA is 
assessing international collaboration to potentially provide the 
thermal capability.

Q10.  What plans does NASA have to ensure that scientists would have 
information on instrumentation details, engineering data, and the like 
to ensure that data provided from international instruments are of 
research quality?

A10. NASA has supported the U.S. Geological Survey (USGS) in the 
definition of a range of Landsat performance specifications that define 
LDCM performance (spectral bands, radiometry, spatial resolution, 
geographic registration, and geographic coverage) and a lower end 
baseline specification. Data meeting the Baseline Specification would 
replace (in quantity and quality) only a portion of the Landsat data 
stream should Landsat fail, but such data may also be useful as an 
ongoing augmentation of the Landsat Data Continuity Mission (LDCM), 
currently projected to launch sometime in 2011. Acquired data must be 
characterized and verified against these specifications to ensure data 
quality and continuity. NASA will support USGS to ensure that acquired 
data is characterized and verified.
    NASA has a rich history of working with international partners on 
joint mission development, and on instrument data exchange and 
availability for U.S. scientists' research and educational use. NASA 
makes such data products supplied from an international partner 
available under terms and conditions required by the appropriate 
Memorandum of Understanding (MOU). Where data are available through 
NASA data systems, instrumentation details, engineering data, and 
documentation on data accuracy are also available and supplied with the 
data. NASA works through the Committee on Earth Observation Satellites 
(CEOS) to promote more generally agreement and implementation of 
standards both for instrument data documentation availability, and for 
instrument calibration and validation procedures. CEOS membership 
encompasses the world's government agencies responsible for civil Earth 
Observation (EO) satellite programs, along with agencies that receive 
and process data acquired remotely from space. Within CEOS working 
groups, international projects are voluntarily undertaken for 
coordination of resources for data availability, and for inter-
calibration of like instruments using in situ instrumentation by the 
appropriate space agencies.

Questions submitted by Representative Tom Feeney

Q1.  In his statement, Dr. Anthes asserted that ``we are faced with an 
Earth observation program that will dramatically diminish in capability 
over the next 10-15 years. . . Between now and the end of the decade, 
the number of operating missions will decrease dramatically, and the 
number of operating sensors and instruments on NASA spacecraft. . .will 
decrease by some 35 percent, with a 50 percent reduction by 2015.'' Do 
you agree with this assessment?

A1. NASA is presently operating an impressive set of 14 Earth-observing 
spacecraft carrying over 50 instruments. In addition, the President's 
FY 2008 budget request includes funding for an additional seven 
identified Earth observing missions to launch between 2008 and 2014, 
and funding for a small to medium Earth System Science Pathfinder 
(ESSP) mission, which will be solicited for competitive selection late 
in FY 2008 with flight in the 2014-2015 timeframe. The National 
Research Council (NRC) Earth Science Decadal Survey identifies 15 new 
missions to address key Earth system science research issues over the 
next 10 to 15 years.
    While 11 of NASA's 14 currently operating missions are indeed 
beyond their baseline lifetime, they continue to operate well and to 
provide high quality measurements for the research and operational 
communities. From February to April 2007, NASA's Earth Science Division 
conducted the biennial ``Senior Review'' to examine Earth observing 
missions operating beyond their baseline mission. After careful 
technical analysis, both the operations and science panels in the 
Senior Review concluded that all 11 of the operating missions were 
returning valuable data and were not suffering from imminent mission-
threatening technical problems. Consequently, the Senior Review 
recommended that NASA continue to fund operations and science analyses 
for all of these missions for at least two more years.
    The President's FY 2008 budget request contains funding for the 
development and launch of seven new Earth observing missions between 
2008 and 2014:

        <bullet>  OSTM (Ocean Surface Topography Mission; June 2008 
        launch) to continue the time series of precision global ocean 
        sea level measurements initiated by TOPEX/Poseidon in 1992 and 
        presently obtained by JASON-1;

        <bullet>  OCO (Orbiting Carbon Observatory; December 2008 
        launch) to initiate global measurements of atmospheric carbon 
        dioxide and to identify, for the first time, regional (1000 km 
        spatial scale) sources and sinks of CO<INF>2</INF>;

        <bullet>  Glory (December 2008 to March 2009 launch) to 
        continue the 26-year consistent time series of solar irradiance 
        measurements and to initiate global measurements of atmospheric 
        aerosol concentration and scattering properties;

        <bullet>  Aquarius (July 2009 launch) to make first-ever, 
        global measurements of ocean surface salinity;

        <bullet>  NPP (NPOESS Preparatory Program; September 2009 
        launch) to continue the time series of key EOS sensor 
        measurements, and to provide risk-reduction for the tri-agency 
        NPOESS operational satellite system;

        <bullet>  LDCM (Landsat Data Continuity Mission; July 2011 
        launch) to continue the 30-year long record of moderate-
        resolution land imaging; and,

        <bullet>  GPM (Global Precipitation Measurement Mission; June 
        2013 and June 2014 launches) to extend to the entire globe the 
        present measurements of tropical precipitation from the 
        presently operating Tropical Rainfall Mapping Mission (TRMM), 
        allowing accurate, global rainfall measurements every three 
        hours.

    In addition to these seven missions comprising eight launches 
between 2008 and 2014, the FY 2008 budget request also includes funding 
for a small to medium Earth System Science Pathfinder (ESSP) mission, 
which will be solicited for competitive selection late in FY 2008 with 
flight in the 2014-2015 timeframe.
    The NRC Earth Science Decadal Survey, which was released just three 
weeks prior to the FY 2008 budget submission, identifies 15 additional 
Earth observing missions for NASA in the 2010-2022 timeframe.

Q2.  What are your views regarding the mission cost estimates included 
in the Earth Sciences Decadal Survey? Are they credible?

A2. NASA's Earth Science Division conducted detailed Center-based 
technical and cost ``concept studies'' for each of the missions 
identified for NASA in the Decadal Survey. These studies identified 
technical challenges and developed cost estimates which include 
realistic launch service costs and the mission operations and science 
analysis costs associated with each mission. The results of each of 
these studies are being confirmed with independent cost estimates.
    In cases where mission designs are well established, technological 
risks are low, and significant previous NASA investment has been made 
to understand the missions, mission cost estimates in the Decadal 
Survey are relatively close to the cost estimates of ongoing NASA 
mission concept studies. In other cases, the preliminary studies 
suggest substantial differences between the detailed NASA studies and 
the estimates developed by the NRC.

Q3.  The Decadal Survey highlighted the importance of developing a 
strategy to transition technologies from NASA to operational systems. 
How is transition managed today? What steps can NASA take to improve 
technology transition between researchers and the applications 
community?

A3. Transition of satellite measurement capability from research to 
operations has been, and remains, challenging. NASA developed and 
demonstrated several of the instruments and measurement concepts that 
form the foundation for the present National Oceanic and Atmospheric 
Administration (NOAA) and Department of Defense (DOD) operational 
weather satellite systems, such as the Advanced Very High Resolution 
Radiometer (AVHRR) and the Special Sensor Microwave Imager (SSM/I) 
multi-channel microwave radiometer flown on the DOD Defense 
Meteorological Satellite Program. Joint work between NASA and NOAA has 
resulted in processes that allow near-real-time measurements from the 
research missions to be merged with data from NOAA operational 
satellites that result in enhanced operational weather predictions 
(e.g., QuikSCAT; TRMM; AIRS; MODIS fire products; JASON-1). Other 
instruments that have transitioned from research to operations include 
the Solar X-Ray Imager which currently flies on NOAA Geostationary 
Operational Environmental Satellites. Work is ongoing to transition an 
on-orbit lightning capability onto NOAA's next generation GOES-R 
series.
    Following recommendations from National Research Council reports 
(e.g., the 2003 report of the Committee on NASA-NOAA Transition from 
Research to Operations) and the NASA Authorization Act of 2005 (P.L. 
109-155), a NASA-NOAA Joint Working group has been re-established and 
has addressed a wide range of issues associated with research-to-
operations transitions. NOAA and NASA are also discussing approaches to 
initiating joint NASA-NOAA program(s) focused on developing new 
instruments for operational services. Other focused groups such as the 
NOAA-NASA-DOD Altimeter Working Group meet bimonthly to coordinate 
research, civil, and defense operational measurement systems to acquire 
global sea-level height and wave condition measurements.
    The NASA Applied Science Program is focused specifically on working 
with applications mission agencies (such as the Federal Aviation 
Administration, Department of Homeland Security, Environmental 
Protection Agency, etc.). In this way, the Applied Science Program 
efficiently transitions the knowledge gained through NASA Earth science 
missions and the research and analysis program, into information 
directly useful to other mission agencies with national or super-
regional scope.

Q4.  To what degree are the governments of large developing countries, 
such as China and India, taking an interest in climate change research 
and attempting to mitigate further damage to the environment? Do they 
acknowledge that climate change may be, in part, a consequence of human 
activity? Has a credible estimate been developed on the amounts of some 
pollutants ' released into the atmosphere by these countries?

A4. Perhaps the best indicator of the interest taken by the governments 
of large developing countries, such as China, India, and Brazil, in the 
issue of climate change and associated research is the very active role 
they play in the Intergovernmental Panel on Climate Change (IPCC), the 
leading international forum on this issue. Based on reported 
discussions at recent IPCC meetings, it is clear that these nations 
acknowledge a connection between human greenhouse gas emissions and 
climate change. However, they also reportedly seek the acknowledgement 
from developed nations that those nations that industrialized first 
shoulder a greater responsibility for the current atmospheric 
greenhouse gas levels than do nations which industrialized later. These 
nations are also reportedly concerned about the cost of reducing 
greenhouse gas emissions to developing economies. Another indicator of 
the interest taken by the Indian government in this area is the 
bilateral Climate Change Partnership between the United States and 
Indian governments. Formed in 2002, this partnership provides a forum 
for both nations to engage in domestic and international efforts to 
address the issue of Climate Change, including looking at new 
technologies and policies aimed at reducing greenhouse gas emissions. 
With regard to assessing the release of pollutants into the atmosphere, 
NASA's Earth-observing missions and NASA-funded research studies are 
providing unique, quantitative, global measurements of atmospheric 
constituents which play key roles in determining air quality as well as 
influencing climate change. While many space-based global measurement 
sets have not, to date, provided the high-resolution and frequent 
measurements required for determining the compositions and magnitudes 
of sub-regional pollution sources, advanced analyses applied to recent 
measurements from the NASA Aura mission have provided first-ever 
quantitative data on pollutant levels at regional and national scales. 
For example, sophisticated NASA-developed algorithms allow accurate 
global measurements of column sulfur dioxide (a key industrial 
pollutant generated from smelters and electrical generation plants and 
the source of ``acid rain'') on scales of thousands of kilometers, from 
the Ozone Measuring Instrument on the Aura mission. These measurements 
show that in 2005, Chinese factories emitted 2.5 million tons of sulfur 
dioxide into the atmosphere, an increase of more than 27 percent over 
the estimated Chinese emission levels in 2000. The Orbiting Carbon 
Observatory, to be launched by NASA in late 2008, will provide first-
ever global measurements of atmospheric carbon dioxide sources and 
sinks on scales as small as 1000 km (628 miles). NASA's role is to 
advance Earth System science through Earth observing research satellite 
missions, and vigorous analysis and modeling efforts to elucidate key 
Earth system processes and the interactions between them. While these 
measurements form the foundation for many scientific and policy 
analyses, NASA itself does not conduct policy studies.

Attachment A:

                   Earth Science Subcommittee Report

                        June 12-13, 2007 Meeting

                           NASA Headquarters

From: The NASA Earth Science Subcommittee - Daniel J. Jacob (Chair, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791d13181a161b391f180a5711180b0f180b1d571c1d0c">[email&#160;protected]</a>), Roni Avissar, John R. Christy, Lisa Curran, 
Jonathan Foley, James Hansen, Gregory Jenkins, John Jensen, Patricia 
Matrai, Julian McCreary, Jean-Bernard Minster, Michael Ramsey, Kamal 
Sarabandi, Mark Simons, Konrad Steffen, Edward Zipser

To: Edward David, Jr. (Chair, NAC Science Committee)

Cc: Greg Williams (NAC Science Committee Executive Secretary), Michael 
Freilich (ESD Director), Bryant Cramer (ESD Deputy Director), Jack Kaye 
(ESD Associate Director for Research), Theodore Hammer (ESD Associate 
Director for Flight Program), Teresa Fryberger (Associate Director for 
Applied Sciences), Lucia Tsaoussi (ESS Executive Secretary)

Date: June 28, 2007

Dear Dr. David:

    The Earth Science Subcommittee (ESS) met on June 12-13, 2007 at 
NASA Headquarters. We received updates on ESD (Michael Freilich) and 
NPOESS (Bryant Cramer), and briefings on (1) the sub-orbital program 
(Andy Roberts), (2) the technology program (Amy Walton), and (3) the 
upcoming community workshops aimed at defining the first wave of 
satellite missions from the NRC Decadal Survey. We reviewed and graded 
the FY 2007 Earth Science Performance and Accountability Report, and 
discussed the Lunar Science Workshop Report as well as the response of 
the NAC to our March 2007 recommendation for an Earth Science 
Initiative.
    The central recommendation from our March 2007 letter to the NAC 
was for an Earth Science Initiative to enable ESD to implement the 
program of missions designed by the NRC Decadal Survey (DS) and which 
we fully endorsed. We pointed out that the bleak long-term outlook for 
ESD funding does not allow for implementation of the DS and recommended 
that resources for an Earth Science Initiative be found, either within 
or outside NASA, in order to implement the DS--corresponding to a 30 
percent increase of ESD budgets, i.e., a return to 2000 funding levels. 
We were disappointed that the NAC decided not to forward the 
recommendation to the Administrator, despite the support from the NAC 
Science Committee, on the grounds that requesting new funding was 
outside the charter of the NAC. But this apparent technicality leaves 
unsolved the problem of how NASA is to respond to the DS. At a time of 
great public concern over global change, NASA cannot just bury its head 
in the sand.
    The DS calls for 14 strategic missions (typically in the $500M 
range) to be launched over the 2010-2020 period. It also calls for a 
new class of Venture missions in the $100-200M range to foster the 
development of new ideas. The ESD budget outlook going out to 2014 
offers opportunities for just two strategic missions, and has no line 
for Venture missions. ESS scrutinized the ESD budget and received 
briefings on all its major components. We do not see how the current 
budget could be reconfigured to enable more effective implementation of 
the DS. The hard truth is that the 30 percent budget cut that ESD has 
suffered since 2000 incapacitates it from developing new initiatives. 
The DS indicates that its slate of 14 missions would be fully doable if 
ESD funding were restored to 2000 levels. Implementation of the DS 
requires new resources from an Earth Science Initiative to start in 
FY09 at the latest.
    We are concerned that NASA may feel that it has properly responded 
to the DS if it launches say the first wave of four DS missions over 
the next decade. In fact, the ensemble of 14 missions for the next 
decade put forth by the DS represents a carefully crafted synergistic 
ensemble, and the DS specifically warns against piecemeal selection of 
missions. The DS Executive Summary states: ``In the event of budget 
shortfalls, re-evaluate the entire set of missions given an assessment 
of the current state of international global Earth observations, plans, 
needs, and opportunities. Seek advice from the broad community of Earth 
scientists and modify the long-term strategy rather than dealing with 
one mission at a time.'' We will face this situation in FY09 unless an 
Earth Science Initiative is implemented. We remain hopeful that 
resources for such an Initiative will be found, either through the 
Congressional allocation of FY08 or through the Administrator's request 
in FY09.
    We ask the NAC to advise the Administrator that in the absence of 
an Earth Science Initiative in place by FY09 to implement the NRC 
Decadal Survey, NASA will have defaulted on its implementation of the 
DS and will need to re-think its whole Earth science strategy with 
input from the broad scientific community. This would represent a major 
failure and we remain hopeful that positive action will be taken over 
the next year.
    The current NPOESS debacle has further heightened the crisis for 
Earth observation from space. The NPOESS climate sensors TSIS, APS, 
OMPS-Limn, ERBS, and ALT were de-manifested as part of the recent Nunn-
McCurdy Certification. CMIS was partly maintained but with reduced 
capability--if it loses its capability to measure microwave surface 
temperatures (that was not clear to us), then it will be of little use 
as a climate sensor. A positive development is that OSTP tasked NASA 
and NOAA to examine options for recovering the ensemble of NPOESS 
climate measurements through other means. As we have stated in previous 
letters, long-term, continuous, well-calibrated measurements of key 
climate variables from space are critical for monitoring climate 
variability and change and for testing our understanding of the same. 
ESD shared with us four options presently under consideration in their 
joint discussions with NOAA. Options 1 and 4 involve restoration of the 
climate sensors on later NPOESS satellites, while options 2 and 3 
abandon the association with NPOESS and instead rely on ``climate free-
flier'' satellites to carry the climate sensors. Options 2 and 3 seem 
to us the best choices cost-wise and to avoid being hostage to the 
NPOESS program. We recommend that long-term monitoring of climate 
variables from space be conducted from ``climate free-fliers'' (options 
2 and 3 of the NASA/NOAA White Paper) for reasons of both reliability 
and cost.
    ESD will hold community workshops over the next month to better 
define each of the four notional missions representing the first wave 
(2010-2015) of DS missions (CLARREO, SMAP, ICESat-II, DESDynI). The 
workshop chairs briefed us on their plans. We were impressed by their 
dedication and by the dynamic that these workshops represent for 
implementing the DS. We have two major comments for their 
consideration.
    (1) The CLARREO presentation implied that CLARREO should be 
considered as a sustained measurement, but this would have cost 
implications beyond those estimated by the DS. An important decision to 
be made at the CLARREO workshop is whether or not the mission entails a 
long-term commitment to spectrally resolved thermal IR measurements, as 
this will greatly affect the cost of the mission. If long-term 
commitment is required, there should be a strategy for transition from 
research to operations that will enable projection of the long-term 
impacts on ESD budgets.
    (2) Consideration should be given to different configurations of 
the DESDynI and ICESat-II sensors. The DS combined the surface 
deformation InSAR and vegetation structure laser altimeter into one 
notional mission (DESDynI), but called also for further analysis of 
whether this combination was viable and whether a better combination 
might be achieved with the ICESat-II laser altimeter. There will be 
differences in the optimal orbits for each of these instruments, but is 
it possible to settle for a less-than-optimal orbit in order to enable 
joint launch at considerably lower cost? These issues should be 
addressed at the DESDynI and ICE-Sat-II workshops. We recommend that 
ESD keep an open perspective on the opportunities for different 
configurations of the L-band InSAR, the vegetation laser altimeter, and 
the ice surface altimeter onto common satellite platforms for purposes 
of cost reductions. We encourage cross-participation in the ICESat-II 
and DESDynI community workshops.
    We reviewed the outcomes of the February Lunar Science Workshop and 
in particular the recommendations for Earth Science. We were pleased to 
see a strong statement in the workshop report that recommendations for 
missions enabled by the lunar architecture must be vetted through a NRC 
Decadal Survey or similar process. We were pleased to see a strong 
affirmation of the value of Earth science observations from the Moon. 
As noted in the report, the current proposed site for the polar base is 
an issue because of its limited view of the Earth, and an outpost at 
Mt. Malapert with much better Earth viewing capability would address 
this issue. We wish to emphasize that satellites at the Earth-Moon L1 
point supporting lunar operations would also represent ideal platforms 
for observing the Earth.
    We received a briefing on the ESD sub-orbital program from manager 
Andy Roberts. We had expressed concern in the past that this important 
program was lacking direction. We were pleased to see a strong 
articulation of the main purposes of the sub-orbital program within 
ESD: (1) satellite cal/val including science-directed, (2) new sensor 
development, (3) process studies. We were pleased to see the value of 
the UAS (Unmanned Airborne Systems) expressed in terms of their 
scientific purpose (endurance, extended low-altitude flight) instead of 
abstract and likely unaffordable technological goals. We were impressed 
by the educational vision of the sub-orbital program, recognizing 
aircraft missions as a unique means to provide students with hands-on 
experience and train future leaders. We remain concerned that the core 
aircraft (both manned and UAS) are under-utilized and that this 
represents a substantial cost burden to the program. Hopes from cost-
sharing by non-NASA customers have not materialized. We recommend that 
the sub-orbital program take a hard look at its needs for core aircraft 
to determine whether significant cost savings could be achieved at 
minimal loss for science by decommissioning one of the aircraft.
    We were impressed by the briefing on the ESD technology program 
from manager Amy Walton. The program has a clear focus and balance, 
including in particular the development of cross-cutting and targeted 
technologies aimed at implementing the DS. A concern expressed by 
Walton was how to support the development of targeted technologies 
(directed at one specific mission) without creating a non-competitive 
pipeline for subsequent selection of the mission. We recommend that at 
least two competing approaches or groups be supported in the 
development of any targeted technology in order to maintain competition 
at the subsequent level of mission selection.
    We were asked to review and grade the ESD FY07 Performance and 
Accountability Report, but we were not satisfied by the process under 
which we were asked to carry out the review. The performance report 
submitted to us was very uneven across areas. We would, for example, 
have liked to see for each area i) the number of scientists actively 
carrying out research, ii) a list of publications, iii) perhaps 
abstracts of selected publications, and iv) some synthesis paragraphs 
that provide an overview of activities, accomplishments, and 
hindrances. We were not clearly told what readership was targeted by 
the report. Our own charge was not clear--simply rate each outcome as 
green, yellow or red? Provide critical comments on the supporting text? 
We ask that the procedure for reviewing the ESD Performance Evaluation 
and Accountability Report be improved next year, and that the material 
submitted to ESS for review be more informative.
    We include as Appendices for specific action by the NAC our 
recommendations that (1) the Administrator be advised that NASA will 
default on its response to the DS and have to rethink its Earth Science 
Program if funding for an Earth Science Initiative does not materialize 
by FY 2007; (2) climate free-flyer satellites be used in lieu of NPOESS 
for long-term monitoring of key climate variables, (3) the Earth-Moon 
L1 point be recognized as the optimum platform for observing the Earth 
from the Moon as part of the Lunar Exploration Architecture. Our other 
recommendations may be best considered at the level of the ESD 
leadership.

        Sincerely,

        The Earth Science Subcommittee

APPENDIX 1:

         Proposed Recommendation for the NAC Science Committee

Subcommittee Name: Earth Science

Chair: Daniel J. Jacob

Date of Public Deliberation: June 12-13, 2007

Date of Transmission: June 28, 2007

Short Title of Proposed Recommendation: Action on NASA Earth Science 
Initiative Needed by FY09

Short Description of Proposed Recommendation:

    We ask the NAC to advise the Administrator that in the absence of 
an Earth Science Initiative in place by FY09 to implement the NRC 
Decadal Survey, NASA will have defaulted on its implementation of the 
DS and will need to re-think its whole Earth science strategy with 
input from the broad scientific community. This would represent a major 
failure and we remain hopeful that positive action will be taken over 
the next year.

Outline of the Major Reasons for Proposing the Recommendation:

    The central recommendation from our March 2007 letter to the NAC 
was for an Earth Science Initiative to enable ESD to implement the 
program of 14 missions for 2010-2020 designed by the NRC Decadal Survey 
(DS) and which we fully endorsed. The NAC decided not to forward the 
recommendation to the Administrator on the grounds that requesting new 
funding was outside its charter. This technicality leaves unsolved the 
problem of how NASA is to respond to the DS. At a time of unprecedented 
public concern over global change, NASA cannot just bury its head in 
the sand. As explained in our letter, the current ESD budget outlook 
completely defaults on the DS. Piecemeal implementation of the DS is 
not an option. Implementation of the DS requires new resources from an 
Earth Science Initiative to start in FY09 at the latest. In the absence 
of such an Initiative, NASA will need to totally re-think its long-term 
strategy for Earth Science.

Outline of the Consequences of No Action on the Proposed 
Recommendation:

    This is best stated by the DS Executive Summary: ``In the event of 
budget shortfalls, re-evaluate the entire set of missions given an 
assessment of the current state of international global Earth 
observations, plans, needs, and opportunities. Seek advice from the 
broad community of Earth scientists and modify the long-term strategy 
rather than dealing with one mission at a time.''

APPENDIX 2:

         Proposed Recommendation for the NAC Science Committee

Subcommittee Name: Earth Science

Chair: Daniel J. Jacob

Date of Public Deliberation: June 12-13, 2007

Date of Transmission: June 28, 2007

Short Title of Proposed Recommendation: Free Flier Satellites for 
Climate Monitoring

Short Description of Proposed Recommendation:

    We recommend that long-term monitoring of climate variables from 
space be conducted from ``climate free-flier'' satellites (options 2 
and 3 of the NASA/NOAA NPOESS White Paper), rather than through the 
NPOESS suite, for reasons of both reliability and cost.

Outline of the Major Reasons for Proposing the Recommendation:

    The current NPOESS debacle has heightened the crisis for Earth 
observation from space. The NPOESS climate sensors TSIS, APS, OMPS-
Limn, ERBS, and ALT were de-manifested as part of the recent Nunn-
McCurdy Certification. CMIS was partly maintained but with reduced 
capability. OSTP tasked NASA and NOAA to examine options for recovering 
the ensemble of NPOESS climate measurements through other means. ESD 
shared with us four options presently under consideration in their 
joint discussions with NOAA. Options 1 and 4 involve restoration of the 
climate sensors on later NPOESS satellites, while options 2 and 3 
abandon the association with NPOESS and instead rely on ``climate free-
flier'' satellites to carry the climate sensors. Options 2 and 3 are 
the best choices for reasons of both cost and reliability.

Outline of the Consequences of No Action on the Proposed 
Recommendation:

    As we have stated in previous letters, long-term, continuous, well-
calibrated measurements of key climate variables from space are 
critical for monitoring climate variability and change and for testing 
our understanding of the same. NPOESS has demonstrated its failure in 
commitment to climate monitoring. Long-term climate observations should 
not be held hostage to NPOESS's other priorities. We stand at risk of 
losing critical continuity in measurements of climate variables.

APPENDIX 3:

         Proposed Recommendation for the NAC Science Committee

Subcommittee Name: Earth Science

Chair: Daniel J. Jacob

Date of Public Deliberation: June 12-13, 2007

Date of Transmission: June 28, 2007

Short Title of Proposed Recommendation: Earth Observation from the 
Earth-Moon L1 point

Short Description of Proposed Recommendation:

    We ask the Lunar Exploration Architecture to recognize that 
satellites at the Earth-Moon L1 point supporting lunar operations would 
also represent excellent platforms for observing the Earth.

Outline of the Major Reasons for Proposing the Recommendation:

    The current proposed polar site for the lunar base is not adequate 
for Earth observation because of its limited view of the Earth. An 
outpost at Mt. Malapert with much better Earth viewing capability would 
address this issue, but the best and most cost-effective viewing point 
would be on lunar operations satellites at the Earth-Moon L1 point.

Outline of the Consequences of No Action on the Proposed 
Recommendation:

    A viewing site on the Earth-facing side of the surface of the Moon 
would also be adequate for Earth Science but we are concerned about the 
infrastructure and costs involved, particularly if such a site is not 
associated with the main lunar base. The Earth Science community has a 
lot to gain from viewing platforms associated with Lunar Exploration 
and input from that community should continue to be sought.
                   Answers to Post-Hearing Questions
Responses by Richard A. Anthes, President, University Corporation for 
        Atmospheric Research; Co-Chair, Committee on Earth Science and 
        Applications from Space, National Research Council, The 
        National Academies

Questions submitted by Chairman Bart Gordon

Q1.  At the February 13, 2007 hearing of the Committee on Science and 
Technology on the Earth science decadal survey, Dr. Moore testified 
that ``through focusing on smaller missions and avoiding large, multi-
instrumented platforms, a robust strategy for the future of Earth 
science can be achieved with reasonable investments.'' Could you please 
elaborate on the potential for using small missions?

Q1a.  What is the advantage of this approach over using large 
satellites for multiple instruments?

A1a. There is no simple answer to this question; a mixture of a number 
of small missions with one or just a few instruments (payloads) and a 
few larger, multi-instrumented platforms is probably optimal. Small 
missions are usually much simpler than the large missions and hence can 
be carried out faster, at lower cost, and with less risk. Large 
satellites carrying multiple payloads can also be efficient by sharing 
satellite and launch costs. In addition, it is sometimes important to 
have measurements of different variables made at the same time and 
place, and this is more easily done with a single large platform 
carrying multiple instruments.
    Small, single instrument missions also require less management 
oversight and coordination through the integration and test phase of 
the mission. For multi-instrumented platforms, integrated schedule 
requirements can become a key driver, where the slowest instrument 
drives the schedule (and consequently budget). Smaller platforms with 
fewer instruments, therefore, are less constrained and can maintain a 
higher level of flexibility and often efficiency. The downside, of 
course, is a higher relative cost of spacecraft and launch services 
associated with each instrument needing its own mission.

Questions submitted by Chairman Mark Udall

Q1.  The Earth Science Subcommittee of the NASA Advisory Council's 
Science Committee proposed a NASA Earth Science Initiative. That 
proposal involves redirecting support for a planned FY08 solicitation 
for an Earth System Science Pathfinder to a decadal survey mission. 
What is your reaction to that proposal?

A1. Redirecting the planned FY08 ESSP solicitation to implement a 
decadal survey mission is consistent with the Committee's 
recommendations. The requirements for Earth science observations 
greatly exceed the missions that can be supported with the present NASA 
Earth science budget, which means there is insufficient funding to 
support non-targeted proposal opportunities to the extent needed to 
ensure a robust, innovative total space program. In order to balance 
the need for new, creative approaches with known national observation 
needs, the Decadal Survey's approach was to recommend a set of priority 
science missions and concurrently sponsor ``Venture class'' mission 
opportunities. As stated in the decadal survey, ``The Venture class of 
missions, in particular, would replace, and be very different than the 
current Earth System Science Pathfinder (ESSP) mission line, which 
increasingly has become a competitive means for implementing NASA 
strategic missions.'' Venture class missions are intended to provide 
more frequent funding opportunities for lower cost investigations and 
are not limited to traditional instrument-on-spacecraft missions. As 
the Decadal Survey suggests, Venture class missions could include 
stand-alone missions, instruments of opportunity flown on partner 
spacecraft, or sets of instruments flown on suborbital platforms.
    The current Earth System Science Pathfinder (ESSP) program has not 
provided timely, lower cost missions; moreover, it is difficult to 
develop a focused technology development program if there is not a 
clear set of defined missions at low, medium and higher cost levels. 
Consequently, the Decadal Study recommended replacing the ESSP line 
with Principal Investigator lead Venture class missions and, most 
importantly, to establish a clear sequence of well defined missions. A 
healthy national program requires both the named missions plus regular, 
lower-cost, and competitively selected Venture class missions.

Q2.  Your testimony refers to the importance of ensuring adequate 
instrument characterization, calibration, and validation in 
international collaborations on Earth observing missions. Could you 
please explain why the characterization, calibration, and validation 
are important and what type of information is required for those 
processes?

A2. The characterization, calibration, and validation, sometimes called 
``Cal/Val,'' of all observing systems are part of a quality assurance 
process that must be an integral part of any Earth observing mission. 
All raw observations (e.g., an observed value of radiation from a layer 
in the atmosphere) have errors--bias and random errors. Converting the 
raw observations into useful products (e.g., temperature) and/or using 
them effectively in weather prediction models depend on the algorithms 
used to do the conversion, or processing. The algorithms themselves may 
also introduce errors. Without knowing all of these error properties or 
their characteristics, the observations and derived products are at 
best useless and at worst highly misleading, contributing 
misinformation to users. Thus all new instruments or observing systems 
must be calibrated using other independent observations with known 
accuracies and error characteristics, to make sure the measurements are 
accurate and unbiased. Most instruments in space need periodic re-
calibration as well, since they may ``drift'' away from the truth. In 
addition, the process of obtaining the observations themselves and 
generating the data products derived from them must be validated, so 
that the quality and other characteristics of the observations and 
products are known.
    The calibration process requires comparison of the measurements at 
different levels of processing (e.g., raw and fully processed data) 
with a known standard, and then making adjustments to the instrument or 
the processing algorithms as appropriate to reduce or eliminate any 
biases or other errors. For example, a new weight scale may need 
adjustments to read accurately; without this calibration, the scale 
might read two or three pounds too high or too low, thereby providing 
misleading information. In another example, a new thermometer must be 
calibrated so the error and any required corrections are determined 
(e.g., via calibration constants) so that the thermometer can be 
adjusted to show the true temperature.
    The overall Cal/Val process includes comparing the observations and 
data products against other observations or analyses, to ensure that 
they are accurate. Observations of the same variable, such as 
temperature, from independent instruments and techniques are thus 
valuable for understanding and documenting the errors associated with 
the different measurements. Independent observations of the same 
variable are also very useful in weather prediction models, because 
they produce a more accurate forecast than a single type of observing 
system does. The Decadal Survey report discussed the importance of Cal/
Val in a number of places.

Q3.  What detailed information would scientists require to ensure the 
data provided by international missions/instruments are of research 
quality?

A3. Scientists require the raw data and all the information used to 
process these data; they must know and understand the entire Cal/Val 
process. Without full knowledge of the characteristics of the raw data 
and processing techniques, scientists are unable to verify the accuracy 
and other error properties of the observations and any products derived 
from them. Deriving full benefit from the observations requires full 
knowledge of the Cal/Val process. Scientists also need to know details 
about the instrument and details of its pre-launch characterization to 
understand instrument performance prior to launch.

Q4.  Your testimony refers to the potential lost opportunities for 
verifying the effectiveness of actions to stabilize greenhouse gases, 
monitoring the efforts of other countries to reduce greenhouse gases, 
and ensuring that investments the United States is expected to make in 
reducing greenhouse gas emissions are working. Could you please 
elaborate on how the U.S. Earth observing system might be used to 
validate the effectiveness of U.S. policies, including carbon 
sequestration, and actions to reduce and mitigate the effects of 
climate change?

A4. Satellite observations have a great role to play in monitoring what 
other countries are doing in a variety of environmental areas including 
atmospheric and ocean pollution; deforestation; and other changes in 
land characteristics, urbanization, and agricultural practices and 
yields. In many cases it is impossible to obtain in situ observations 
from other countries because of cost, security, and other issues. 
Satellites provide the only practical means to observe all countries 
and their activities including emission of greenhouse gases.
    As described in the Decadal Survey report, the upcoming Orbiting 
Carbon Observatory (OCO) mission will be particularly valuable in 
validating carbon policy effectiveness. After launch in 2008, the OCO 
mission will collect precise global measurements of carbon dioxide 
(CO<INF>2</INF>) in the Earth's atmosphere. The global coverage, 
spatial resolution, and accuracy of OCO measurements will provide a 
basis to characterize and monitor the geographic distribution of 
CO<INF>2</INF> sources and sinks and quantify their variability. Based 
on these measurements, scientists will map the natural and man-made 
processes that regulate the exchange of CO<INF>2</INF> between the 
Earth's surface and the atmosphere on both regional and continental 
scales.
    Understanding today's regional and temporal patterns of CO<INF>2</INF> 
sources and sinks is necessary for reliable projections of future 
atmospheric CO<INF>2</INF> concentrations. Direct oceanic and 
terrestrial measurements of carbon and/or the flux of CO<INF>2</INF> 
are important, but resource-intensive and hence the observations are 
sparse and difficult to extrapolate in space and time. Space-based 
measurements of primary production and biomass are valuable and needed 
and, consequently, the Decadal Study recommended the DESDynI and 
HyspIRI missions.
    The current set of direct in situ atmospheric observations is far 
too sparse for the determination of CO<INF>2</INF> sources and sinks; 
however, long-term, accurate measurements from space of atmospheric 
CO<INF>2</INF> column measurements with global coverage would allow the 
determination and localization in time and space of CO<INF>2</INF> 
fluxes both over the ocean and over terrestrial systems. What is needed 
for space-borne measurements is a highly precise global data set for 
atmospheric CO<INF>2</INF> column measurements without seasonal, 
latitudinal, or diurnal bias. This is initially being addressed using 
existing satellite-based measurements and with the first generation of 
satellite instruments designed specifically for passive CO<INF>2</INF> 
measurements, such as the Orbiting Carbon Observatory (OCO) and the 
Japanese Greenhouse gas Observing Satellite (GOSAT). While these 
instruments will make a major step forward in our understanding of 
CO<INF>2</INF> distributions, it is internationally recognized that an 
active CO<INF>2</INF> mission using a laser is the only way to achieve 
observations at all seasons and all latitudes, day/night coverage, and 
under both clear and broken cloud conditions. As a result, the Decadal 
Study recommended the development of an active, laser-based CO<INF>2</INF> 
mission, ASCENDS, as the important next step after OCO and GOSAT.

Q5.  Is there a consensus (among federal agencies, academia, and other 
users) on a set of climate and environmental measurements to which the 
nation should commit for sustained observations? If so, what is the 
set? If not, should there be such a set of consensus measurements and 
what would be involved in reaching consensus?

A5. There have been a number of high-quality and intensive studies with 
recommendations of important climate variables that should be monitored 
on a continuous basis, but the lists of ``essential climate variables'' 
generated by these studies are rather long, sometimes including 20 or 
more variables. These ``essential'' observations all contribute to an 
understanding of the total Earth system, and I support them. My very 
short list of absolutely essential observations to make on a continuous 
global basis include solar and Earth radiation, atmospheric and ocean 
temperature, atmospheric water vapor, ozone, carbon dioxide and sea 
level height. The Decadal Survey report recommends several missions to 
obtain these cornerstone climate observations: CLARREO, GPSRO, ASCENDS, 
SWOT, ACE, and PATH. In addition to supporting climate monitoring and 
research, several of these observations also make important 
contributions to weather forecasting and warnings (e.g., atmospheric 
and ocean temperature, atmospheric water vapor and sea level height).
    A recent expert reference containing recommendations for important 
climate variables may be found in: WMO, 2006: Systematic Observation 
Requirements for Satellite-based Products for Climate. Global Climate 
Observing System (GCOS)-107 (WMO/TD No. 1338).

Question submitted by Representative Tom Feeney

Q1.  The Decadal Survey recommends that the Office of Science and 
Technology Policy study and assign roles and responsibilities among 
relevant federal agencies to establish a rational and enduring Earth 
remote sensing program. Have you briefed OSTP on your report, and if 
so, how did they react to your recommendation?

A1. Dr. Berrien Moore and I briefed OSTP on January 30, 2007, just 
after the time of the release of the NRC report, ``Earth Science and 
Applications from Space: National Imperatives for the Next Decade and 
Beyond.'' In addition to a discussion of specific observational needs 
and missions, we discussed the recommendation specifically to OSTP:

    ``Recommendation: The Office of Science and Technology Policy, in 
collaboration with the relevant agencies, and in consultation with the 
scientific community, should develop and implement a plan for achieving 
and sustaining global Earth observations. This plan should recognize 
the complexity of differing agency roles, responsibilities, and 
capabilities as well as the lessons from implementation of the Landsat, 
EOS, and NPOESS programs.''
    . . .as well as the more general recommendation:

    ``Recommendation: A formal interagency planning and review process 
should be put into place that focuses on effectively implementing the 
recommendations made in the present decadal survey report and 
sustaining and building the knowledge and information system for the 
next decade and beyond.''

    In response to these recommendations and a perceived national need, 
OSTP has initiated, under the auspices of the U.S. Group on Earth 
Observations (USGEO) [an interagency subcommittee under the National 
Science and Technology Council], a two-pronged strategy to address 
national Earth observational needs across agencies.
    First, USGEO is developing a national Earth observations policy 
which builds upon the National Space Policy and other existing policies 
to clarify roles and responsibilities of federal agencies in the 
collection, distribution, and preservation of Earth observations data. 
This policy will include guidance on research-to-operations transitions 
and international coordination of Earth observations activities.
    Second, USGEO is simultaneously pursuing an assessment and planning 
effort to begin to establish a national framework that includes 
existing Earth observation capabilities, national Earth observation 
needs, and a gap analysis. USGEO does not intend to inventory or 
catalog every observational capability in the country, but will focus 
on prioritization of the major observational efforts required to 
address the societal benefits outlined in both the USGEO Strategic Plan 
and the NRC Decadal Survey report.
    Because USGEO is a White House group that involves all the active 
Federal agencies engaged in Earth observations, we are hopeful that 
both the policy and the assessment/plan will address these important 
national needs on an interagency basis.

Q2.  To what degree are the governments of large developing countries, 
such as China and India, taking an interest in climate change research 
and attempting to mitigate further damage to the environment? Do they 
acknowledge that climate change may be, in part, a consequence of human 
activity? Has a credible estimate been developed on the amounts of some 
pollutants released into the atmosphere by these countries?

A2. Yes, China and India have great interest in climate change, but it 
is also fairly clear that they are not yet doing very much to mitigate 
the environmental damage, arguing that they should not be asked to do 
anything that might hurt their economy when developed nations like the 
United States are doing so little. China and India both participated in 
the latest IPCC report and agreed with its conclusions. They both 
acknowledge that human activities are a significant part of the cause 
of global warming and climate change (an IPCC conclusion). Yes, 
credible estimates have been developed on the pollution emitted by 
these countries, and satellites have played a role in these estimates 
(for example, aerosols). China and India are both very large 
contributors to carbon dioxide and other pollutant emissions. In 2006 
China moved ahead of the United States as the number one emitter of 
carbon dioxide. It is clear that without significant actions on the 
part of all nations, developing and developed, the emission of 
greenhouse gases and the resultant rate of climate change will only 
increase.

Q3.  The Decadal Survey highlighted the importance of developing a 
strategy to transition technologies from NASA to operational systems. 
How is transition managed today? What steps can NASA take to improve 
technology transition between researchers and the applications 
community?

A3. Frankly speaking, very little of substance has been done to 
facilitate the transition of research to operations since the 2003 NRC 
report Satellite Observations of the Earth's Environment-Accelerating 
the Transition of Research to Operations. That report recommended the 
formation of a joint NASA-NOAA Interagency Transition Office to develop 
and implement a strategy to transition NASA research into NOAA 
operations. As we said in the Decadal Survey, ``An efficient and 
effective Earth observation system requires an ongoing interagency 
evaluation of the capabilities and potential applications of numerous 
current and planned missions for transition of fundamental science 
missions into operational observation programs. The committee is 
particularly concerned with the lack of clear agency responsibility for 
sustained research programs and the transitioning of proof-of-concept 
measurements into sustained measurement systems. To address societal 
and research needs, both the quality and the continuity of the 
measurement record must be assured through the transition of short-
term, exploratory capabilities, into sustained observing systems. 
Transition failures have been exhaustively described in previous 
reports and the committee endorses the recommendations in these 
studies.''
    In terms of concrete steps, the Decadal Survey (Chapter 5, Earth 
Science Applications and Societal Benefits) in Part III discusses a 
number of important aspects of the process of realizing societal 
benefits from Earth observations through scientific research and 
application development: ``These include: (1) establishing mechanisms 
for including priorities of the applications community in space-based 
missions, (2) considering studies of the value and benefits of Earth 
observations published in the social sciences literature, (3) creating 
closer institutional relationships between the science and applications 
(user) communities, (4) having easy availability to observations and 
products derived from observations by the broad user community, and (5) 
educating and training new users of Earth data and information, as well 
as facilitating the creation of a scientifically-informed and literate 
citizenry. Meeting these objectives will require a greater involvement 
of social scientists (e.g., development policy analysts, communication 
researchers, anthropologists, environmental economists) throughout the 
entire mission life cycle, in order to make certain societal needs are 
appropriately considered during the design process, and to ensure 
societal benefits are derived from the implemented observations.''

                   Answers to Post-Hearing Questions

Responses by Eric J. Barron, Dean, Jackson School of Geosciences; 
        Jackson Chair in Earth System Science, University of Texas, 
        Austin

Questions submitted by Chairman Mark Udall

Q1.  You testified that the Decadal Survey calls attention to the need 
for improved understanding of aerosol cloud forcing and ocean 
circulation, two areas ``that are considered to be the most limiting in 
terms of our ability to improve climate model predictions.'' What 
potential gains in the predictive capability of climate models could we 
expect if the Decadal Survey's Aerosol/Cloud/Ecosystems (ACE) and 
Surface Water Ocean Topography (SWOT) missions were to be implemented?

A1. It is difficult to be precise in estimating the degree to which any 
new set of observations will improve our ability to simulate climate. 
Climate models have a number of uncertainties of varying importance, 
which may in fact compound each other or serve to obscure the relative 
importance of individual factors. However, the improvements can be 
placed into perspective in a manner that clarifies their importance.
    Aerosol climate forcing is estimated as having a similar magnitude 
forcing as carbon dioxide, but the uncertainty is five times greater. 
There are several factors governing this large uncertainty: (a) 
aerosols have a short life time in the atmosphere, (b) not all aerosols 
are alike, and the differences in their character define how they 
influence the heating of the Earth's surface and atmosphere, and (c) 
aerosols indirectly influence climate through their affect on cloud 
formation, again a significant factor in defining the Earth's energy 
budget. Interestingly, the estimates of the uncertainties associated 
with aerosols have not changed significantly from earlier IPCC 
projects, indicating that we are making limited progress in this area. 
The ACE mission is designed explicitly to tackle this long-standing 
problem by enabling a better understanding of aerosol-cloud interaction 
through better accuracy, finer resolution and greater spatial coverage.
    Ocean topography allows us to monitor sea level and the heating 
(thermal expansion) of the oceans. In addition, ocean topography is a 
measure of the ocean surface circulation. The continuous measurement of 
ocean surface topography since 1992 provides one of the most 
significant data sets available to assess the capabilities of ocean 
circulation models. However, SWOT offers significant improvement. 
Recent estimates indicate that current climate models are 
overestimating the heat uptake. In concert with mass measurements of a 
GRACE-type instrument, significant improvement in this key attribute 
can be obtained. In addition, the improvement of our understanding of 
upper ocean processes depends on our ability to resolve important 
features, specifically ocean eddies. Increased resolving capability can 
provide a detailed picture of mesoscale circulation that can be used to 
improve our understanding of the physics governing the ocean 
circulation and of the interaction between the ocean and the 
atmosphere, and hence provide an important foundation for improving 
climate models.

Q2.  The Earth Science Subcommittee of the NASA Advisory Council 
proposed a NASA Earth Science Initiative. The proposal involves 
redirecting support for a planned FY08 solicitation for an Earth System 
Science Pathfinder to a decadal survey mission. What is your reaction 
to that proposal?

A2. The Decadal Survey recommends a set of critical observations with 
defined priorities and, in addition, a class of missions that enable a 
more opportunistic approach (to ensure that the program remains 
innovative and able to respond to new scientific discoveries). The 
notion of redirecting a planned FY08 solicitation for an Earth System 
Science Pathfinder (ESSP) to a Decadal Survey mission is a step towards 
achieving the Survey objectives. However, two issues become very 
important. First, the current NASA budget is not sufficient to achieve 
the Decadal Survey's priority missions. The proposal is therefore a 
small part of what must be a much more strategic approach to Earth 
observations. A successful program must follow the carefully defined 
set of missions described by the Decadal Survey, involving small, 
medium, and larger missions (costs). It is difficult to imagine that 
the systematic approach of the Decadal Survey can be achieved with 
ESSP-type missions. Second, we must ensure that the strategy of the 
Decadal Survey is maintained, with a systematic approach to priority 
missions and the inclusion of missions that can be innovative and 
creative. The later opportunities (proposed as Venture class missions), 
as described in the Decadal Survey, are very different from NASA's ESSP 
missions, which are largely opportunities to incorporate competition in 
the implementation of specific objectives.

Q3.  Your testimony refers to potential restrictions on instrument 
information, access to data, and software that may arise in 
international collaborations. What would be the implications of such 
restrictions for climate data sets?

A3. The climate record depends on generating and sustaining long-term 
records in which the observational uncertainties must be smaller than 
the sought-for geophysical measurements. Key to a robust program is to 
ensure (a) overlap in time between instruments in order to identify and 
reduce calibration uncertainties, (b) transparency in programs for 
monitoring sensor calibration and performance, (c) verification of the 
products of analysis algorithms and the ability to reprocess data to 
correct errors in earlier processing algorithms, (d) improved quality 
of the observations within a time series (as opposed to launch of less 
capable instruments), (e) avoidance of orbit drift, and (f) validation 
of geophysical products, providing an independent check on the 
performance of space-based sensors and processing algorithms. 
Restrictions on data access, instrument information, and software 
clearly will restrict or raise questions about many of these keys to a 
robust climate record. The implication is a reduced value to the long-
term investment in observation time series, largely through increased 
levels of uncertainty in the climate data sets.

Q4.  Is there a consensus (among federal agencies, academia, and other 
users) on a set of climate and environmental measurements to which the 
nation should commit for sustained observations? If so, what is the 
set? If not, should there be such a set of consensus measurements and 
what would be involved in reaching consensus?

A4. Substantial, but not universal, consensus exists. The 2003 Global 
Climate Observing System (GCOS) report provides a list of climate 
parameters (``The second report on the adequacy of the global observing 
system for climate in support of the UNFCCC.'' GCOS-82, World 
Meteorological Organization, Tech. Doc 1143, 85 pp., 2003). This report 
was adopted by the Climate Variability and Change Panel and provides a 
high level of consensus on needed measurements. The Climate Variability 
and Change Panel then assessed current observing capabilities and those 
planned for the coming decade to develop a table within Chapter 9 of 
critical climate variables and mission needs.
    More generally, the observations need to address specific 
requirements. Our observations must document the forces on the climate 
system (solar and volcanic activity, greenhouse gases and aerosols, 
changes in the land surface and albedo), the state of the atmosphere, 
ocean, ice and land surface to understand how the system is changing, 
the characteristics of internal variability that may obscure long-term 
change, and the feedback processes involving the atmosphere, land and 
ocean, biogeochemical cycles and the hydrologic cycle. It is the 
assessment of the Climate Variability and Change Panel of the status of 
current and planned measurements in comparison with the GCOS report 
that defined the critical missions proposed in the Decadal Survey.

Questions submitted by Representative Tom Feeney

Q1.  To what degree are the governments of large developing countries, 
such as China and India, taking an interest in climate change research 
and attempting to mitigate further damage to the environment? Do they 
acknowledge that climate change may be, in part, a consequence of human 
activity? Has a credible estimate been developed on the amounts of some 
pollutants released into the atmosphere by these countries?

A1. China and India are both participants in the IPCC process and have 
endorsed the conclusions of the report. Certainly, this indicates a 
level of acknowledgement that climate is changing and is significantly 
a consequence of human activity. The large populations of India and 
China make them significant contributors to carbon dioxide and other 
greenhouse gases, as well as aerosols. There are reliable estimates of 
greenhouse gas contributions by the countries of the world, and 
contributions of China rival (and recently passed) those of the United 
States in magnitude. China has instituted a major study to look at the 
impacts of climate change on China, in part modeled after U.S. reports 
to examine the potential consequences of climate variability and 
change. Such research activities imply a more active interest in 
assessing potential damage to the environments of China. However, there 
is little sign of efforts to mitigate climate change. My opinion is 
that the economic growth within China and India is the foremost factor 
in setting policy. Without global agreement on emissions mitigation, 
between developing and developed countries, there appears to be little 
incentive to take action in China or India. Research studies on 
impacts, as they emerge, may alter this viewpoint. China's new position 
as the number one emitter of carbon dioxide may also result in greater 
world pressure to address emissions.

Q2.  The Decadal Survey highlighted the importance of developing a 
strategy to transition technologies from NASA to operational systems. 
How is transition managed today? What steps can NASA take to improve 
technology transition between researchers and the applications 
community?

A2. There are two significant National Research Council Reports on the 
transition of NASA technologies to operational systems. The first is 
From Research to Operations in Weather Satellites and Numerical Weather 
Prediction: Crossing the Valley of Death (2000), and the second is 
Satellite Observations of the Earth's Environment-Accelerating the 
Transition from Research to Operations (2003). The investment in 
transitioning valuable information and technologies from NASA into 
operations is extremely small. The first report recommended a joint 
NASA-NOAA testbed for promoting transition from research to operations, 
and a small office was funded. The second report recommended an 
Interagency Transition Office to develop and implement a strategy for 
transition. The progress here is small and the problems are numerous. 
There is a lack of investment in the transition of technologies, there 
is a lack of clear agency responsibilities, and there is a lack of 
defined strategy. The consequence is that a very large amount of 
capability never achieves a status of serving society.
    I also believe that this is not a matter of just transitioning 
technologies. One could cite numerous instances in which the 
observations, different data sets, and model capabilities of NASA and 
NOAA could serve different segments of society ranging from human 
health, water management, energy conservation, agriculture, etc. Today, 
we have a very small ``applications'' program, designed to help provide 
data and expertise for specifically identified needs of society where 
NASA or NOAA data can be useful. This is valuable, but, in fact, we 
have the potential to do much more to benefit society. For example, we 
have the potential to develop predictive models for adverse human 
health outcomes related to the environment (including weather and 
climate), but this requires active, collaborative research in 
environmental health that brings together climate researchers with the 
medical community to define the connections and relationships that will 
enable such predictive capability. Such outcomes don't occur simply by 
providing data sets, it occurs by deliberately investing in areas that 
have the potential to transform our large investment in NASA and NOAA 
into societal benefits.

                   Answers to Post-Hearing Questions

Responses by Timothy W. Foresman, President, International Center for 
        Remote Sensing Education

Questions submitted by Chairman Bart Gordon

Q1.  According to the report of the MODIS Science Team, as documented 
in The Earth Observer publication, ``The use of MODIS data for land 
studies has exceeded even our most optimistic expectations and has been 
an unprecedented success for NASA's terrestrial program.'' Will follow-
on sensors to MODIS have the capability to support the growing number 
of applications derived from MODIS data? If not, what will be the 
impact?

A1. MODIS is an experiment. If MODIS was to become operational, then a 
growing number of applications could depend upon the platform. 
Continuity of the sensors and the MODIS program would have to be 
carefully discussed with the user community and appropriate government 
agencies (e.g., NOAA, USGS) to define any operational scenarios.

Questions submitted by Chairman Mark Udall

Q1.  Could you please discuss some of the applied uses of Landsat data?

A1. There are so many applied uses of Landsat data that any single 
treatment will not do justice. The applications in use over the past 
thirty-five years include a broad range of civil engineering uses, 
public health and disease vector monitoring uses, master planning and 
urban design, water resources, forestry, and a litany of environmental 
uses. I used Landsat data on behalf of the Department of Defense for 
both environmental work and for war planning in the middle east. I use 
Landsat data for a variety of projects while working for the US EPA. 
And Landsat traveled with me to the United Nations where good use has 
been applied to studying the dynamics of the planet over a three-decade 
period. There has been not substitute for this powerful tool.

Q1a.  What are the potential implications of any disruptions in the 
long-term Landsat data record for the applied uses of the data?

A1a. Disruptions would be a great disservice to the U.S. and the world. 
It would be akin to not taking x-rays of your teeth for a ten years 
after carefully maintaining your dental health. There is no suitable 
replacement. If the U.S. allows a disruption, the science community and 
the state and county managers will be at a significant loss.

Q1b.  What scientific and operational value do the thermal imaging data 
of the Landsat program provide?

A1b. Thermal data has proven to be extremely valuable for a variety of 
environmental and energy related applications. As energy becomes more 
adult in the workings of communities, they will find more use for the 
thermal bands.

Q2.  Your testimony refers to non-governmental organizations and their 
use of Earth science data to address societal needs. Is there an 
appropriate role for NASA in supporting these activities through 
technical assistance, training, data access, or other means?

A2. It is my opinion that NASA could provide a great service for the 
many NGOs around the country and world. NASA has subsidized a variety 
of commercial businesses, but has not been vary successful with the 
NGOs. A better understanding of the challenges, missions, and scale of 
assistance to NGOs would provide society with many benefits.

Questions submitted by Representative Tom Feeney

Q1.  The Decadal Survey highlighted the importance of developing a 
strategy to transition technologies from NASA to operational systems. 
How is transition managed today? What steps can NASA take to improve 
technology transition between researchers and the applications 
community?

A1. NASA would require outside expert assistance from experienced 
business professionals to handle the transition of technologies to 
operational status. The mindset and experience in NASA does not allow 
for high success in transitions. Many transitions, however, would be 
best supported by quasi-government arrangements as the sensors may be 
more scientific in nature and use and not lend themselves to commercial 
enterprise. The major of sensors fall into this category.

Q2.  Your statement recommends that NASA ``include Earth as its primary 
planet of study and Earth sciences at its core.'' What do you mean by 
this statement? Are you suggesting that NASA abandon or seriously 
reduce other lines of space research?

A2. As the former chief environmental scientist for the United Nations, 
it is my opinion that the scarce resources be applied to studying and 
monitoring the Earth's systems as the alarming rates of extinction, 
land and soil degradation, and ecosystem collapses will impact current 
and future generations. Robotic missions are the most cost effective 
and allow for widespread web-collaboration among students and 
scientists around the globe. I would strongly recommend that space 
exploration be re-engineered to focus on remote sensing and robotics 
and not squander precious time and resources on human-oriented lunar 
and Mars missions.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
